No. 19-309

In the Supreme Court of the United States
————
GOVERNOR OF DELAWARE, PETITIONER
v.
JAMES R. ADAMS, RESPONDENT
————
ON CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

————
JOINT APPENDIX
————
MICHAEL W. MCCONNELL
Counsel of Record
for Petitioner
STEFFEN N. JOHNSON
BRIAN J. LEVY
G. EDWARD POWELL III
Wilson Sonsini Goodrich &
Rosati, PC
1700 K Street, N.W.
Washington, DC 20006
(202) 973-8800
mmcconnell@wsgr.com

DAVID L. FINGER
Counsel of Record
for Respondent
Finger & Slanina, LLC
One Commerce Center
201 N. Orange St., 7th fl.
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgroup.com

RANDY J. HOLLAND
Wilson Sonsini Goodrich &
Rosati, PC
222 Delaware Avenue
Suite 800
Wilmington, DE 19801
(302) 304-7600
[Additional Counsel Listed On Inside Cover]
PETITION FOR CERTIORARI FILED SEPTEMBER 4, 2019
CERTIORARI GRANTED DECEMBER 6, 2019

DAVID C. MCBRIDE
MARTIN S. LESSNER
PILAR G. KRAMAN
Young Conaway Stargatt
& Taylor, LLP
Rodney Square
1000 North King Street
Wilmington, DE 19801
(302) 571-6600
Counsel for Petitioner

i
TABLE OF CONTENTS
Page
United States District Court for the District
of Delaware, Relevant Docket Entries:
Adams v. Carney,
No. 1:17-cv-00181-MPT .......................................... 1
United States Court of Appeals for the Third
Circuit, Relevant Docket Entries: Adams
v. Governor of Delaware, No. 18-1045 ................... 9
First Amended Complaint, dated
April 10, 2017 ....................................................... 15
Appendix re: Opening Brief in Support of
Motion for Summary Judgment by John
Carney, dated September 29, 2017 ..................... 27
Deposition Transcript of James R. Adams
and Exhibits ......................................................... 29
Response to First Set of Interrogatories
Directed to Plaintiff.............................................. 57
Voter Registration Card of James Robert
Adams ................................................................... 67
Debates and Proceedings of the
Constitutional Convention of the State
of Delaware, Volume II ........................................ 68
House Bill No. 581, 129th Gen.
Assembly, June 30, 1977.................................... 128
Senate Bill No. 296, 132nd Gen.
Assembly, June 7, 1983...................................... 131
Senate Bill No. 61, 143rd Gen.
Assembly, March 24, 2005 ................................. 135

ii
Judicial Vacancy Announcements ..................... 144
Judgment Order, dated December 6, 2017 ............. 165
Memorandum Opinion Granting Plaintiff’s
Motion for Summary Judgment and
Denying Defendant’s Motion for
Summary Judgment,
dated December 6, 2017 ..................................... 166
Defendant’s Notice of Appeal, dated
January 5, 2018 .................................................. 183
Exhibit A to Plaintiff’s Response to
Defendant’s Motion to Stay District
Court Judgment Pending Appeal,
dated June 12, 2018 ........................................... 186
Defendant’s Amended Notice of Appeal,
dated June 20, 2018 ........................................... 190
Memorandum Order Denying Defendant’s
Motion for Reconsideration and
Granting Defendant’s Motion to Stay
Judgment, dated June 25, 2018......................... 193
Addendum to Defendant-Appellant’s
Opening Brief in the Third Circuit
Court of Appeals, dated July 18, 2018 .............. 208
Order Granting Writ of Certiorari, dated
December 6, 2019 ............................................... 228

iii
NOTICE
*The following opinions, decisions, judgments, and
orders have been omitted in printing the joint
appendix because they appear on the following pages
to the Petition for Writ of Certiorari:
Third Circuit Court Precedential
Opinion, dated April 10, 2019 .............. Pet. App. 1a
Third Circuit Court Judgment,
dated April 10, 2019 ........................... Pet. App. 42a
Third Circuit Court Order
Denying Rehearing and
Rehearing En Banc,
dated May 7, 2019 .............................. Pet. App. 44a
Delaware District Court
Memorandum Order, Denying
the Motion for Reconsideration
and Granting the Motion for
Clarification, dated
May 23, 2017 ...................................... Pet. App. 46a
Delaware District Court Memorandum
Opinion Clarifying (and
Restating in Large Part) its
December 6, 2017 Memorandum
Opinion, dated May 23, 2017 ............. Pet. App. 61a
Delaware District
Court Order Granting
Judgment to Defendant,
dated May 23, 2017 ............................ Pet. App. 83a

1
U.S. DISTRICT COURT
DISTRICT OF DELAWARE (WILMINGTON)
————
Civil Docket for Case #: 1:17-cv-00181-MPT
————
JAMES R. ADAMS,
v.
HONORABLE JOHN CARNEY
Governor of the State of Delaware
————
RELEVANT DOCKET ENTRIES
DATE

NO.

02/21/2017 1

PROCEEDINGS
COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF - filed
against John Carney – Magistrate
Consent Notice to Pltf. ( Filing fee
$ 400, receipt number 0311-2088398.)
- filed by James R. Adams.
(Attachments: # 1 Civil Cover
Sheet)(rwc) (Entered: 02/21/2017)
* * *

03/21/2017 6

MOTION to Dismiss for Lack of
Jurisdiction Over the Subject Matter
- filed by John Carney. Motions referred to Mary Pat Thynge.(Sabesan,
Roopa) (Entered: 03/21/2017)

03/21/2017 7

OPENING BRIEF in Support re 6
MOTION to Dismiss for Lack of
Jurisdiction Over the Subject Matter
filed by John Carney.Answering

2
Brief/Response due date per Local
Rules is 4/4/2017. (Attachments: # 1
Exhibit A, # 2 Certificate of Service)
(Sabesan, Roopa) (Entered: 03/21/2017)
* * *
04/10/2017 10 First AMENDED COMPLAINT
against John Carney- filed by James
R. Adarns.(Finger, David) (Entered:
04/10/2017)
04/17/2017 11 ANSWERING BRIEF in Opposition
re 6 MOTION to Dismiss for Lack of
Jurisdiction Over the Subject Matter
filed by James R. Adams.Reply Brief
due date per Local Rules is
4/24/2017. (Finger, David) (Entered:
04/17/2017)
* * *
04/25/2017 14 ORDER: With the filing of the
Answer to the Amended Complaint
13, the motion to dismiss for lack of
subject jurisdiction 6 is rendered
moot. Signed by Judge Mary Pat
Thynge on 4/25/17. (cak) (Entered:
04/25/2017)
* * *
09/29/2017 28 MOTION for Summary Judgment filed by John Carney. (Connell,
Ryan) (Entered: 09/29/2017)
09/29/2017 29 OPENING BRIEF in Support re 28
MOTION for Summary Judgment
filed by John Carney.Answering
Brief/Response due date per Local

3
Rules is 10/13/2017. (Connell, Ryan)
(Entered: 09/29/2017)
09/29/2017 30 APPENDIX re 29 Opening Brief in
Support of Motion for Summary
Judgment by John Carney. (Connell,
Ryan) (Entered: 09/29/2017)
09/29/2017 31 MOTION for Summary Judgment filed by James R. Adams. (Finger,
David) (Entered: 09/29/2017)
09/29/2017 32 OPENING BRIEF in Support re 31
MOTION for Summary Judgment
filed by James R. Adams.Answering
Brief/Response due date per Local
Rules is 10/13/2017. (Finger, David)
(Entered: 09/29/2017)
* * *
10/13/2017 34 ANSWERING BRIEF in Opposition
re 31 MOTION for Summary Judgment filed by John Carney.Reply
Brief due date per Local Rules is
10/20/2017. (Connell, Ryan) (Entered:
10/13/2017)
10/13/2017 35 ANSWERING BRIEF in Opposition
re 28 MOTION for Summary Judgment , 31 MOTION for Summary
Judgment filed by James R.
Adams.Reply Brief due date per
Local Rules is 10/20/2017. (Finger,
David) (Entered: 10/13/2017)
* * *

4
10/23/2017 37 REPLY BRIEF re 28 MOTION for
Summary Judgment filed by John
Carney. (Connell, Ryan) (Entered:
10/23/2017)
10/23/2017 38 REPLY BRIEF re 31 MOTION for
Summary Judgment filed by James
R. Adams. (Finger, David) (Entered:
10/23/2017)
12/06/2017 39 ORDER denying 28 Defendant’s
Motion for Summary Judgment and
granting 31 Plaintiffs Motion for
Summary Judgment. Signed by
Judge Mary Pat Thynge on 12/6/17.
(cak) (Entered: 12/06/2017)
12/06/2017 40 MEMORANDUM OPINION granting plaintiffs motion for summary
judgment 31 and denying defendant’s motion for summary judgment
28. Signed by Judge Mary Pat
Thynge on 12/6/17. (cak) (Entered:
12/06/2017)
* * *
12/20/2017 42 MOTION for Reconsideration re 40
Memorandum Opinion, 39 Order on
Motion for Summary Judgment, filed by John Carney. (Connell,
Ryan) (Entered: 12/20/2017)
12/21/2017 43 RESPONSE to Motion re 42
MOTION for Reconsideration re 40
Memorandum Opinion, 39 Order on
Motion for Summary Judgment,
filed by James R. Adams. (Finger,
David) (Entered: 12/21/2017)

5
* * *
12/28/2017 49 REPLY to Response to Motion re 42
MOTION for Reconsideration re 40
Memorandum Opinion, 39 Order
on Motion for Summary Judgment,
filed by John Carney. (McBride,
David) (Entered: 12/28/2017)
01/05/2018 50 NOTICE OF APPEAL of 40 Memorandum Opinion, 39 Order on Motion
for Summary Judgment, . Appeal
filed by John Carney. (Kraman,
Pilar) (Entered: 01/05/2018)
* * *
02/21/2018 57 MOTION for Order to Show Cause
Why Defendant the Hon. John Carney
Should Not Be Held in Contempt of
Court and for Expedited Consideration - filed by James R. Adams.
(Attachments: # 1 Text of Proposed
Order, # 2 Exhibit A, # 3 Exhibit B,
# 4 Exhibit C, # 5 Exhibit D)(Finger,
David) Modified on 3/8/2018 (cak).
(Entered: 02/21/2018)
03/07/2018 58 RESPONSE to Motion re 57 MOTION
for Order to Show Cause Why Defendant the Hon. John Carney Should
Not Be Held in Contempt of Court
and for Expedited Consideration
filed by John Carney. (Attachments:
# 1 Exhibit A)(McBride, David)
Modified on 3/8/2018 (cak). (Entered:
03/07/2018)
* * *

6
03/13/2018 59 REPLY BRIEF re 57 MOTION for
Order to Show Cause Why Defendant
the Hon. John Carney Sholuld Not
Be Held in Contempt of Court and for
Expedited Consideration filed by
James R. Adams. (Finger, David)
(Entered: 03/13/2018)
05/23/2018 60 MEMORANDUM AND ORDER re
41 MOTION for Attorney Fees
/For an Award of Fees and Costs
Pursuant to 42 U.S.C. §1988 and
Federal Rule of Civil Procedure 54(d)
filed by James R. Adams, 51 MOTION
to Defer Ruling on Attorney’s Fees
and Costs Pending Appeal 41
MOTION for Attorney Fees /For an
Award of Fees and Costs Pursuant to
42 U.S.C. §1988 and Federal Rule of
Civil Procedure 54(d) filed by John
Carney, 57 MOTION for Order to
Show Cause Why Defendant the Hon.
John Carney Should Not Be Held in.
Contempt of Court and for Expedited
Consideration filed by James R.
Adams, 42 MOTION for Reconsideration re 40 Memorandum Opinion,
39 Order on Motion for Summary
Judgment filed by John Carney.
Signed by Judge Mary Pat Thynge on
5/23/18. (cak) (Entered: 05/23/2018)
05/23/2018 61 MEMORANDUM OPINION Clarifying the Court’s Opinion Issued
December 6, 2017. Signed by Judge
Mary Pat Thynge on 5/23/18. (cak)

7
(Main Document 61 replaced on
5/23/2018) (cak). (Entered: 05/23/2018)
05/23/2018 62 JUDGMENT ORDER: Consistent
with the reasoning contained in the
Memorandum Opinion of December
6, 2017 and Clarified in the Reissued
Opinion dated May 23, 2018, IT IS
ORDERED and ADJUDGED that
plaintiffs motion for summary judgment (D.I. 31) is GRANTED, and
defendants motion for summary judgment (D.1. 28) is DENIED. Signed by
Judge Mary Pat Thynge on 5/23/18.
(cak) (Entered: 05/23/2018)
06/01/2018 63 MOTION to Stay re 39 Order on
Motion for Summary Judgment, 62
Judgment, Pending Appeal - filed by
John Carney. (Attachments: # 1
Defendant’s Certification Pursuant
to D. Del. LR 7.1.1, # 2 Exhibit A, # 3
Text of Proposed Order)(Kraman,
Pilar) (Entered: 06/01/2018)
* * *
06/12/2018 66 RESPONSE to Motion re 63
MOTION to Stay re 39 Order on
Motion for Summary Judgment, 62
Judgment, Pending Appeal (with
Exhibit A) filed by James R. Adams.
(Finger, David) (Entered: 06/12/2018)
06/18/2018 67 REPLY to Response to Motion re
MOTION to Stay re 39 Order
Motion for Summary Judgment,
Judgment, Pending Appeal filed

63
on
62
by

8
John Carney. (Kraman,
(Entered: 06/18/2018)

Pilar)

06/20/2018 68 Amended NOTICE OF APPEAL of 40
Memorandum Opinion, 60 Memorandum and Order,,, 61 Memorandum
Opinion, 39 Order on Motion for
Summary Judgment, 62 Judgment, .
Appeal filed by John Carney. (Kraman,
Pilar) (Entered: 06/20/2018)
06/25/2018 69 MEMORANDUM ORDER IT IS
ORDERED that defendant’s Motion
to Stay 63 is GRANTED. The court’s
judgment Order 39 62 is hereby
STAYED pending appeal to the
United States Court of Appeals for
the Third Circuit. Signed by Judge
Mary Pat Thynge on 6/25/18. (cak)
(Entered: 06/25/2018)
* * *
05/15/2019 82 MANDATE of USCA as to 50 Notice
of Appeal (Third Circuit) filed by
John Carney. USCA Decision:
Affirmed in Part/Reversed in
Part.(Attachments:#(1) Opinion)(cw,
) (Entered: 05/15/2019)

9
UNITED STATES DISTRICT COURT OF APPEALS
FOR THE DISTRICT OF DELAWARE
————
Court of Appeals Docket #: 18-1045
————
JAMES R. ADAMS,
v.
GOVERNOR OF DELAWARE
————
RELEVANT DOCKET ENTRIES
DATE

PROCEEDINGS

01/14/2018 CIVIL CASE DOCKETED. Notice filed
by Appellant Governor of Delaware in
District Court No. 1-17-cv-00181, (CJG)
[Entered: 01/14/2018 12:58 PM]
* * *
07/18/2018 ECF FILER: ELECTRONIC BRIEF with
Volume I of Appendix attached on behalf
of Appellant Governor of Delaware, filed.
Certificate of Service dated 07/18/2018 by
ECF, Email, hand delivery. [18-1045]
(DCM) [Entered: 07/18/2018 02:53 PM]
07/18/2018 ECF FILER: ELECTRONIC JOINT
APPENDIX on behalf of Appellant
Governor of Delaware, filed. Certificate
of service dated 07/18/2018 by ECF,
Email, hand delivery. [18-1045] (DCM)
[Entered: 07/18/2018 02:58 PM]
* * *

10
07/19/2018 ECF FILER: ELECTRONIC ADDENDUM
to APPENDIX on behalf of Appellant
Governor of Delaware containing Docket
of United States District Court for the
District of Delaware Civil Action No.
17-181-MPT. Certificate of Service dated
07/19/2018 by ECF, Email, hand delivery.
[18-1045] (PGK) [Entered: 07/19/2018
08:36 PM]
* * *
08/15/2018 ECF FILER: ELECTRONIC BRIEF on
behalf of Appellee James R. Adams, filed.
Certificate of Service dated 08/15/2018 by
hand delivery. [18-1045] (DLF) [Entered:
08/15/2018 12:35 PM]
* * *
08/31/2018 ECF FILER: ELECTRONIC REPLY
BRIEF on behalf of Appellant Governor
of Delaware, filed. Certificate of Service
dated 08/31/2018 by ECF, Email, hand
delivery. [18-1045] (DCM) [Entered:
08/31/2018 03:05 PM]
* * *
09/13/2018 ECF FILER: SUMMARY OF ORAL
ARGUMENT submitted by Attorney
David C. McBride, Esq. for Appellant
Governor of Delaware. Case Summary:
Whether Plaintiff has standing to
challenge constitutionality of Art. IV,
Sec. 3 of Del. Constitution for appointment of Judges to certain Del. Courts;
and whether political balance requirements of Art. IV, Sec. 3 violate Plaintiffs

11
1st Amendment rights.. Post Video: YES.
[18-1045] (DCM) [Entered: 09/13/2018
03:37 PM]
09/25/2018 COURT MINUTES OF ARGUED/
SUBMITTED CASES. [17-3318, 153213, 18-1045, 17-2373, 17-3397, 173415, 17-3748] (CMH) [Entered: 09/25/2018
07:11 AM]
09/25/2018 ARGUED on Tuesday, September 25,
2018. Panel: MCKEE, RESTREPO and
FUENTES, Circuit Judges. David L.
Finger arguing for Appellee James R.
Adams; David C. McBride arguing for
Appellant Governor of Delaware. (CMH)
[Entered: 09/25/2018 01:00 PM]
02/05/2019 PRECEDENTIAL OPINION Coram:
MCKEE, RESTREPO and FUENTES,
Circuit Judges. Total Pages: 39. Judge:
FUENTES Authoring, Judge: MCKEE
Concurring, Judges Restrepo and Fuentes
join. [-VACATED Per Courts 4/10/19
Order.]--[Edited 04/10/2019 by CJG] (LM
R) [Entered: 02/05/2019 08:52 AM]
02/05/2019 JUDGMENT, the revised judgment of
the District Court entered on May 23,
2018 granting the Appellee’s motion for
summary judgment and denying the
Appellant’s motion for summary judgment and the order entered May 23,
2018 denying the Appellant’s motion for
reconsideration are AFFIRMED in part
and REVERSED in part. Each party to
bear its own costs. [-VACATED Per
Court’s 4/10/19 Order.]--[Edited 04/10/2019

12
by CJG] (LMR) [Entered: 02/05/2019
08:58 AM]
* * *
02/13/2019 ORDER AMENDING OPINION (Coram:
MCKEE, RESTREPO and FUENTES,
Circuit Judges) On page 11, the text of
footnote 16 shall be replaced. An amended
precedential opinion is being filed concurrently with this Order. The amendment
does not substantively change the Opinion,
therefore, the filing date of the Opinion
will not be modified nor the judgment.,
Fuentes, Authoring Judge. (LMR)
[Entered: 02/13/2019 10:29 AM]
02/13/2019 AMENDED PRECEDENTIAL OPINION
Coram: MCKEE, RESTREPO and
FUENTES, Circuit Judges. Total Pages:
39. Authoring Judge: Fuentes: MCKEE
Concurring, Judges Restrepo and Fuentes
join. [-VACATED Per Court’s 4/10/19
Order.]--[Edited 04/10/2019 by CJG]
(LMR) [Entered: 02/13/201910:32 AM]
02/18/2019 ECF FILER: Petition filed by Appellant
Governor of Delaware for Rehearing before
original panel and the court en banc.
Certificate of Service dated 02/18/2019.
Service made by ECF, Email, hand delivery. [18-1045] (DCM) [Entered: 02/18/2019
05:25 PM]
04/10/2019 ORDER
filed
(Coram:
MCKEE,
RESTREPO and FUENTES, Circuit
Judges) The Petition for Rehearing by
the panel is granted. The Court’s judgment entered February 5, 2019, and the

13
Court’s precedential opinion as amended
February 13, 2019 are hereby VACATED.
A subsequent opinion and judgment will
be issued. Authoring Judge: Fuentes. *As
the merits panel has vacated the prior
opinion and judgment, action is not
required by the en banc court. Judges
Jordan and Bibas have voted for rehearing en banc. (CJG) [Entered: 04/10/2019
10:27 AM]
04/10/2019 PRECEDENTIAL OPINION Coram:
MCKEE, RESTREPO and FUENTES,
Circuit Judges. Total Pages: 44. Judge:
FUENTES Authoring, Judge: MCKEE
Concurring. (CJG) [Entered: 04/10/2019
10:32 AM]
04/10/2019 JUDGMENT, Affirmed In Part and
Reversed In Part. Each party to bear its
own costs. (CJG) [Entered: 04/10/2019
10:35 AM]
* * *
04/23/2019 ECF FILER: Petition filed by Appellant
Governor of Delaware for Rehearing before
original panel and the court en banc.
Certificate of Service dated 04/23/2019.
Service made by ECF, Email, hand
delivery. [18-1045] (DCM) [Entered:
04/23/2019 04:24 PM]
05/07/2019 ORDER (SMITH, Chief Judge, MCKEE,
AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY
JR.,
SHWARTZ, KRAUSE, RESTREPO,
BIBAS,
PORTER,
MATEY
and
FUENTES*, Circuit Judges) denying

14
Petition En Banc and Panel Rehearing
filed by Appellant Governor of Delaware,
filed. Fuentes, Authoring Judge. *Pursuant
to Third Circuit I.O.P. 9.5.3., Judge
Fuentes’s vote is limited to panel rehearing. **Judges Jordan, Hardiman, Krause,
and Bibas voted to grant rehearing.
(LMR) [Entered: 05/07/2019 02:45 PM]
05/15/2019 MANDATE ISSUED, filed.
[Entered: 05/15/2019 05:25 PM]

(CLW)

07/18/2019 U.S. Supreme Court Letter dated
07/16/2019 granting Appellant Governor
of Delaware an extension of time to
and including 09/04/2019 to file petition
for writ of certiorari. Supreme Court
Application No. 19A57. (CRG) [Entered:
08/12/2019 05:25 PM]
09/09/2019 NOTICE from U.S. Supreme Court.
Petition for Writ of Certiorari filed by
Governor of Delaware on 09/04/2019 and
placed on the docket on 09/06/2019,
Supreme Court Case No. 19-309. (AWI)
[Entered: 09/09/2019 02:44 PM]

15
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 1:17-cv-00181 (VAC-MPT)
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
FIRST AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF
UNDER 42 U.S.C. §19831
————
INTRODUCTION
1. Plaintiff James R. Adams brings this action
pursuant to 42 U.S.C. §1983 to have that portion of
Article IV, Section 3 of the Constitution of the State of
Delaware requiring that judges in Delaware be selected
based, in part, on their political affiliation, and excluding members of minority political parties, be declared
unconstitutional as being in violation of the right to
freedom of political association guaranteed by the First
Amendment to the Constitution of the United States.

1

This First Amended Complaint is being filed as of right pursuant to Fed. R. Civ. P. 15(a)(1)(B). Changes are underlined for
convenience.

16
PARTIES
2. Plaintiff James R. Adams is a graduate of
Ursinus College and Delaware Law School. He member of the Bar of the State of Delaware. He resides in
New Castle County, Delaware. After three years in
private practice, he went to work for the Delaware
Department of Justice. There, he served as Assistant
State Solicitor under Attorney General Beau Biden.
He has also served as Deputy Division Director of the
Family Division, which handles cases involving domestic violence, child abuse and neglect, child support
orders, and juvenile delinquency and truancy. He
retired from the Department of Justice on December
31, 2015. Until recently, he was registered as a Democrat, but is currently registered as an Independent.
3. Defendant the Hon. John Carney is the Governor of the State of Delaware. Pursuant to Article IV,
Section 3 of the Constitution of the State of Delaware,
the Governor is responsible for appointing judges to
Delaware state courts. Since 1977, Delaware governors have established by executive order a judicial
nominating commission to identify highly qualified
candidates for judicial appointments. Ten of the eleven
members of the Commission are appointed by the Governor. The president of the Delaware State Bar Association, with the Governor's consent, nominates the eleventh member, who is then appointed by the Governor.
The judicial nomination commission provides to the
Governor a list of recommended candidates.
VENUE, SUBJECT MATTER
JURISDICTION AND STANDING
4. Venue is appropriate in this Court pursuant to
28 U.S.C. §1391(b), as all of the parties in this action

17
reside in Delaware and all of the events involved in
this action took place in Delaware.
5. This Court has subject matter jurisdiction over
this action pursuant to 28 U.S.C. §1331 as the case
arises under the First Amendment to the Constitution
of the United States and 42 U.S.C. §1983.
6. Mr. Adams has standing to bring this challenge
as he is a member of the Delaware Bar who at various
times has desired to apply for a judgeship but has been
unable to do so in certain circumstances because he
was not of the required political party. As a general
matter, to establish standing to challenge an allegedly
unconstitutional policy, a plaintiff must submit to the
challenged policy. That requirement for standing, however, may be excused only a plaintiff shows that application for the benefit would have been futile. Application would have been futile because Article IV, Section
3 of the Constitution of the State of Delaware mandates political balance, and the Judicial Nominating
Commission and the Governor would be required to
abide by that law. Because of the political affiliation
limitations imposed by the Delaware Constitution,
applying for a judgeship in those circumstances would
constitute a futile act, thereby excusing Mr. Adams
from having to engage in such act to have standing.
7. After leaving the Department of Justice, Mr.
Adams took a brief sabbatical, and now is ready to get
back to work. He has desired and still desires a judgeship. He contacted the State of Delaware Office of
Pensions to inquire what would happen to his pension
if he were appointed to a judgeship. He was informed
that, during his time as a judge his pension would be
suspended, but would be restored after he retired from
the Bench.

18
8. Several vacancies were announced. On February
14, 2017, the Judicial Nominating Committee sent out
a Notice of Vacancy due to the retirement of the Honorable Robert Young. On March 20, 2017, the Judicial
Nominating Committee sent out a Notice of Vacancy
due to the retirement of the Honorable Randy Holland
of the Delaware Supreme Court. Prior to that official
announcement (and prior to the filing of the initial
Complaint in this action), Mr. Adams heard word that
Justice Holland would be retiring. He was (and is)
interested in Justice Holland's seat, but was inhibited
from applying because of the announced limitation
that the candidate had to be a Republican. Since Mr.
Adams was not (and is not) a Republican, any application he would make would be immediately rejected,
and so applying was futile.
BACKGROUND
9. Article IV, Section 3 of the Constitution of the
State of Delaware contains a provision, unique to
Delaware, which provides, in pertinent part, that:
Appointments to the office of the State Judiciary shall at all times be subject to all of the
following limitations:
First, three of the five Justices of the
Supreme Court in office at the same time,
shall be of one major political party, and two
of said Justices shall be of the other major
political party.
Second, at any time when the total number of
Judges of the Superior Court shall be an even
number not more than one-half of the
members of all such offices shall be of the
same political party; and at any time when
the number of such offices shall be an odd

19
number, then not more than a bare majority
of the members of all such offices shall be of
the same major political party, the remaining
members of such offices shall be of the other
major political party.
Third, at any time when the total number of
the offices of the Justices of the Supreme Court,
the Judges of the Superior Court, the Chancellor and all the Vice-Chancellors shall be an
even number, not more than one-half of the
members of all such offices shall be of the
same major political party; and at any time
when the total number of such offices shall be
an odd number, then not more than a bare
majority of the members of all such offices
shall be of the same major political party; the
remaining members of the Courts above
enumerated shall be of the other major
political party.
Fourth, at any time when the total number of
Judges of the Family Court shall be an even
number, not more than one-half of the Judges
shall be of the same political party; and at any
time when the total number of Judges shall
be an odd number, then not more than a
majority of one Judge shall be of the same
political party.
Fifth, at any time when the total number of
Judges of the Court of Common Pleas shall be
an even number, not more than one-half of
the Judges shall be of the same political
party; and at any time when the total number
of Judges shall be an odd number, then not
more than a majority of one Judge shall be of
the same political party.

20
10. Thus, the Constitution of the State of Delaware
requires that:
a. A bare majority of the Delaware Supreme
Court must be members of "one major political party, " with the rest having to be members "of the other major political party."
Although the Constitution of the State of
Delaware does not define the phrase
"major political party, " the Delaware Code
defines it as "any political party which, as
of December 31 of the year immediately
preceding any general election year, has
registered in the name of that party voters
equal to at least 5 percent of the total number of voters registered in the State, " 15
Del. C. §101(15);
b. When there is an even number of judges of
the Superior Court, half of the seats must
be filled by members of one political party.
Where there is an odd number of judges of
the Superior Court, a "bare majority" of the
seats must be filled by members of one
"major political party" with the remaining
seats to be filled by members of "the other
major political party";
c. When there are an even number of seats of
the Supreme Court, the Superior Court
and the Court of Chancery, not more than
half of those seats must be held by
members of the same political party. If
there are an odd number of the total seats
amongst those three courts, no more than
a bare majority may be filled by members
of one "major political party," and the

21
remaining seats "shall be of the other
major political party";
d. In the Family Court and the Court of Common Pleas, if there are an even number of
seats, no more than half of those seats may
be held by members of the same political
party. If there are an odd number of seats,
members of the same political party may
constitute only a bare majority of the total
number of seats.
11. When the Judicial Nominating Commission
sends out notices of judicial vacancies (examples of
which are attached hereto as Exhibit A), the notices
state which political party will be considered for a
given opening.
12. The First Amendment to the Constitution of
the United States of America states, in pertinent part,
that "Congress shall make no law ... abridging ... the
right of the people peaceably to assemble." This clause
has given rise to what is known as the "freedom of
association. "
13. Under the First Amendment freedom of
association, the government may not exclude anyone
from public employment on the basis of their political
affiliation. The basic right of political association is
assured by the First Amendment to the United States
Constitution and is protected against state
infringement by the Fourteenth Amendment.
14. It is well settled that a state may not condition
hiring or discharge of employees in a way which
infringes on their right to political association. It is
equally well established that conditioning hiring
decisions on political belief and association plainly
constitutes an unconstitutional condition.

22
15. There are two recognized exceptions to the
constitutional restriction on employment based on
political association: (i) where the position is high
enough that the job has direct influence on policy, or
(ii) where the employee's private political beliefs would
interfere with the discharge of his or her public duties.
16. Neither of those exceptions apply here.
Delaware judges have consistently stated that it is the
job of the Legislature, and not the courts, to set policy.
And no one suggests that, other than appearing before
the Legislature to request funding, Delaware judges
have any policy-related interaction with government
officials.
17. Further, Delaware judges of both political
parties have served the State honorably, without fear
or favor. There has never been occasion to question a
judge's ruling as being based on his or her political
affiliation. As such, there is no basis to conclude that
a judge's private political beliefs would interfere with
the performance of his or her public duties.
18. Several rationales have been offered over the
years for the benefits of a politically balanced
judiciary. None of them stand up to analysis, and none
of them are sufficient to overcome the high burden
necessary to overcome First Amendment protections.
They are addressed below:
a. It has been said that a politically balanced
judiciary helps emphasize the expertise
and independence of the judiciary. Delaware
already has a built-in incentive to maintain the high quality of its judiciary. As
part of its effort to continue to attract and
maintain entity formations and related
litigation in Delaware (with corporate

23
franchise taxes being a significant part of
Delaware's revenue), Delaware touts the
high quality and expertise of its judiciary
in addressing corporate and commercial
issues. This does not rationally come from
political affiliation or balance, but rather
from selecting judges for their knowledge,
intellectual rigor and sense of justice.
Those qualities are not the exclusive province of one political party, and the absence
of a political balance requirement would
free the Governor to choose from either
political party to draw on the expertise of a
candidate belonging to the other major
party without generating partisan political
repercussion. The absence of political balance poses no risk to the State's ability to
find and seat the best and the brightest.
b. It is also been said that political balance is
necessary to insure that the courts are fair
and impartial. Yet the other 49 states do
not require political balance, and while
there may be complaints about the fairness
of a ruling (as there no doubt are similar
gripes about the occasional Delaware ruling), there is no evidence that Delaware's
rulings are either more or less fair and
impartial than the rulings of any other
state (or, for that matter, the federal judiciary). Moreover, Canon 2, Rule 2.5(A) of the
Delaware Judges Code of Judicial Conduct
provides that " [a] judge should be unswayed by partisan interests, public clamor,
or fear of criticism. " One federal court of
appeals has stated that "Partisan balance
amongst the judges who comprise the

24
court, alone, has little bearing on impartiality. " Common Cause Indiana v. Individual Members of the Indiana Election
Com'n, 800 F.3 913, 924 (7th Cir. 2015).
c. It has been suggested that political balance
assures that election fraud issues (which
have not been an issue in Delaware) are
not decided purely (as opposed to mostly)
by one party. This proposition improperly
assumes that the governor of one party
will fill the courts with political hacks who
will do the party's bidding. The incentives
discussed above would protect against a
judiciary of political hacks.
d. It has been said that political balance helps
insure a non-politicized judiciary. As
stated previously, there are already builtin incentives to avoid that appearance.
Moreover, there is no assurance that decisions of a given judge or a panel of the
Delaware Supreme Court would be decided
lockstep with their political party's position.
e. It has been said that political balance has
helped attract people of exceptional ability
and dedication to serve as judges. Again,
those qualities are not the province of any
one political party, nor is there any basis
to suggest that, absent political balance,
highly-qualified lawyers will be inhibited
from applying. To the contrary, the absence of a requirement of political balance
will encourage people, regardless of political affiliation, to seek appointment.

25
19. As shown above, none of the arguments set
forth above satisfies the high burden necessary to
overcome the First Amendment freedom of association.
20. Article IV, Section 3 of the Constitution of the
State of Delaware deprives Mr. Adams and all
Delaware lawyers of opportunities for judicial
appointments because of their political affiliation, in
violation of the First Amendment to the Constitution
of the United States.
21. The Governor makes judicial appointments
pursuant to the authority granted to him by the
Constitution of the State of Delaware. He is currently
compelled by the Constitution of the State of Delaware
to exercise that authority in a politically
discriminatory way. The Governor takes these actions
under color of state law.
WHEREFORE, for the foregoing reasons, plaintiff
James R. Adams respectfully requests that this Court
enter an Order (i) holding that the provision of Article
IV, Section 3 of the Constitution of the State of
Delaware mandating political balance on the courts is
unconstitutional as it violates the freedom of association guaranteed by the First Amendment to the Constitution of the United States, (ii) permanently enjoining the use of political affiliation as a criterion for the
appointment of judges to the Courts of Delaware, and
(iii) awarding Mr. Adams his costs and reasonable
attorneys' fees pursuant to 42 U.S.C. §1988.

26
Respectfully submitted,
/s/ David L. Finger _________________
David L. Finger (ID #2556)
Finger & Slanina, LLC
One Commerce Center
1201 N. Orange St., 7th fl.
Wilmington, DE 19801
(302) 573-2525
Attorney for plaintiff James R. Adams
Dated:

April 10, 2017

27
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 1:17-CV-00181
(VAC-MPT)
JURY TRIAL DEMANDED
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
APPENDIX TO THE HON. JOHN
CARNEY'S OPENING BRIEF
IN SUPPORT OF HIS MOTION
FOR SUMMARY JUDGMENT
————
STATE OF DELAWARE DEPARTMENT OF JUSTICE
AARON R. GOLDSTEIN (#3735)
State Solicitor
Carvel State Building, 6th Floor
Wilmington, Delaware 19801
(302) 577-8400
STATE OF DELAWARE DEPARTMENT OF JUSTICE
CHRISTIAN DOUGLAS WRIGHT (#3554)
RYAN P. CONNELL (#5423)
Deputy Attorneys General
Carvel State Building, 6th Floor
Wilmington, Delaware 19801
(302) 577-8400
Attorneys for The Hon. John Carney
Date: September 29, 2017

28
TABLE OF CONTENTS
Page
DEPOSITION TRANSCRIPT OF JAMES R.
ADAMS ................................................................

A-1

RESPONSE TO FIRST SET OF
INTERROGATORIES DIRECTED TO
PLAINTIFF ......................................................... A-46
VOTER REGISTRATION CARD OF JAMES
ROBERT ADAMS ................................................ A-55
DEBATES AND PROCEEDINGS OF THE
CONSTITUTIONAL CONVENTION OF THE
STATE OF DELAWARE, VOLUME II .............. A-56
HOUSE BILL NO. 581, 129TH GEN.
ASSEMBLY, JUNE 30, 1977 .............................. A-97
SENATE BILL NO. 269, 132ND GEN.
ASSEMBLY, JUNE 7, 1983 ................................ A-99
SENATE BILL NO. 61, 143RD GEN.
ASSEMBLY, MARCH 24, 2005 ......................... A-101
JUDICIAL VACANCY ANNOUNCEMENTS .... A-107

29
In The Matter Of:
Adams v.
The Hone. John Carney
————
James R. Adams
September 13, 2017
————
Wilcox & Fetzer, Ltd.
1330 King Street
Wilmington, DE 19801
email: depos@wilfet.com, web: www.wilfet.com
phone: 302-655-0477, fax: 302-655-0497
[LOGO]
Original File Adams v. The Hon
09-13-17 depo of James Adams.txt
Min-U-Script(R) with Word Index

30
[1] IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 1:17-CV-00181-MPT
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
Deposition of JAMES R. ADAMS taken pursuant to
notice at the offices of the Department of Justice, 820
North French Street, Wilmington, Delaware, beginning
at 9:50 a.m., on Wednesday, September 13, 2017, before
Kimberly A. Hurley, Registered Merit Reporter and
Notary Public.
————
WILCOX & FETZER
Registered Professional Reporters
1330 King Street - Wilmington, Delaware 19801
(302) 655-0477
www.wilfet.com
————
[2] APPEARANCES:
DAVID L. FINGER, ESQUIRE
FINGER & SLANINA, LLC
1201 North Orange Street - 7th Floor
Wilmington, Delaware 19801
for the Plaintiff

31
RYAN P. CONNELL, DEPUTY ATTORNEY
GENERAL
DEPARTMENT OF JUSTICE
820 North French Street
Wilmington, Delaware 19801
for the Defendant
————
[3] JAMES R. ADAMS, the witness herein, having
first been duly sworn on oath, was examined and testified as follows:
BY MR. CONNELL:
Q. I know you have been through this process before,
but just the usual reminder about verbalizing the
responses, no hand gestures. But I think you know the
drill.
A. Yes.
Q. Could you just state your full name for the
record?
A. James Adams.
Q. I got your interrogatory responses, and I did just
want to clarify some stuff on the dates.
A. Sure.
MR. FINGER: Do you have a copy for me to review
with you?
MR. CONNELL: I don’t have another copy.
MR. FINGER: We won’t insist on it unless Mr.
Adams has a question.
MR. CONNELL: I’m just going to [4] ask questions
about some of the things we’re going to discuss.

32
BY MR. CONNELL:
Q. It says that in 2015 you retired from the DOJ?
A. Yes. I took my pension in the end of 2015. The
last day of the year.
Q. You went all the way to the end of 2015?
A. Yes.
Q. Right before New Year's.
A. December 31st of '15 was my last day.
Q. What have you been doing professionally since
then?
A. I retired at the end of '15, and I decided to take
my own personal sabbatical for a little while in '16
because I had never taken any time off in my life. As a
matter of fact, I worked in high school, worked my way
through college, and worked forever. And I always
envied people that were able to take a little time off.
So since I had been working forever, I started to take
a few months off in '16, and then made up my mind I
was going to [5] take a year off and then go back to
work the beginning of '17.
So I went on emeritus status through the Bar, knowing that I wasn't going to work and kind of take a sabbatical in '16, and then went back active the beginning
of '17 when I decided I wanted to start working again.
Q. I’m not familiar with emeritus status.
A. Without having the rules in front of me, I'm not
sure I will get it exactly correct, but emeritus status,
it reduces your Bar fee, first of all, and you're not allowed
to do private practice. You can do pro bono work, but
no work for income, basically.

33
Q. Would you say the main benefit would be reducing fee?
A. Reducing fee. Also to me was I wasn't really planning on actively looking for a job right at that time
anyway, so it kind of made sense, because what I had
done was, I had called the Bar Association and said, I
want to continue to be active, I want to continue to
work, but I want to take a sabbatical for a [6] little
while, what's the best thing to do. And it was actually -it was actually their response, why don't you go emeritus for a while and then go back active when you're
actively looking for a job again. I kind of took their recommendation on what to do.
Q. So 2016 and your emeritus status has come and
gone for a good way through 2017. Are you -A. I thought long and hard what I wanted to do. I
wanted to apply for a judicial position. It was really
the only thing that I hadn't done in my career that I
really wanted to do. And that's what I decided to do
when I became active again.
Q. So you haven't been looking for other opportunities?
A. No.
Q. I just wanted to confirm, your address is in
Townsend?
A. Yes.
Q. That's New Castle County?
A. Yes.
Q. Your interest now is applying for a [7] judicial
vacancy of some sort.
A. Uh-huh.

34
Q. Could you elaborate a little bit on what particular judicial positions interest you?
A. I would apply for any judicial position that I
thought I was qualified for, and I believe I'm qualified
for any position that would come up.
Q. On any of the courts?
A. On any of the courts. I would feel less comfortable on Chancery than any other court. I would feel most
comfortable on Superior Court, Family Court, Court of
Common Pleas, state Supreme Court based on my background, experience, and what I have done in my
career.
Q. I notice in your interrogatory responses you indicated that you had applied for a Family Court commissioner job in -A. 2009 I believe it was, yes.
Q. What prompted you to apply for that?
A. I was working in the Family Division. I was
supervising the Juvenile Delinquency and [8] Truancy
Unit. I thought about -- I had thought before about
applying for a position, but I was a little concerned
about the need for political connections to apply for a
position and get on the bench, and at that time as a
supervisor here, I had a lot of contact with the chief
judge of Family Court, and the chief judge of Family
Court, in addition to a couple other judges in Family
Court, kind of said, you should apply. The Chief judge
in particular said she would like to have me as a
commissioner in Family Court, that she thought I
would be good as a commissioner and she could work
well with me.
Q. So you applied, but you were not selected?

35
A. I was not selected.
Q. The commissioner jobs, do they go through the
JNC process?
A. Yes.
Q. So you had an interest in some sort of a judicial
position in 2009. Is there a reason you didn't apply for
any other judicial positions since 2000, then?
[9] A. When I was here at the Department of Justice, I moved up from a regular deputy position to
supervisor of the Juvenile Delinquency Unit. First, I
was supervisor of the Child Protection Unit and then
supervisor of the Juvenile Delinquency Unit and then
deputy state solicitor. So I was going through a process
where I was getting promotions here. Since I was getting promotions here, I was happy with what I was
doing. It became kind of secondary.
There was also -- I loved working for Beau Biden,
and I had a lot of respect for Beau Biden, and I wanted
to stay here as long as Beau was Attorney General.
And loyalty is very important to me, and I felt very
loyal to Beau, and I didn't think it was right to leave
while Beau was here. And I also in my mind had a
hope that -- I think a number of us felt that Beau was
eventually going to run for governor, and my hope was
that he would stay here as attorney general until the
time he ran for governor, and I thought I would eventually find some spot to [10] stay in state government
with Beau as governor.
Things changed when Beau got ill, and then in, I
think it was, 2014, if I remember, a couple positions
came up, and I thought of applying, but they were republican. They were designated as republican positions.
So I couldn't apply.

36
And then Beau died. That also -- Beau dying also
had an impact on me, and what I did over that next
year, year and a half up until now, because when Beau
died, it had a personal impact on me because I really
admired Beau, but it was also -- professionally it kind
of changed direction or possibilities that professionally
I would have thought about.
Q. I can't recall. Did Beau step down from AG before
he passed away?
A. Yes. He finished his term in -- let me see if I get -the end of '14, and Matt Denn was elected at the
November of '14 and -- but Beau had announced before
he left that he was running for governor and then he
[11] died in '15. He died during that last year that I
was still here.
And Beau, although he was very ill, I think was still
hoping that he would recover. And a lot of us were praying for the same thing. So that last year when I was
still here he still officially was running for governor.
Q. So the transition from Beau to Matt was in
January of 2015?
A. Yes.
Q. It all runs together for me.
A. Yes.
Q. Let me ask you another question about dates.
You indicated in the interrogatory that you switched
your party affiliation in 2017?
A. Yes.
Q. Can you be a little more specific on when?

37
A. I think I listed it in the interrogatory. If not, I
don't have the date like right in front of me, but it was
in the beginning of 2017.
[12] Q. I think you just put 2017.
A. I can get the date -- I don't have the date right in
front of me.
MR. FINGER: Be careful not to talk over each other.
BY MR. CONNELL:
Q. So beginning of 2017 works for me.
A. It was the beginning of 2017. I mean, I have the
date. I have a voter registration card. I can provide that
information. I just don't have it in front of me.
Q. Would you happen to know off the top of your
head if it was January or February?
A. It was probably January or February I would say.
MR. FINGER: We will be happy to provide that.
BY MR. CONNELL:
Q. Other than your counsel, Mr. Finger, who have
you discussed this lawsuit with?
A. Joel Friedlander, who's an attorney here in
Wilmington.
Q. Do you know when you first communicated with
him about this?
[13] A. When I decided that I wanted to pursue this,
I had done a little bit of research. I was aware of this
issue for years. This wasn't something that just came
up now. I was aware of this issue for years and discussed it with other people for years, including people
in this office who, in private conversations, had said
that the political balance part of the constitution was

38
unconstitutional. And people who had said to me that
someone needs to challenge sometime.
So when this came up and I decided to do this, I had
went back and done a little bit of research. I had
researched some of this in the past just out of curiosity,
but this time when I researched it, I saw a Law Review
article that Joel Friedlander had written for Arizona
Law Review recently, over the past couple years. And
I had never read it before. And it was excellent, and it
had all the points in it that I had always thought.
And so I called him up and said, you know, "I just
read your Law Review [14] article. I'd like to pursue
this." And we talked. He gave me the names of a couple
of attorneys, and that's how. . .
Q. Do you know when that conversation with
Friedlander was?
A. Again, it would have been the beginning of
that -- beginning of this year, January/February.
Q. So very shortly before you filed this?
A. Yeah. Beginning of the year. It was not -- it was
sometime this year, put it that way. Beginning of the
year, January/February.
Q. You say this has been an issue on your radar for
years.
A. Oh, yes.
Q. Maybe you can't, but do you have any idea how
many years, like how long this has been on your radar?
A. Fifteen, twenty years. I don't remember the first
time I ever had a discussion about this, but I remember having a lengthy discussion with the division
director here in the Department of Justice a few —
number of years ago, going back 10 or 12 years [15]

39
ago, and saying to the division director here, who was
actually applying to be a judge: "How do they justify
this as being constitutional? It's unconstitutional."
And the division director, who was applying to be a
judge, said, "Oh, yeah, it's unconstitutional. Most people know it's unconstitutional, but nobody wants to
challenge it because they know it will injure their
career."
I actually brought it up in informal conversations
with judges at Family Court on more than one occasion
and said, "How does this continue? It's unconstitutional."
And they said, "Yeah, but it's like the Delaware way
and no one's going to challenge it. So as long as no one
challenges it, it's going to stay that way."
With other attorneys I discussed this through the
years and they pretty much said, look, a younger, upand-coming attorney is not going to challenge the
constitutionality of the political balance for judicial
appointments because it will have a [16] negative impact
on their career, so why would they. What they will do
is join one party or the other and work as hard as they
can for that party and make political contributions and
work the system to try to get on the bench. They're not
going to get anything out of fighting it because it's
unconstitutional.
So I have had that conversation with people for
years, a lot of years, and all the conversations I had
with people that I said, "I don't understand how this is
constitutional. It seems unconstitutional to me," I
think everyone I ever talked to agreed with me and
said, yeah, it's unconstitutional, but it's the way it's
done in Delaware.

40
Q. Is it your position that politics don't play a role
in other jurisdictions?
A. No, but as far as I know, Delaware is the only
jurisdiction that requires political balance and that
divvies up positions based solely on politics, political
parties, and that eliminates any possibility of other
than democrats and republicans serving on certain
courts.
[17] I mean, if we were sitting here and talking
about anything other than requirements being political, we wouldn't be having this discussion. If Delaware
had a constitution that said, you know, a certain race
or religion or gender was eliminated from being
judges, everyone would say that's obviously discrimination. About one-quarter to one-third of the population in Delaware is registered as independents; they're
not allowed to be judges.
Q. You would say in the federal system it would be
unusual, in your experience, for a president to appoint
someone outside of his party?
A. As far as I know, there is no requirement in the
federal system that says you have to be a member of a
specific party to apply for that position. As a matter of
fact, I read an article in the paper just a week or so ago
about the speculation of who would be the new federal
judge here in Delaware, and it was two republicans
and a democrat. I mean, whoever is making that choice
can make their [18] choice, but you don't eliminate the
possibility of someone applying for the position.
Q. On the subject of politics, you indicated, and we
discussed it, that this year you switched your party
affiliation from democrat to independent.
What prompted that change?

41
A. There's probably two or three factors went into
that. I have been a democrat my whole life and actually
worked within the democratic party here in Delaware,
worked within my district in the democratic party and
gave that up because I was very frustrated with the
workings of the democratic party when I volunteered.
I am a progressive, and I tend to be much more progressive and liberal than democrats in Delaware. Most
democratic leaders in Delaware to me are not really
progressive democrats. In most states they would be
moderate republicans. I don't consider people like
Senator Carper a progressive democrat. I worked in
this office [19] and saw a lot of the workings behind
the scenes with the Markell administration and I
thought that Governor Markell performed more as a
republican than a progressive democrat.
So I had a frustration with -- and I think a number
of progressives have a frustration with the Delaware
democratic party anyway.
But the one person that I really had hoped for and
admired was Beau Biden, who I did think was progressive, and I was in meetings with Beau on so many
occasions. I knew he was different and knew he was
the one that I had hopes that something would change
within the democratic party in Delaware because
of Beau. But when Beau died, to me that didn't
leave anybody that I could really align with, feel
comfortable -- as comfortable with in Delaware.
And then during the presidential campaign, which I
spent, like everybody else spent, a lot of time following,
I admired Bernie Sanders and what he stood for and
what he did and the message he gave out, and I [20]
think if Bernie Sanders would have been nominated,

42
he would be beat Trump in an election, and I think the
fact that he wasn't gave us Trump as a president.
So at some point the combination of everything
combined with me led me to think that I should change
party registration to an independent. So if -- independents are independents for different reasons. I would
probably consider myself more of a Bernie independent because I consider myself in a different position
than democrats at this point. And that's not just maybe
locally but nationally at this point, because I think if
the democratic party starts to change and go in that
direction, they're going to face difficulty.
So it was a personal -- that's a long answer, but it
was a personal choice based on a lot of thought and a
lot of process that went over a pretty long period of
time.
Q. I understand what you're saying, but wasn't it
sort of obvious that the machine was kind of working
against Bernie Sanders well [21] before 2017?
MR. FINGER: I think you have to lay a foundation
for him to be able to answer that question.
BY MR. CONNELL:
Q. I think you sort of testified that you felt that
Sanders sort of got nucleated out of the running.
A. That's not what I meant, if that's the way it came
off. What I meant was that I think that -- I think
people become energized by certain politicians and the
idea and policies that they present, and I felt myself
energized by Bernie Sanders and what he -- the
message he had. And I have found over a number of
years that I'm not as energized by what's often a much
more moderate message from democrats here locally in
Delaware and sometimes nationally. So that kind of

43
doesn't leave a lot of choices in terms of party
affiliation.
Q. You mentioned in this deposition and in your
interrogatories that you were interested in applying to
some judicial [22] positions I think in '14?
A. I think there was a Superior Court -- if I can
recall correctly, a Superior Court position and
Supreme Court position.
Q. Just look that over for a minute.
A. (Complied.)
I don't recall, to be honest. I don't recall this position. And I don't know at that point in year what was
going on in '14. So I don't -- no, I don't recall.
Q. My only question is: By looking that over, you'd
agree that you were qualified to apply for that job?
A. Qualified -- I think I'm qualified to apply for any
judicial position. The constitution says I'm only qualified for this position. I'm qualified for any judicial position. But at that point -- at that point, under the constitution's guideline of who's qualified for judicial
positions, I was registered as a democrat, so I would
have qualified for this position, although there were
other positions that year that were limited to republicans that, according to the [22] Delaware constitution,
I was not qualified for.
It's kind of like those old discrimination cases about
whether you're in front of the bus or the back of the
bus. The Delaware constitution has decided that sometimes independents are allowed in the back of the bus
and sometimes they can't get on the bus.
Q. I was just asking --

44
A. Yes, I could have gotten the back of the bus on
that one, yes.
Q. You were democrat at the time?
A. Yes.
Q. You had the qualifications -A. At that point, yes.
Q. So you believe you had the qualifications in
terms of legal skills and party for that -A. For that opening, yes.
MR. CONNELL: Could we put that in as an exhibit?
(Adams Deposition Exhibit No. 1 was marked for
identification.)
[24] MR. CONNELL: Let me mark this one in
advance as the next exhibit.
(Adams Deposition Exhibit No. 2 was marked for
identification.)
BY MR. CONNELL:
Q. Could you just look at the first part of that notice
under "Justice of the Supreme Court of the State of
Delaware"?
A. This one here?
Q. I'm sorry. This one. On Exhibit 2.
A. Okay.
Q. My only question is basically what it was before
which is: You would agree that you were constitutionally qualified for that judicial position, correct?
A. Yes.
Q. That's all I've got on that one.

45
(Adams Deposition Exhibit No. 3 was marked for
identification.)
BY MR. CONNELL:
Q. You looked it over?
A. Yes.
Q. Same question: You'd agree you were constitutionally qualified for that job?
[25] A. Yes.
Q. I think I'm almost done.
MR. FINGER: With exhibits or the entire thing?
MR. CONNELL: We're getting close to being done.
MR. FINGER: I think we can stipulate that any
opening that required the democratic appointment my
client was qualified for.
MR. CONNELL: Or in these cases, I suppose these
were -MR. FINGER: There's one that said either party.
BY MR. CONNELL:
Q. We would agree that you were constitutionally
qualified for -A. Yes.
MR. CONNELL: If we agree on that, I don't think
we have much more to do here today.
MR. FINGER: You're running the show.
MR. CONNELL: Let me just check [26] through my
notes. I think we hit all the high points here.

46
BY MR. CONNELL:
Q. Just to go back to the one question. You mentioned you discussed this with Joel Friedlander. Was
there anybody beyond him and your attorney you
discussed this with?
A. No.
MR. FINGER: Let me clarify. You mean outside of
discussions with lawyers? Are you talking about just
lawyers now?
MR. CONNELL: I guess I meant it to be a broader
question.
BY MR. CONNELL:
Q. Outside of your family. I don't need to know that.
A. No, not that I can recall, no, actually.
Q. You can provide me with a copy of your voter
registration card?
A. Yes.
MR. CONNELL: I don't have anything else.
MR. FINGER: No counter. I [27] would like to read
and sign.
THE COURT REPORTER: Would you like a copy of
the transcript?
MR. FINGER: Yes.
(Deposition concluded at 10:20 a.m.)
-----

47
[28] TESTIMONY
DEPONENT: JAMES R. ADAMS

PAGE

Examination by Mr. Connell ....................................... 3
EXHIBITS
ADAMS DEPOSITION EXHIBIT NO.

MARKED

Exhibit 1 - Email dated October 15, 2014 ................ 23
Exhibit 2 - Document entitled,
“Notice,” dated July 28, 2014 .................................... 24
Exhibit 3 - Email dated April 23, 2014 ..................... 24
DIRECTIONS NOT
TO ANSWER

PAGE

LINE

PAGE

LINE

NONE
REQUESTS MADE
FOR DOCUMENTS
NONE
ERRATA SHEET/
DEPONENT’S SIGNATURE ......................... PAGE 30
CERTIFICATE OF REPORTER .................... PAGE 31
[29] READING AND SIGNING INSTRUCTIONS
After reading the transcript of your deposition,
please note any change or correction and the reason
therefor on the errata sheet that appears on the following page. DO NOT MAKE ANY MARKS OR NOTATIONS ON THE TRANSCRIPT ITSELF. Please sign
and date the errata sheet and return it to our office at
the address indicated below. Our office will distribute
copies of the executed errata sheet to all counsel. If

48
necessary, you can make additional copies of the
errata sheet.
Rule 30(e) governing this procedure provides the
deposition may be filed as transcribed if you do not
return a signed errata sheet within 30 days.
RETURN ORIGINAL ERRATA SHEET TO:
Wilcox & Fetzer, Ltd.
1330 King Street, Wilmington, DE 19801
depos@wilfet.com - 302-655-0477

49
[30] DEPONENT: JAMES R. ADAMS
DATE: SEPTEMBER 13, 2017
CASE: ADAMS v. THE HON. JOHN CARNEY
ERRATA SHEET
PAGE/ LINE/

CHANGE OR CORRECTION AND
REASON

-----/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / -----------------------------------------------------------------/ ---- / ------------------------------------------------------------I have read the foregoing transcript of my deposition
and, except for any corrections or changes noted above,
I hereby subscribe to the transcript as an accurate
record of the statements made by me.
Date:
Signature of Deponent

50
[31] CERTIFICATE OF REPORTER
State of Delaware

)

New Castle County

)

I, Kimberly A. Hurley, Registered Merit Reporter
and Notary Public, do hereby certify that there came
before me on Wednesday, September 13, 2017, the
deponent herein,
JAMES R. ADAMS, who was duly sworn by me and
thereafter examined by counsel for the respective parties; that the questions asked of said deponent and the
answers given were taken down by me in Stenotype
notes and thereafter transcribed by use of computeraided transcription and computer printer under my
direction.
I further certify that the foregoing is a true and correct transcript of the testimony given at said examination of said witness.
I further certify that I am not counsel, attorney, or
relative of either party, or otherwise interested in the
event of this suit.
[/s/ Kimberly A. Hurley]
Kimberly A. Hurley, RPR, RMR
Dated: September 20, 2017

51
[Adams Deposition Exhibit No. 1]
Connell, Ryan (DOJ) _____________________________
From:

doeLegal on behalf of Delaware Attorney
Listsery (Courts)
<notify_listservAttorneys@doelegal.com>
Sent:
Wednesday, October 15, 2014 2:45 PM
To:
Connell, Ryan (DOJ)
Subject:
[DELAWARE COURTS] JNC Notice of
Vacancy - President Judge Superior Court
Importance: High
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor
that the following offices can be filled by the appointment of the Governor with the concurrence of the
Senate:
President Judge of the Superior Court
of the State of Delaware
(Due to the appointment of The Honorable James T.
Vaughn, Jr. to the Delaware Supreme Court)
There are requirements of political balance under
Art. IV, § 3 of the Delaware Constitution and, in this
case, the appointee must be a member of the Democratic Party, a current Judge of the Superior Court, or
both. The appointee must be a citizen of the State of
Delaware and learned in the law. The position provides a current annual salary of $191,360.
Persons who meet the legal qualifications of the
offices described above are invited to file with the
Commission a “Questionnaire for Nominees for Judicial Office.” The form may be obtained from the Commission by calling (302) 856-4235 and asking for Staci

52
Hammonds or can be downloaded online at http://
courts.delaware.gov by going to the general information
navigation tab at the top, clicking career opportunities
arid then clicking on “Questionnaire for Nominees for
Judicial Office” under the heading for judicial officer
postings. Any person desiring to suggest candidates is
invited to write to the Commission.
Completed Questionnaires must be received no later
than 12 noon, November 3, 2014, at the below-listed
address. Interviews of candidates will be scheduled
thereafter.
Judicial Nominating Commission
The Hon. William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: October 10, 2014

53
[Adams Deposition Exhibit No. 2]
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the
Governor that the following offices can be filled by the
appointment of the Governor with the concurrence of
the Senate:
Justice of the Supreme Court of
the State of Delaware
(Due to the retirement of
The Honorable Carolyn Berger)
There are requirements of political balance under
the Delaware Constitution Art. IV § 3 and, in this case,
the appointee must be a member of the Democratic
Party; The appointee must be a citizen of the State of
Delaware and learned in the law. The position provides a current annual salary of $ 191,860.
Commissioner of the Superior Court,
New Castle County
(Due to the retirement of
The Honorable Michael P. Reynolds)
There is a requirement of political balance under 10
Del.C. § 511(a) and, in this case, the appointee may be
a member of either party. There also are requirements
that the appointee be a resident of New Castle County
and duly admitted to practice before the Supreme
Court of the State of Delaware. The position provides
a current annual salary of $111,275.
Persons who meet the legal qualifications of the offices
described above. are invited to file with the Commission a “Questionnaire for Nominees for Judicial Office.”
The form may be obtained from the Commission by
calling (302) 856-4235 and asking for Staci Hammonds

54
or can be downloaded online at http://courts.delaware.
gov by going to the general information navigation tab
at the top, clicking career opportunities and then
clicking on “Questionnaire for Nominees for Judicial
Office” under the heading for judicial officer postings.
Any person desiring to suggest candidates is invited to
write to the Commission.
Completed Questionnaires must be received no later
than 12 noon, August 27, 2014, at the below-listed
address. Interviews of candidates will be scheduled
thereafter. It is anticipated that interviews for
the foregoing positions will be conducted by the
Judicial Nominating Commission, and by The
Governor for candidates recommended by the
Commission, during the week of September 8,
2014.
Judicial Nominating Commission
William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: July 28, 2014

55
[Adams Deposition Exhibit No. 3]
Connell, Ryan (DOJ) _____________________________
From:

dsba-bounces@barlist.delawlist.org on
behalf of Courts Listserve
<courts@dsba.org>
Sent:
Wednesday, April 23, 2014 2:15 PM
To:
dsba@delawlist.org
Subject:
[DSBA] Notice from the Judicial
Nominating Commission
Attachments: ATT00001.txt
NOTICE
The judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office can be filled by the appointment of the Governor with the concurrence of the
Senate:
Justice of the Supreme Court
of the State of Delaware
(Due to the retirement of Justice Jack B. Jacobs)
There are requirements of political balance under
the Delaware Constitution Art. IV § 3 and, in this case,
the appointee may be a member of either the Democratic Party or the Republican Party. The appointee
must be a citizen of the State of Delaware and learned
in the law. The position provides a current annual
salary of $191,860.
Persons who meet the legal qualifications of the
offices described above are invited to file with the
Commission a “Questionnaire for Nominees for Judicial
Office.” The form may be obtained from the Commission by calling (302) 856-4235 and asking for Mary
Ellen Greenly or can be downloaded online at http://
courts.delaware.gov by going to the general information

56
navigation tab at the top, clicking career opportunities
and then clicking on “Questionnaire for Nominees for
Judicial Office” under the heading for judicial officer
postings. Any person desiring to suggest candidates is
invited to write to the Commission.
Completed Questionnaires must be received no later
than 12 noon, May 21, 2014, at the below-listed address.
Interviews of candidates will be scheduled thereafter.
Judicial Nominating Commission
William B. Chandler III, Chairman
Wilson Sonsini Goodrich & Rosati, P.C.
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: April 23, 2014

57
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 17-00181 MPT
JURY TRIAL DEMANDED
———
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
RESPONSE TO FIRST SET OF
INTERROGATORIES
DIRECTED TO PLAINTIFF
Plaintiff James R. Adams ("Adams"), by and
through his undersigned attorney, hereby responds to
the First Set of Interrogatories Directed to Plaintiff.
INTERROGATORIES
1. Identify all documents or other items of evidence that you intend to use in this lawsuit, for any
purpose, including, but not limited to cross-examination,
during any pretrial or trial proceedings.
Answer:
Plaintiff objects to Interrogatory 1 on the ground
that it intrudes improperly into attorney thought processes and trial strategy. Avalon Construction-Ruidoso,
LLC v. Mueller Company Inc., 2014 WL 12597809 at
*6 (D. N.M. Jan. 3, 2014). See also See Rosenblatt v.

58
Getty Oil Co., 1982 WL 17836 at *2 (Del. Ch. Oct. 8,
1982) (not required to disclose witnesses before pretrial order). Subject to and without waiver of the foregoing objection, Adams states that he has not yet determined what evidence he intends to use in the lawsuit
beyond those documents attached to or referred to in
the Complaint.
2. Identify in chronological order your current and
former employers, dates of employment, addresses of
employers, positions, and duties and responsibilities of
each position, and the amount of pay for each position.
Answer:
Delaware Department of Justice (“DOJ”), 2003-2015
(salary at DOJ started at approximately $60,000 in
2003 and ended at approximately $116,000 in 2015):
1. Family Division Deputy Division Director,
2015. Directed and managed the Family Division from
a policy and procedures and personnel perspective in
Kent and Sussex Counties. Represented the DOJ at
court proceedings and meetings statewide.
2. Deputy State Solicitor, 2012-2014. Assistant
Division Head to the State Solicitor for the Civil
Division. Directed and managed the Civil Division
Offices in terms of facilities as well as administration,
including all personnel matters within the Division
including fifty-three Deputy Attorneys General and
eighteen support staff. Supervised the outside counsel
program.
3. Unit Head, Juvenile Delinquency and Truancy
Unit, Family Division, 2008-2012. Statewide Unit
Head of the Family Division Unit that prosecuted all
juvenile delinquency and truancy cases in all three
counties. Supervised a staff of attorneys, paralegals,

59
social workers and other support staff. Represented
the Attorney General and the Department of Justice
on a variety of juvenile justice committees.
4. Unit Head, Child Protection Unit, Family Division, 2007-2008. Supervised the statewide unit that
represented the Division of Family Services in dependency, neglect and abuse cases and child protection
registry cases in Family Court. Also provided general
counsel services to all divisions of the DSCYF including Child Mental Health, Youth Rehabilitative Services, and Child Care Licensing.
5. Deputy Attorney General, DNREC Brownfields
Program, 2006-2007. Represented DNREC in the
Brownfields Program, negotiated Brownfields Development Agreements and Voluntary Cleanup Agreements. Advised DNREC on issues related to the
Hazardous Substance Cleanup Act.
6. Deputy Attorney General, Child Protection
Unit, 2003-2006. Represented the Division of Family
Services and litigated dependency, neglect and abuse
cases and child protection registry cases through all
stages of the litigation process including termination
of parental rights trials and appeals to the Delaware
Supreme Court.
James R. Adams, Attorney at Law, 2002-2003 (income
approximately $70,000 a year). Solo practitioner. A
major portion of his practice was contractual for
Family Court and included representing parents in
dependency, neglect and abuse cases and also in child
support arrears cases.
Bankruptcy Attorney, Richards. Layton & Finger,
2000-2002 (salary started at $90,000 and ended at
$115,000). As a litigation associate in Richards, Layton
& Finger's Corporate Bankruptcy Department, he

60
drafted adversary and litigation motions, complaints,
discovery requests and internal written analyses of
cases.
Assistant Public Defender/Psycho Forensic Evaluator, Delaware Office of the Public Defender, 1999-2000
(salary approximately $45,000). Adams assisted attorneys in trial preparation by providing evaluations on
the mental health and substance abuse treatment
needs of defendants. As a Rule 55 attorney, he
represented criminal defendants at bail hearings.
Chief Presentence Officer, Superior Court, 19901999, (beginning salary approximately $28,000 and
ending salary approximately $42,000). Adams served
as supervisor of the Kent County Presentence Office
that provided Presentence services to both the Superior Court and the Court of Common Pleas. Adams
supervised both professional and clerical staff, and
provided statistical and policy reports on sentencing
issues to the President Judge of Superior Court.
Pretrial Services Officer/Probation and Parole Officer,
Delaware Department of Correction, 1980-1990, (beginning salary approximately $16,000 and ending salary
approximately $25,000 a year). Adams was the Pretrial Officer assigned to establish the pretrial component of the Post-Arrest Processing Center. He conducted
background investigations and made bail recommendations to the court. He supervised a caseload of individuals on Pretrial Supervision and also maintained a
probation and parole caseload.
3. Describe your formal education from High School
onward. Include the name and address of each educational institution or school, the dates of your attendance and the degree(s) awarded.

61
Answer:
Pitman High School, Pitman, New Jersey. Graduated 1969.
Ursinus College, Collegeville, Pennsylvania. BA,
Political Science, 1979.
Delaware Law School, Wilmington, Delaware. JD,
Cum Laude, 2000.
4. Identify in chronological order every political
party affiliation you have held since your admission to
the Delaware Bar, including the dates during which
you held such political party affiliation.
Answer:
2000-2016 – Democrat.
2017 – Independent.
5. State the date of your admission to the Delaware
Bar and the status of your license to practice law in
Delaware in each subsequent year since your admission, including the dates of any change in status.
Answer:
Admitted under Rule 55 in 2000.
Admitted December 2001.
Active 2001 through February 2016.
February 2016-December 2016 – Emeritus.
January 2017-present – Active.
6. Identify in chronological order every address at
which you have physically resided for a period of at
least 30 consecutive days at any time since your
admission to the Delaware Bar.

62
Answer:
465 Gum Bush Road, Townsend, Delaware 19734.
7. Identify, including applicable dates, any judicial
openings to which you have applied.
Answer:
Family Court Commissioner — July 2009.
8. Identify, including applicable dates, any judicial
openings to which you would have applied but did not
because of your political affiliation.
Answer:
In 2017 Adams wanted to apply for Supreme Court
and Superior Court openings, but as an Independent
he was not permitted by the Delaware Constitution to
apply for those positions.
In 2014, while registered as a Democrat, Adams
wanted to apply for openings on the Supreme Court
and Superior Court, but the applicants for those specific opening were required by the Delaware Constitution to be members of the Republican Party, and so he
was ineligible.
9. Identify any judicial opening that you expect
will become open in the next year that you are interested in applying for.
Answer:
Adams has no knowledge of what judicial positions
may become open in the next year. He would seriously
consider and apply for any judicial position for which
he feels he is qualified.
10. Identify each court on which you believe that
you are qualified to serve as a judicial officer and for

63
each court identified describe your qualifications for
that position.
Answer:
Adams believes that he meets the minimum qualifications to apply for any judicial officer position. If
allowed to apply for judicial openings he could provide
detailed background on himself and his to the Judicial
Nominating Commission so they could evaluate his
background and determine whether his name should
be submitted to the Governor for consideration, As a
registered Independent, however, he is prevented from
even participating in the evaluation process based on
his political affiliation.
11. For each court identified in Question #8,
describe how the Delaware Constitution currently
inhibits your ability to apply for a judicial officer
position.
Answer:
As a registered Independent Adams is constitutionally barred from applying for judicial positions on the
Delaware Supreme Court, the Delaware Court of Chancery and the Delaware Superior Court. Even if he were
Democrat or Republican, he would still be restricted
from certain positions due to the political balance
requirement of the Delaware Constitution.

64
AS TO OBJECTIONS ONLY:
/s/ David L. Finger
David L. Finger (DE Bar ID #2556)
Finger & Slanina, LLC
One Commerce Center
1201 N. Orange St., 7th floor
Wilmington, DE 19801-1186
(302) 573-2525
dfinger@delawgroup.com
Attorney for plaintiff James R. Adams
Dated: September 1, 2017

65
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 17-00181 MPT
JURY TRIAL DEMANDED
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
SWORN VERIFICATION OF JAMES R. ADAMS
STATE OF DELAWARE
COUNTY OF NEW CASTLE
ss.
James R. Adams, duly sworn according to law,
states as follows:
My name is James R. Adams. I am over twenty-one
years of age and have personal knowledge of the facts
stated in this affidavit. The answers to the foregoing
Interrogatories are true as to my own activities, and
on information and belief as to the actions of others.
[/s/ James R. Adams]
James R. Adams
SWORN TO AND SUBSCIBED BEFORE ME, a
Notary Public of the State and county aforesaid of this
31st day of August, 2017.

66
[/s/ Jennifer L. Feaser]
Jennifer L. Feaser
Notary Public, State of Delaware
My Comission Expires September 10, 2017

67

68
DEBATES AND PROCEEDINGS
of the
CONSTITUTIONAL
CONVENTION
of the
STATE OF DELAWARE
————
Reported by Charles G. Guyer
and Edmond C. Hardesty, Esqs.,
Stenographers to the United States
Courts and Courts of Delaware.
————
Commencing December 1, 1896,
Dover, Delaware
————
VOLUME II
————
Published by the Supreme Court
State of Delaware
1958
————
MILFORD CHRONICLE PUBLISHING COMPANY
MILFORD, DELAWARE

69
* * *
[940] been a long while engaged in this work. And we
do want the instruction of this Committee of the Whole
upon certain features which have entered into our
work heretofore, and we cannot deal with that work
with any sort of confidence (which work involves a
great deal of labor) until we know that certain features
meet the approval of the Convention. I do not think
that in any aspect, or in any system which the Committee could recommend, will it be found desirable to
retain the present disqualification of the resident
Judge. I think it would be highly undesirable to retain
that disqualification. I think if you will give us that
instruction that we are to restore to him his full
capacity to sit in any part of the State, that we would
have a larger amount of material in the given number
of men to deal with in forming the Bench.
NATHAN PRATT: Mr. Chairman, that is entirely
satisfactory so far as I am concerned.
WILSON T. CAVENDER: I would say Mr. Chairman,
that this Committee of the Whole owes this Standing
Committee on the Judiciary many thanks for not
embarrassing the Committee of the Whole by bringing
in a report upon which we cannot agree. Our report
was an unanimous report, so that the Committee of
the Whole is not embarrassed.
JOHN BIGGS: Question on the motion.
CHAIRMAN CARLISLE: The question is on the adoption of paragraph “b” of the report.
Motion put and carried.
WILLIAM C. SPRUANCE: Mr. Chairman, I ask
that the Secretary read paragraph “c” of the report.

70
CHAIRMAN CARLISLE: The Secretary will please
read paragraph “c” of the report.
Whereupon the Secretary read paragraph “c” of the
report as follows:
“Section . . . . The Judges shall be appointed by the
Governor by and with the consent of three-fifths of all
the Members elected to the Senate for the term of
twelve years, and if a vacancy shall occur by expiration
of term or otherwise at a time when the Senate shall
not be in session the Governor shall within thirty days
after the happening of any such vacancy convene the
Senate for the purpose of confirming his appointment
to the said vacancy and such other Executive business
as may come before it for action.”
WILLIAM C. SPRUANCE: Mr. Chairman, I move
the adoption of paragraph “c” of the report.
JAMES B. GILCHRIST: I second the motion.
WILLIAM C. SPRUANCE: Mr. Chairman, this is a
paragraph which has been the subject of very great
and repeated consideration of the Committee. I came
down here very much in favor of an elective system,
and I am now in favor of it; but I found that in spite of
all I could say to my associates on the Committee, I
could not [941] bring them to my line of thought; and,
indeed, the slight support that I had from one or two
others of my colleagues fell away from me before we
came to this conclusion. Whether that result was
brought about by my argument, or not, I do not know.
I also came down to this Convention with another
thought, and that was that while I had very decided
views upon many subjects, I did not expect to have
everything my way ; I did not expect everybody to
agree with me; and I tried to get my mind in a frame

71
to yield, not only in some cases where my judgment
was the other way, but where there was a decided
preponderance of sentiment against me, and I hope I
yielded gracefully. In other words, we all agreed that
the Governor should appoint; we all agreed that it was
extremely undesirable that that appointment should
be as it is now, wholly upon the the Governor’s will,
but that there ought to be a confirmation by the
Senate; that that not only was in accordance with the
Federal system, but a system which prevails, I think,
everywhere where the appointing power of judges is
reserved to the Governor. And let me say, the number
of States where the power is reserved to the Governor
without confirmation, is very small.
I have not lately examined the constitutions of the
different states, but I did so a number of years ago—
probably about ten—and I made a tabulated list of the
states wherein the judges were appointed. While I
cannot now give the exact figures, my recollection is
that of the whole number (and of which I think there
were thirty-eight) I did not find but three or four in
which the judges were not elected. But, as I say, the
sentiment is against elective judges, and I haven’t
anything more to say about it. But in the two or three
or four states where the Governor did appoint, a
confirmation by the Senate was required. Sometimes
that confirmation, in one or two instances, I think, is
by a simple majority, but in most cases by two-thirds
vote. I am told that in Philadelphia, while the judges
are not appointed, without confirmation, there are a
few offices in Pennsylvania which to fill do not require
confirmation, and they are a few inferior appointments;
but in all cases except a few inferior appointments,
there is a confirmation required by the Senate, and in
that state it is a two-thirds vote.

72
But after turning this all over, we came to the conclusion that a three-fifths vote would be a safe number
to make a confirmation. As to the term of years, from
the very beginning, this Committee were, I think,
almost unanimous, and at the end entirely unanimous
that life tenures ought to be abolished. There was
some little difference of opinion as to the term of years,
some thinking ten years the proper term, others twelve
years, others fourteen years and others fifteen years;
but after very mature deliberation the term of twelve
years was settled upon, and I think it is a good safe
term.
Now then, you will observe it is not contemplated
that when a Judge dies or resigns there is going to be
a vacancy, or somebody appointed until the next meeting of the Legislature, but there is a provision here
that when a vacancy shall occur by expiration of term
or otherwise at a time when the Senate shall not be in
session, the Governor shall within thirty days after the
happening of any such vacancy convene the Senate for
the purpose of confirming his appoint[942]ment to the
said vacancy. That is not convening the whole
Legislature, but convening the Senate, which would be
done at a very small expense; and it is very desirable.
That is a desirable provision because we do not want a
man appointed with the uncertainty as to whether, in
his official duties, he is going to be confirmed by the
Senate. Thirty days seemed to be as short a time as
would be desired to make the necessary arrangements
to call the Senate together, and then upon their
confirmation for him to be appointed.
DAVID S. CLARK: Mr. Chairman, I have a substitute which I desire to offer for this paragraph “c”, and
if the Chair will permit me, I will read it.

73
CHAIRMAN CARLISLE: If there is no objection the
gentleman will read the substitute. There being none,
the gentleman may proceed.
DAVID S. CLARK: The substitute I desire to offer is
as follows:
“The Judges shall be elected by the people for the
term of eight years, and if any vacancy shall occur by
death or otherwise, the Governor shall appoint and fill
the vacancy until the next general election shall be
held after the vacancy shall have occurred.”
I would just state the reasons why I offered this substitute. I would not stand on eight years, but I am
willing and will consent to have it amended for a less
term.
CHAIRMAN CARLISLE: You offer that as an amendment?
DAVID S. CLARK: I offer this as a substitute to
paragraph “c”. This is a question that I have thought
a great deal about, not only since we have assembled
in this Convention, but I have thought about it for
years. I have, for the last ten or fifteen years, been impressed with the idea that our Judiciary ought to be
elected by the people. When we had the attorneys here
and discussed this subject, I listened very attentively,
and I found that there was quite a diversity of opinion
along that line, some of them thinking that the Judges
ought to be elected, and others thinking that they
ought to be appointed.
I have consulted a good many of my constituents in
regard to this matter, of all parties, my Democratic
friends, my Republican friends, and my Prohibition
friends, and so far as I have been able to learn, a majority of them felt that they would like for the Judges to

74
be elected by the people. I do not see why they could
not be; I do not see why we could not elect them by the
people. Some say that it will be too much in politics to
have them elected by the people. I cannot see why that
should be so. I cannot see for the life of my why we
should think that that would interfer with their election. I see there is one part of this paragraph, and that
is in reference to “thirty days” the Senate shall be
assembled by the Governor—shall be called together—
to sanction the appointment that he may make.
Now, it seems to me that that would be unnecessary.
Of course, it would not be, if this paragraph was adopted; that is, it would not be unnecessary. But it merely
seems to me that if we could have an [943] opportunity
to elect our judges—and it was grafted in our Constitution that the Judiciary should be elected—it would, in
every respect, be more satisfactory to the people.
I therefore offer that as a substitute and move its
adoption.
WILLIAM T. SMITHERS: I second the motion.
EDWARD G. BRADFORD: I would ask that the
proposed substitute be again read.
CHAIRMAN CARLISLE: The Secretary will read
the proposed substitute.
Whereupon the proposed substitute was read by the
Secretary as follows:
“The Judges shall be elected by the people for a term
of eight years, and if any vacancy shall occur by death
or otherwise, the Governor shall appoint and fill the
vacancy until the next general election shall be held
after the vacancy shall have occurred.”
DAVID S. CLARK: I would amend that substitute
by making it “ten years”, instead of “eight years”.

75
WILLIAM C. SPRUANCE: Mr. Chairman, although
that amendment is not exactly what I would like to
have, it does embody the main idea of elective Judges
by the people. I feel constrained to vote for that amendment just on that ground, and no other. My own idea,
would be—of course, I am not pressing this thing upon
the Convention, but it is merely to explain my position—
and has always been that we should elect our Judges
by the people of the State, and the people of the State
at large, and that when we had ascertained the
number of Judges that we were to have, if there were
more than one to be elected, that there should be a
limitation of number which a man could vote for,
which would inevitably secure a non partisan Bench;
if there were five, that no man should vote for more
than three; if there were four, that no man should vote
for more than two; if there were three, that no man
should vote for more than two; if there were two, that
no man should vote for more than one; and of course,
if there were one elected, a man could vote as he
pleased.
That has always been—I won’t say always, but that
is my judgment about how Judges ought to be chosen.
While this amendment does not embody all that, it
does put distinctly before the Convention the question,
whether or not we will have the Judges elected or
appointed. Although I signed this report, still, as in the
case of all these reports, I understand that every Member is at liberty to modify his view according to his
judgment without any charge of inconsistency. I say
that I shall vote for this amendment just upon that
idea, that it is a proposition to elect the Judges by the
people, although it is not accompanied with that qualification which I think it ought to have.

76
WOODBURN MARTIN: Mr. Chairman, I am unalterably opposed to an elective Judiciary. This matter
was discussed in our Committee very thoroughly, and
I think when we took a vote it stood six to two, if I am
not mistaken, for an appointive Judiciary.
WILLIAM C. SPRUANCE: It was stronger than
that, I think.
[944] WOODBURN MARTIN: Was it stronger than
that? Well, that was strong enough. There are many
things in this State that make an appointive Judiciary
desirable. In the first place, we have such a condition
of affairs here that exist probably no where else in the
Union. We are a small State, next to the smallest. We
have numbers of offices to fill which consequently
must take numbers of politicians. If we had an elective
Judiciary would the people single out the best man to
be elected Judge, or would the office of Judge be filled
as other offices are now filled? I myself believe that the
man who would be elected Judge would be the man
who had the greatest pull politically, the man who had
the most influence with a certain class of people at the
primaries, the man who would succeed in first getting
the nomination, not on account of personal worth, but
on account of personal influence that he might exert,
and when he did get the nomination for this office, he
would call upon his party to support him on party lines
and they would do it, and they would elect him, no
matter if he was incompetent, no matter if he was
unfit for the office.
Our Judiciary is a most important thing, and we
ought to keep it as clean and as pure as it is possible
to do. We ought to put our Judges under obligations to
none, if we can help it, for advancement in any way.
There is no man in this State elected to office who is
not under obligations to some people for his nomina-

77
tion and for his election. There is no man in this State
whom you could run for Judge on the ticket of any
party unless he would be under obligations to some
people, first for his nomination, then again for his election.
We must remember also that Judges are human,
that Judges have feelings like all the rest of us. They
have their likes, and they have their prejudices, and
we must take that into consideration in discussing
these matters. A man who has fought another man for
a place, done all he could to defeat him, would not
stand as well with that man as someone else who had
done all he could to advance him and to build him up.
A man could not help but feel more kindly towards the
one than towards the other.
Now, we want in this State the best Judiciary that
we can get. We want to keep up to the highest point
the standard of our Courts of Justice, and in order to
do that we must provide such a provision as we believe
will bring that about. First, the Governor of this State
would not dare, I do not believe, if this section were
adopted, to appoint a man from personal preference.
He would be compelled to be guided by the man’s fitness for the place, because the appointment must have
the concurrence of three-fifths of the Senate, and no
matter of what political complexion that Senate may
be, the appointment must be concurred in by threefifths of the Senate.
Further than that, there is an idea which I suggested
from the beginning, and that is that that concurrence
was not to be deferred until the next regular session of
the. Senate when a man who was appointed could get
eminent lawyers to prepare his opinions, when he
could give entire satisfaction in the discharge of his
duties as Judge, when he could build up a coterie of

78
friends around him to pass upon his confirmation, but
the Senate was to pass upon this appointment within
thirty days after it was made, so that it would [945]
pass upon the man’s personal worth and merit, and if
he was a man who had made a sufficient reputation in
the practice of his profession at the bar of this State,
the Senate would confirm his appointment. If he was
not a man of that character, if he was not a man of that
ability, they would not concur in the appointment, but
the Governor would be compelled to submit some one
else to them for their concurrence.
It seems to me to be the most wise and the most safe
provision, and it seems to me that it is all that would
be desirable. We must take into consideration that the
Governor is the representative of the people in these
things and it is really the people through their Governor who appoint this Judiciary, and especially where
the concurrence of the Senate is necessary; it is the
people all the way through, and neither one nor the
other can be arbitrary, for it is their will, the will of
the people who elect these men; they are servants, and
occupy these positions for this purpose among other
duties. It is put in their discretion; to a certain extent,
in their hands. We all know that in the case of elective
offices there are some men who are elected to positions,
even in our own party—there are some men sent to
this Legislature here (a most important and responsible place), men of our own party, whom we do not think
ought to go there. How much worse it would be to put
a man on the Bench for eight or ten years, a man
whose skirts might have been smirched with politics,
and that the people would have to live under? I hope it
will not be done. I hope that the office of Judge will be
an appointive office, that we may get the best men
possible, and surround them or their appointments
with such safeguards as will make it most probable

79
that he or they will make the best servant or servants.
Hence I am opposed to the substitute.
EDWARD G. BRADFORD: Mr. Chairman, I desire
to submit a very few remarks by way of explanation of
the vote which I shall cast upon the question now
before this body. I conceive that what we all desire is
a Judiciary composed of able and upright Judges.
Were the alternative presented to me of having our
Judiciary elected by the people on the one side, and
appointed by the Governor without any confirmation
by the Senate on the other, I should prefer the former,
a position that I have always taken, that as between
the act of the Governor alone without regard to any
requisite requirement of confirmation by the Senate, I
should trust the people as against the Governor. I
know there is peril in it. I know that the people do not
always choose the best officers, and I know that the
Governor does not always appoint the best officers. We
have had most worthy Governors, and we have had
very unworthy Governors, and so far as political influence is concerned, it may operate quite as strongly, if
not, indeed, more strongly upon an unworthy Governor who was under certainly very great political obligations to those who have secured his nomination and
election.
But the redeeming feature of this report, in my judgment, is that it requires the consent of three-fifths of
the Senate.
Now, that to me, is a very great safeguard, and I
agree with the gentleman from Seaford (Mr. Martin)
when he says that with that Constitutional provision
staring a Governor in the face he would be very careful
in his selection of members of the Judiciary. He would
[946] know that these men would have to run the
gauntlet of three-fifths of the total membership of the

80
Senate, and I believe taking the bald proposition of an
election by the people on one side and the appointment
by the Governor by and with the advice and consent of
three-fifths of all the Members elected to the Senate,
that the latter course would be the safer of the two. We
are after, as I said before, pure men, upright men and
learned men. We cannot afford to do with less.
And with the understanding on my part at least that
in the case of an appointment by the Governor it shall
be with the advice and consent of three-fifths of the
Senate, I feel compelled to vote against the substitute
offered.
CHARLES F. RICHARDS: Mr. Chairman, I simply
want to say that this question of an elective Judiciary
is one that I have given, or at least have endeavored to
give very careful consideration, not only since I have
been a Member of this Convention, but for some years
I have considered the question very seriously. I was
frequently thrown in contact with one of the best and
ablest lawyers of our State who was a great personal
friend of mine. I refer to the late Chief Justice Robinson,
who was a strong advocate of the elective Judiciary
system, and in the frequent conversations between
Judge Robinson and myself, my mind was often called
to this question, and I have considered it, thought over
it and endeavored to observe the workings of the elective Judiciary system in other parts of the country.
I occupy the same position as the learned gentleman
from Christiana Hundred (Mr. Bradford) and I apprehend that it is the earnest desire and purpose of each
and every Member of this Convention, in this as well
as in other work that devolves upon us, to do simply
that which will be best for the interest of all concerned.

81
Now, I have looked at this question very largely in
this light: It has occurred to me, whether it is possible,
at all times in an elective system, to keep the question
of politics out of the Judiciary. Observing the working
of the system in other parts of the country, in other
states, whilst we have heard the statement of the
gentleman (Mr. Spruance) as regards Pennsylvania,
who advocates the system of the State of Pennsylvania,
and who, I think, in his statement here said that it
gave entire satisfaction, yet, Mr. Chairman, it is a fact
that in some parts of Pennsylvania they have had only
recently very great trouble, and the system has as it
were, brought upon the Judiciary very great—I will
not say annoyance, nor exactly shame—but it really
has not, in any sense of the word, been at all creditable.
In Delaware County many of us know, and in one of
the districts of Pennsylvania, which includes, I think,
Cumberland, York and Adams Counties, there has been
great trouble in regard to the election of the Judiciary.
Only in 1895, I think, there was trouble. In Maryland,
there are some people who seem to be entirely satisfied
with the system in vogue there. Still, many of the
members of the Bar of the State of Maryland say to me
today, “Don’t adopt the elective Judiciary system.” I
can refer to a member of the Snow Hill Bar, Mr. Purnell,
whom I met only a few days ago on the train, when I
had a conversation with him in regard to the subject,
and that was [947] his opinion, that the elective
system was not giving satisfaction in Maryland. Only
a few years ago there a Convention was held for the
purpose of nominating an Associate Judge in I think,
the Fifth Judicial District, and over fifteen hundred
ballots were required to make that selection.

82
Now, that simply means the engendering of political
feeling, the creation of that kind of political feeling
which follows a successful man on the Bench and
which leaves its mark upon the defeated man. It has
been said that it works in Pennsylvania, that there has
been no trouble in Philadelphia with the elective Judiciary, and yet, Mr. Chairman, there is a difference of
opinion on that. Philadelphia lawyers say to us, “Don’t
you adopt the elective system.” They say that a recent
appointment following a vacancy on the Bench in
Philadelphia was the selection of a very able lawyer,
but a lawyer selected by reason of his political activity
and his political influence, and that no other man
could have been selected; and that whilst good men are
frequently selected, in this selection, this gentleman
said to me, “He is a good lawyer; a man well equipped
for the position”; but when those men are put there,
the political influence that follows them afterwards,
takes from them what you might term the real eminent position as a lawyer and compels them to go into
politics in order to retain their position and bring
about their re-election.
Mr. Chairman, I opposed this when it was before the
Committee, and I oppose it now. With the protection
that this report throws around the appointment, that
is, the requiring of three-fifths of the State Senate, we
have a safeguard which will prevent the Governor, if
the Governor is disposed, if the Chief Executive of the
State is disposed to carry out his own views, to appoint
a personal friend, or some one to the position who is
not fit for it; here is the guard which will prevent such
doings and which will protect the Judiciary of the
people of the State.
So that as the gentleman from Seaford (Mr. Martin)
has said, the people also have indirectly a voice, and a

83
voice which can be expressed without bringing out that
bad feeling that a political fight necessarily engenders.
We want a good Judiciary. We want to fill the position
with men who are in every way capable of filling it,
and who are in every way suitable to do the great and
the exalted duties that devolve upon Judges.
It does occur to me that this report places us in a
position where we may secure just such an appointment, and if left to the people, then we are running the
gauntlet of the people voting through and being actuated by political motives and personal prejudices alone.
For that reason, Mr. Chairman, I shall vote against
this substitute.
JOHN BIGGS: Mr. Chairman, this is a question
worthy of very careful consideration, because I consider
it a very important one. It is a question that was debated at length in the Convention of 1852 and has been
much talked of by our people since that time up to the
present. I shall vote against this substitute because I
think it would be very unwise that our Judges should
be mixed up, I will say, in politics. We can obtain good
men in this way, by the confirmation by the Senate,
without those men being under political obligations,
such as are engendered at primaries and at general
elections.
[948] And there are reasons, it occurs to me, why the
Judges should not be elected that perhaps do not apply
to any other officers. For atfer all, Judges are but
human. Whoever sits upon the Bench to pass upon the
rights of yours as to your liberty and your property
ought certainly to be as free from all influence and
bias, political and otherwise, as it is possible to throw
around that man.

84
I do not see how Judges can be elected without being
more or less under political influences. It may be said
that they need not take part in these elections, but,
Mr. Chairman, if they do not, either by themselves or
through their friends, the probabilities are that some
less desirable man would be elected; that is, some one
who would control the primaries and would control the
election. So that I cannot see what is to be gained by
electing the Judiciary. But, on the other hand, it seems
to me that there is a great deal of risk to be run by it.
I am told by people who have lived in states where they
do elect judges that it is often attended with very bad
and very undesirable effects. We have certainly seen
some of it within our sister State of Maryland, for men
might recollect within the past few years there was a
contest between two men in Cecil County for the office
of Judge there. That was certainly a very undesirable
thing for those men to be engaged in, one of whom was
to pass impartially upon the rights of their fellow men.
Therefore, Mr. Chairman, I shall vote against the
substitute as offered to elect these Judges, believing as
I do that the appointment by the Governor, to be confirmed by the Senate has a protection thrown around
it by having this three-fifths vote. That does not apply
to a great many other states, I believe; it is not the rule
in the United States Senate, for there I believe a
majority of the Senate confirms an appointment made
by the President. Here, more is required, so that there
is an extraordinary protection; that is to say, a protection beyond a majority in this case in order to secure
desirable men.
ROBERT W. DASEY: Mr. Chairman, I only want to
say one or two words in regard to this subject, although,
probably, it is not necessary for me to say anything.
When the idea of changing our Judicial system was

85
first brought about, many of our people were desirous
of changing the whole system, that is, that all officers
should be elected by the people. But, Sir, it has occurred
to me that this matter may be nicely fitted to a story I
once heard concerning an old lady in the State of New
York who had a deposit in one of the banks there.
There was a report sent out by one of the morning
papers that the bank was about to close. The old lady
went to the bank with her deposit book and rushed in
to the paying teller and said, “I have some money on
deposit here, I believe”? The paying teller replied,
“Yes”. The old lady then said, “Can I get it? I see the
bank is about to break.”
The paying teller said, “Yes; you can have your
money if you have your bank book with you.” She says,
“Can I get it?” The paying teller said again, “Yes.”
“Well,” she says, “if I can get it, I don’t want it. If I can’t
get it, I want it.” A number of those people who were
desirous of having a change made in the Judiciary system, and people belonging to both parties, a short time
ago notified me by letter, and a number called upon
me and expressed their opinion in [949] my presence,
which opinions they thought might have some effect,
that they doubted the propriety of electing the
Judiciary in this State. Since there has been talk of
confirmation by the Senate, I do not believe you will
find very many who do not think that is the best
principle; that is, for the Governor to appoint and for
such appointment to be confirmed by the Senate. We
have very recently been told by some very prominent
men that that principle is the best one of all.
JOSHUA A. ELLEGOOD: Mr. Chairman, I did not
intend to say a single word in regard to the subject
under discussion, but when I took my seat in this Convention I was deeply impressed with the idea that to

86
elect the Judiciary was the right thing to do, and strange
to say I am of that opinion still, and that, notwithstanding all I have heard to the contrary. I have listened with a great deal of interest to the arguments in
favor of an appointive Judiciary, and yet I have not
heard a case cited in any state. I believe it was argued
here that in a majority of the states there was an
elective judiciary. I have not heard a case cited where
they have abandoned the elective system and substituted the appointive system in its stead. If it has so
many evils attached to it in those states where the
system is an elective one, it seems to me that the people would rise up in a body and abolish that system.
I see nothing in the system of elective judiciary in
the City of Philadelphia that should be a bugaboo to
us. We find in Philadelphia, although a Republican
stronghold, that a Democrat was elevated to the Bench
there by from twenty to thirty thousand majority of
Republican votes. And they still hold him in that position. Why? For the simple reason that he has been
weighed in the balance and not found wanting.
JOHN BIGGS: They divide the Judicial appointments
up there. That is to say, they agree the Democrats
shall have so many and the Republicans shall have so
many so as to keep them out of politics.
JOSHUA A. ELLEGOOD: There is no law to that
effect. But I will say right here that if that man, be he
Democrat or Republican, did not prove himself to be
an honorable upright judge, the people would relegate
him to private life in short order.
The people that I more directly represent than I do
others perhaps, or to whom I look for advice and counsel in these matters, have said to me, “we want an elective Judiciary, and we want a clause inserted in that

87
Constitution for that purpose.” Therefore I shall cast
my vote accordingly.
Now it is said that the Governor of this State is better calculated. to appoint a Judge than the people
themselves. Who is the Governor? He is a servant of
the people, made so by the vote of the very people who
would elect the Judges to the Bench; and yet you say
this one man, a representative of all the people, is better calculated to know what the people want than they
would themselves. On the other hand, you say that we
throw a safeguard around this by the fact that the
Senate of the State of Delaware shall confirm the
appointment made by the Governor by a three-fifths
majority. Suppose the Governor is a Democrat and the
Senate is Republican! [950] Why, they lock horns at
once on the appointment. If such a state of things
should exist, there is no doubt but that you will lock
horns right at once, and instead of bringing about a
state of affairs that is more wholesome, you simply
produce in the State of Delaware a condition of things
that I never want to see exist.
I believe in throwing the responsibility directly upon
the people, and if they by their votes elect a man to the
Bench who is not calculated or fitted to sit there, or
who is not an honor to the seat, then you cannot point
your finger at the Governor and say, “you are the man
who did this!”, but you point your finger at the people
and say, “This is your doings, and you must suffer the
consequences.”
This elective Judiciary system has been talked about
for years and years, and there is not a gentleman in
this Convention but what has heard the appointive
power condemned to the fullest degree for the simple
reason that the Judges that have been appointed by

88
the Governors of this State have not measured up to
the requirements demanded by the People of the State.
So, in conclusion, I shall vote for the substitute offered
by the gentleman from Kenton Hundred (Mr. Clark).
But still, I do not believe that the substitute entirely
covers the ground, because I do not believe it goes far
enough; it is not far reaching enough. Perhaps the
phraseology does not explain just what we want in
that section; yet it is a step in the right direction, and
I shall vote for the substitute cheerfully.
EDWARD G. BRADFORD: I would like to ask the
gentleman (Mr. Ellegood) just one question, and that
is, whether he has known of any instance, and if so,
what it was, or how many instances in which the President being of one political faith and the Senate being
of another political faith and where there has been any
rejection of the Presidential appointee upon political
grounds?
JOSHUA A. ELLEGOOD: That is in the United
States, and is governed by the United States Senate;
but I can cite you hundreds of cases where a single
Senate will hold up an appointment; and if I understand rightly, there is a batch now of one hundred
appointments which have been made by President
Cleveland and which are being held up in the Senate
for the incoming administration.
WOODBURN MARTIN: Of the Judiciary?
JOSHUA A. ELLEGOOD: I do not say in the Judiciary. We are talking about the appointive power.
WILSON T. CAVENDER: Mr. Chairman, I do not
rise to prolong this debate. I presume the Committee
of the Whole is prepared and ready to vote upon this
question; but as a Member of the Standing Committee

89
which made this report, I wish to say that I have contemplated this proposition of dragging our Judiciary
into the mire of politics with a great deal of dread. I do
not suppose that it is necessary for anyone to discuss
at all the fact of whether or no the making of our Judiciary elective would have a tendency to drag them into
the mire of politics. As has been said here the men who
are running for the position of Judge, no matter to
which party they may [951] belong, are very much
alike anyhow, and if I had had any doubt in my mind
about this, I should have had all doubt removed by an
observation of a publication what I saw but a little
while ago.
In some of our states you know there is a law requiring nominees of parties to state under oath their contributions to the political party to which they belong,
and I remember very distinctly of seeing, in the State
of New York, that one of the judges had been assessed
for political purposes, when he was nominated, to the
amount of twenty thousand dollars. It was simply horrifying to me to think that a man, a nominee of a party,
to fill such a position as that of a judge, should be
assessed to that extent. Therefore I say, if I had entertained any doubt previous to that, that removes all
doubt in my mind.
I shall therefore vote in accordance with the proposition reported by this Committee, and shall do so most
heartily.
EDWARD D. HEARNE: Mr. Chairman, I was surprised at the statement made by the gentleman from
Cedar Creek, (Mr. Ellegood) to the effect that the people
in his section of the county were so clamorous for an
elective Judiciary. I tell you the truth when I say that
the gentleman from Cedar Creek (Mr. Ellegood) is the
only man that I have met in Sussex County since the

90
assembling of this Convention that is favorable to an
elective Judiciary, and the first man I have heard
speak of it on that line.
Mr. Chairman, the report of the Committee has
made two or three wide strides along the line of liberality over and what is provided by our present Constitution, for, under our present Constitution, our
Judiciary are appointed by the Governor for life. His
will is supreme and conclusive in the appointment. We
have no appeal from it; none whatever. This Committee being of a liberal turn of mind have gone to the
extent of appointing for a limited number of years, for
twelve years, and they do not stop there; but they go
still further and say that the appointment shall be
confirmed by the Senate in special session. All of that
is a wide stride in the direction of liberality—a very
wide stride.
I can conceive that in the first instance, under our
first Constitution which made the Judiciary appointive for life, that those gentlemen were controlled by
the sole desire in making Judges appointive of removing the Judiciary out of the mire of politics. I can conceive of no other reason. And I for one favor keeping it
safe and out of politics as far as possible, and, at the
same time, with as great liberality to the wishes of the
people as is consistent with the object desired to be
attained.
I shall therefore vote against the proposed amendment of the gentleman from Kenton Hundred (Mr.
Clark).
WILLIAM C. SPRUANCE: Mr. Chairman, I do not
rise to continue this debate. I could make, I want to
say, a pretty good speech in favor of this amendment,
and although it may not be quite as good a speech as

91
my friend from Cedar Creek (Mr. Ellegood) has made
upon this subject, I could make a pretty long speech in
its favor; but I am not going to inflict that upon you.
What I rise for is just simply to say that since this
amendment was offered I have [952] been able to lay
my hands upon the memoranda I made of the examination of the Constitutions of the different states
upon this subject, which examination I made just ten
years ago, in 1887; and I tabulated the different states
in respect to that question. I will only read you a
summary.
There were then thirty-eight states whose
constitutions I examined, and I found that the judges
were elected by the people in twenty-six states, that
they were appointed by the Governor and confirmed
by the Senate, or Executive Council (for in some states
they have Executive Councils) in seven states, and
they were chosen by the legislature in four states; and
they were appointed by the Governor alone in but one
State, and that was in the State of Delaware.
JOSHUA A. ELLEGOOD: Can you state a case where
they went from an elective back to an appointive system?
WILLIAM C. SPRUANCE: Not a one. I never heard
of such a thing; and although it is rather unsafe for a
man to talk about what he cannot prove by facts, I venture to say that of the seven states, since they have
been admitted to the Union, five have changed over,
and upon examination you will find every one of them
have got their judges elective; and the probability is
that those states in which they have held Conventions
within the last ten years since I made that examination, have adopted the elective system; you will find that
some of them, at least, have adopted that system. But

92
I never heard of a State that went from an elective
system to any other.
I am not going to protract this debate. Of course,
there is more or less difference of testimony as to how
this thing has worked in other states. But I plant myself
upon this: I do not believe it is true that the system of
an elective Judiciary has worked badly in other states
because of the universality and the persistency with
which they have held onto that system. Then again
while I know there are some people from the state
where they have an elective judiciary who are a little
sore upon the subject, yet a majority of the most capable gentlemen that I have been thrown in contact with
from other states, their testimony is overwhelmingly
in favor of an elective judiciary. And, that, so far as my
knowledge of the adjoining states is concerned it is not
very extensive or very active, but so far as it goes, the
tendency all is in favor of the elective system.
There has been some allusion made to Pennsylvania,
as to how the elective system operates there. We heard
that venerable gentleman who came down here the
other day to instruct us—and I will say he came down
here under absolutely proper circumstances, at our invitation, and I do not know where we could have found a
man of larger experience and who was more absolutely
disinterested in the subject for he is not engaged in the
practice of law even now, his life of activity having
passed, but he is a man of large experience (and he
occupied a position in the Constitutional Convention
of Pennsylvania), and a man of very large experience
in public life; and I do not know anybody whom I would
ask with more confidence for a correct answer as to the
working of the system in Pennsylvania than him, and
you know what his testimony is in regard to it. We
[953] do know of some instances in Pennsylvania in

93
which this thing has worked well. Gentlemen talk
about the experience in Delaware County,
Pennsylvania. Let me say I know something about
that man who is Judge there, and he is no slouch. He
is a man who practiced law for many years in
Philadelphia with great success. I won’t allude to the
weaknesses and defects, for there are some in his
character ; but he is an honorable man, and he belongs
to an honorable family, and has three or four brothers
who are in different occupations in different states,
and who have held their positions by the very force and
strength of their character; and there are one or two of
his brothers who are living to this day. He made and
held a large practice in the City of Philadelphia. Then
he moved to Delaware County. He is an honorable man
and an exceedingly able man. He is supposed to have
for his friends certain classes in the community that
some do not approve; for instance, the gentlemen who
addressed us yesterday afternoon (local option people)
do not approve of them. He has more friends, probably,
among the liquor people than among the prohibition
people. Notwithstanding that, he has very strong
support and backing in that community which is a
highly moral community; and notwithstanding what
may be said against him, he receives the support of the
majority of the people of that Judicial District, and I
am not prepared to say that he is one unworthy of it
either. He is, at least, a man who had the ability to
make and hold a large practice at the bar, and we have
known some men who have been appointed to the
position of judge who have not had that capacity. I
think I have said all I have got to say upon that
subject.
I will say just one other thing. There was a very
remarkable instance of the operation of the elective
system in Philadelphia some years ago. There was a

94
judge upon the bench, and a Republican judge, in this
greatly Republican State of Pennsylvania, and in the
City of Philadelphia, who was an honest man, who was
an able man, and who was a learned lawyer, but he
was so uncomfortable and cantankerous that he made
himself a nuisance to the bar and they determined
that they would rid themselves of him, and when the
time for nomination came around—but first of all, just
before that there was a vacancy on the bench in
Philadelphia, and the Governor, at the present time,
who is a Democrat, appointed a young lawyer named
Gordon to fill this vacancy. He proved himself very
capable in the few months that elapsed before the time
for nomination and election to fill this position came
around.
This Republican judge was put in nomination by his
party, and the lawyers in Philadelphia, irrespective of
party, to the number of about, as I recollect, three
hundred and fifty, signed what the sailors would call
a “round robin”, in which they protested against the
election of that man as a judge; and they went in and
they elected Gordon, and Gordon has been a judge ever
since, and he has proved perfectly acceptable to the
people of Philadelphia.
The trouble is that where the people do not stand
out for a good, strong pure minded man, regardless of
party, then election by the people is a dangerous thing;
I mean, where the bar has not got the moral strength
to stand for such a man, regardless of party, it is a
dangerous thing, because the people naturally look to
the bar for help, [954] to a certain extent (and very
properly), upon that subject. If our Bar are such a set
of men that they will not stand for good Judges
irrespective of parties, then God save you if you have
an elective system. But if they would prove themselves

95
to have as much courage as the lawyers of
Philadelphia had, then I do not think there is any
danger but what you would get good results from it.
I never would consent to give my support in nomination to any man in any party whom I did not think was
morally and intellectually qualified for the Bench, and
I would have a number of others of my associates who
would not entertain such an opinion. All it needs is a
little nerve and courage at the right time, and every
member at the Bar would have a proper influence in
this matter.
DAVID S. CLARK: Mr. Chairman, I just want to say
one word. There has been much stress laid upon the
bugaboo of dragging the Courts into the mire of
politics. I would like to ask if the election of the Judges
could possibly drag our Courts deeper into the mire of
politics than they are now.
WILSON T. CAVENDER: Yes; it could.
WILLIAM T. SMITHERS: Mr. Chairman, is it not a
well known fact that in a recent case, and in all recent
cases of that kind, our Courts have been absolutely
partisan? Now, can the elective system drag them any
deeper in the mire of politics than they have been
dragged in under this appointive system? As a matter
of fact, the elective system has worked well in other
states, no matter what has been said to the contrary.
I have had myself some little experience with that
system and have associated in the past years with
lawyers who have practiced for years under that system, and so far as I know every man has commended
it. I am safe in. saying as regards the city of Philadelphia, and I think also as regards the State of Pennsylvania, that no member of the Bar there would think
for a moment of returning to the other system.

96
I am in favor of this amendment, and have been in
favor of it all the time; and the people I have talked
with, whom I count as my constituents, have said to
me, “this is what we want.” I believe it to be what we
want. My idea is that we can trust the people. If you
will place the responsibility upon them and they come
to recognize it as a responsibility, I believe they will
not go far wrong.
I shall therefore vote for this amendment.
DAVID S. CLARK: Mr. Chairman, I am very much
interested in this matter, and I want to say right here
that we would like to have our Judiciary elected by the
people; not by any particular party, but by the whole
of the people. If the Governor appoints, and threefifths of the Senate is of the same political faith as the
Governor is, then we have a Judge, whoever he may
be, appointed by one party and the other party or
parties as the case may be, in which appointment the
people at large have no opportunity of saying who their
Judge shall be.
Now, it has been said that the great object of having
the Judiciary appointive was to keep it out of politics.
I am frank to confess that I knew nothing about politics until about eight or ten years ago. I [955] always
went to the polls and voted and attended to my own
business at home; but after I was elected to the Legislature and being thrown in company with politicians
I somewhat imbibed the political spirit and then
naturally looked after the political interests. I want to
say here (and I believe I say it truthfully) that I do not
believe there is a gentleman on this floor, whatever his
political faith may be, but what would agree with what
I say, that in our present system of appointive Judiciary, as it has been, there has been entirely too much
politics mixed with it. If there is a gentleman here who

97
believes to the contrary, let him stand up and I will sit
down.
EZEKIEL W. COOPER: How do you mean? Mr.
Chairman, I would like to understand what he means,
and I stand up simply in defense of the State of Delaware if the gentlemen means what I construe his meaning to be.
DAVID S. CLARK: The gentleman can stand up in
defense of the Judiciary, and defend it, of course, but I
ask if he thinks it has been as pure as it ought to be?
The question I put is this: If we have had in the last
ten years a Judiciary that has been clean of politics, or
political trickeries? If there is a gentleman here who
believes that, let him stand upon his feet.
The following gentlemen then stood up: Messrs.
Cooper, Dasey, Pratt, Cavender, Martin, Hearne,
Horsey, Richards, Burris, Coach and others.
WILSON T. CAVENDER: Now as we have stood up,
let the gentleman make his promise good by sitting
down.
DAVID S. CLARK: Six years ago I was called to Wilmington where there was an election ease to be tried.
After I got up there a gentleman remarked to me,
“How do you think this case will go?” I says, “Why, it
will go on one side, just like the handle of a jug.” He
says, “Why do you think that?” I says, “It is not necessary for me to explain to you why I think that; I judge
from past experience.” And so it did go, just as I
predicted. And there are other cases that have come
before our Courts, and the decisions of those Courts in
those cases have not been clear of politics. There is no
question about that.

98
So I say, Mr. Chairman, give us an elective Judiciary. It is said that a wise man changes his mind but a
fool never. I feel pretty sure that we have quite a number of wise gentlemen on the floor of this Convention.
I also know that when we have once publicly expressed
our opinion, why it is hard for us to get away from it,
harder than it is if we had not expressed such opinion.
There are quite a number of gentlemen here who have
not expressed an opinion in regard to this question of
elective Judiciary.
I move, Sir, that those gentlemen have time to consider this matter before this vote is taken, and that we
now rise, report progress and ask leave to sit again.
ROBERT W. DASEY: I second the motion.
JOHN BIGGS: Mr. Chairman, we certainly must
make some progress in these matters. We have talked
on this one question all morning, and I hope the Members are ready to vote on it.
[956] WILSON T. CAVENDER: I call for the yeas
and nays.
WILLIAM SAULSBURY: Mr. Chairman, before the
question is put, I would like to say just one word. On
general principles I believe that is in the line of right
policy of entrusting to the people the direct choice of
their public servants. I recognize that under certain
conditions that we now have the election of a Judiciary
possibly might not be desirable. I have not the grave
fears of results from an elective Judiciary that a great
many Members of the Convention seem to have. I confess that I feel some doubt as to the practical working
of the provision reported from the Committee requiring a confirmation by three-fifths of the Senate. I am
not clear in the opinion that it is well to mix the State

99
Senate up with appointments, or that much good
would come from that provision.
I will say, however, on the question that is about to
be voted on now, I do not feel clear on the proposition;
but if a vote is taken now, I, under the circumstances,
shall vote to sustain the report made from the Committee, of course, reserving the right to change my
opinion if any question comes up later in Convention.
JOHN BIGGS: Question on the motion.
CHAIRMAN CARLISLE: The question is on the
motion that the Committee rise, report progress, and
ask leave to sit again.
The Secretary will please call the roll.
Whereupon the Secretary called the roll with the
following result:
Yeas: Messrs. Cannon, Clark, Ellegood, Saulsbury
and Smithers.
Nays: Messrs. Bradford, Biggs, Burris, Carlisle,
Cavender, Cooper, Dasey, Donahoe, Gilchrist, Hearne,
Horsey, Martin, Moore, Pratt, Richards, Sapp,
Spruance and Wright.
Absent: Messrs. Cooch, Evans, Harman, Hering,
Johnson, Murray and Orr.
Whereupon the Chair announced the result of the
vote as follows:
Yeas, 5; Nays, 18. And declared the motion lost.
WOODBURN MARTIN: I call for the yeas and nays
on the substitute as offered.
CHAIRMAN CARLISLE: The question before the
Committee is the adoption of the substitute offered by

100
the gentleman from Kenton Hundred (Mr. Clark) in
lieu of the section as originally reported.
The Secretary will please call the roll.
Whereupon the Secretary called the roll with the
following result.
Yeas: Messrs. Cannon, Carlisle, Clark, Ellegood,
Gilchrist, Smithers, and Spruance.
Nays: Messrs. Bradford, Biggs, Burris, Cavender,
Cooper, Dasey, Donahoe, Hearne, Horsey, Martin,
Moore, Pratt, Richards, Saulsbury, Sapp and Wright.
[957] Absent: Messrs. Cooch, Evans, Harman,
Hering, Johnson, Murray and Orr.
Whereupon the Chair announced the result of the
vote as follows:
Yeas, 7; Nays, 16. And declared the motion lost.
EDWARD G. BRADFORD: Mr. Chairman, I would
move to amend section “c” between the word “years”
and the word “and” in the fifth line of the newspaper
copy, the words, “if they so long behave themselves
well”.
WILLIAM SAULSBURY: I second the motion.
EDWARD G. BRADFORD: So that the sentence
down to that point would read, “the Judges shall be
appointed by the Governor by and with the consent of
three-fifths of all the Members elected to the Senate,
for the term of twelve years if they so long behave
themselves well.” This statement is found in nearly
every Constitution that you can lay your hand on. It is
simply to guard against an unfit man continuing in
office; that is to say, that they are to continue and hold
office for a term of twelve years if they so long behave
themselves well.

101
JOHN BIGGS: Question on the motion. Motion put
and carried.
CHAIRMAN CARLISLE: The amendment as offered
by Mr. Bradford is therefore adopted.
JOSHUA A. ELLEGOOD: Mr. Chairman, I move to
amend paragraph “c” by striking out in the fifth line
the word “twelve” and inserting in lieu thereof the
word “ten”.
WILLIAM A. CANNON: I second the motion.
WOODBURN MARTIN: Mr. Chairman, I move that
the Committee do now rise, report progress, and ask
leave to sit again.
Here is an amendment offered to reduce this term of
years from twelve to ten. Every Member of our Committee knows what a hard time we had to get it down
to twelve years, and now an attempt is made to cut it
down to ten years.
I will withdraw my motion for the Committee to rise.
JOSHUA A. ELLEGOOD: Mr. Chairman, I will withdraw my amendment for the present if you are not going
to adopt the section now.
ROBERT W. DASEY: I think it is very desirable to
continue with this matter now. This question is under
way, and the Judicial stream is pretty well crossed,
and if we are not very careful, we will lose steerage
way, fall back and lose what we have already gained,
and the first thing we know we will be on the shoals.
WOODBURN MARTIN: Mr. Chairman, I withdrew
my motion.
WILLIAM C. SPRUANCE: I call for the question on
the section as amended. I will ask the Secretary to
read the section as amended.

102
[958] CHAIRMAN CARLISLE: The Secretary will
read the section as amended.
Whereupon the Secretary read the section “c” as
amended, as follows:
“The Judges shall be appointed by the Governor by
and with the consent of three-fifths of all the Members
elected to the Senate, for the term of twelve years, if
they so long behave themselves well, and if any vacancy shall occur by expiration of term or otherwise at a
time when the Senate shall not be in session the
Governor shall within thirty days after the happening
of any such vacancy convene the Senate for the purpose of confirming his appointment to the said vacancy
and such other Executive business as may come before
it for action.
EDWARD G. BRADFORD: Question on the motion.
DAVID S. CLARK: I call for the yeas and nays.
CHAIRMAN CARLISLE: The Secretary will please
call the roll.
Whereupon the Secretary called the roll with the
following result:
Yeas: Messrs. Bradford, Biggs, Burris, Carlisle,
Cooch, Cooper, Dasey, Donahoe, Gilchrist, Hearne,
Martin, Moore, Pratt, Richards, Saulsbury, Sapp,
Spruance and Wright.
Nays: Messrs. Cannon, Clark, Ellegood, and
Smithers.
Absent: Messrs. Cavender, Evans, Harman, Horsey,
Hering, Johnson, Murray, and Orr.
Whereupon the Chair announced the result of the
vote as follows:

103
Yeas, 18; Nays, 4. And declared the motion carried.
CHAIRMAN CARLISLE: Section “c” is therefore
adopted as amended.
JOSHUA A. ELLEGOOD: Mr. Chairman, I move
that the Committee of the Whole, do now rise, report
progress and ask leave to sit again.
EDWARD G. BRADFORD: I second the motion.
Whereupon Mr. Carlisle, as Chairman of the Committee of the Whole, was instructed to report to the
Convention that they had had under consideration the
first report of the Committee on the. Judiciary, to
report progress to the Convention and ask leave to sit
again.
Motion put and carried.
Whereupon the Committee of the Whole (at 12.38
p.m.) then rose and President Biggs took the Chair.
PARIS T. CARLISLE, JR.: Mr. President, as Chairman of the Committee of the Whole, I have been
instructed to report that they have had under consideration the first report of the Committee on the Judiciary, to report progress and to ask leave of the Convention for the Committee of the Whole to sit again.
[959] WOODBURN MARTIN: Mr. President, I move
that the report be accepted and the Committee be
granted leave to sit again.
ROBERT W. DASEY: I second the motion. Motion put
and carried.
WOODBURN MARTIN: Mr. President, I move that
the Convention do now adjourn until 2.30 o’clock this
afternoon.
ROBERT W. DASEY: I second the motion.

104
Motion put and carried.
Whereupon the Convention (at 12.40 p.m.) adjourned
until 2.30 o’clock p. m. same day.
*****
AFTERNOON SESSION.
Dover, Del., February 9th, 1897. 2.30 o’clock p.m.
Pursuant to adjournment, the Convention to revise,
alter or amend the Constitution of the State of Delaware, met at 2.30 o’clock p.m.
Convention called to order by President Biggs.
PRESIDENT BIGGS: Reports from Standing Committees are in order.
There being none, reports from Special Committees
are next in order.
There being none, presentation of petitions, memorials etc., are next in order.
There being none, miscellaneous business is in order.
WILLIAM C. SPRUANCE: Mr. President, I move
that the Convention do now go into Committee of the
Whole for the purpose of further considering the first
report of the Committee on the Judiciary.
CHARLES F. RICHARDS: I second the motion.
Motion put and carried.
Whereupon the President (at 2.40 p.m.) vacated the
Chair and called Mr. Carlisle to the same.
The Members of the Convention then proceeded as
a Committee of the Whole to consider the first report
made by the Committee on the Judiciary.

105
WILLIAM C. SPRUANCE: Mr. Chairman, I would
ask that the Secretary read paragraph “d” section. . . . .
CHAIRMAN CARLISLE: The Secretary will read
paragraph “d” of the report.
Whereupon the Secretary read paragraph “d” of the
report as follows:
“Section . . Any Judge shall have the right to resign
his office after reaching the age of seventy years and
thereafter receive the full salary attached to the office
until the end of the term for which
* * *
[1764] CHAIRMAN GILCHRIST: The amendment
therefore prevails.
WILLIAM C. SPRUANCE: I move the adoption of
section 28 as amended.
EDWARD G. BRADFORD: I second the motion.
Motion put and carried.
CHAIRMAN GILCHRIST: Section 28 as amended is
therefore adopted.
WILLIAM C. SPRUANCE: Mr. Chairman, in coming back over our work, the first thing that I observe
that is undisposed of is the last three lines of section
3, which reads as follows:
“The said appointments shall be such, that no more
than three of the said six Judges, in office at the same
time, shall have been appointed from the same
political party”.
I move the adoption of those lines.
DAVID S. CLARK: I second the motion.

106
CHAIRMAN GILCHRIST: The Secretary informs
me that there is an amendment to these three lines
which has not been disposed of.
EDWARD G. BRADFORD: What is the amendment?
CHAIRMAN GILCHRIST: The Secretary will please
read the amendment.
Whereupon the Secretary read the amendment as
follows:
Strike out of the fourteenth line the word “six” and
insert in lieu thereof the word “law”; so that it would
read, “three of the said law Judges.”
EDWARD G. BRADFORD: Just say the “five” law
Judges.
WOODBURN MARTIN: I will accept the amendment.
JOHN BIGGS: As I understand the amendment as
suggested by the Member from Christiana Hundred
(Mr. Bradford) and as accepted by the Member from
Seaford Hundred (Mr. Martin) it is to strike out the
word “six” and substitute in lieu thereof the words
“five law”; so that the second sentence would read,
“The said appointments shall be such, that no more
than three of the said five law Judges, in office at the
same time, shall have been appointed from the same
political party”.
EDWARD D. HEARNE: That is the amendment
now before the Committee?
CHAIRMAN GILCHRIST: Yes.
WILLIAM C. SPRUANCE: Mr. Chairman, it has
been extremely gratifying to me to find prevalent in
this Convention the very general feeling that we ought
to do something by which we would make our Bench

107
non-partisan, or if it be a better word, bi-partisan; that
is, that we should not have them all of the same political party. I have in mind an old maxim that “equality
is equity”. If there be anything in this idea, let us go
the whole figure; let us come right up to the mark. Why
confine this matter of non-partisanship to five of our
six judges? Why not let it run clear through? You will
observe that the Chancellor is left out here, and that
there will be no restriction in [1765] regard to his
appointment; and yet under the provision which is
proposed to be added in regard to the trial of election
cases, while he does not sit below, yet he sits as a
Judge on appeals, and surely if there is any class of
cases in which the Judges should be as near as
possible equally divided, it ought to be upon trial of
election cases. If you leave this thing there as it is, you
just throw out the whole principle; and the principle
runs right straight through, that no more than three of
your six Judges shall have been chosen from the same
political party; not that a man may change his opinion
after he is appointed—that of course we cannot
control—that is all right; but they shall not be chosen
from the same political party; not that the other party
shall be chosen from any other party designating it,
but that no more than three shall have been chosen
from that particular party.
That seems to me to be fair, reasonable and equitable. It may not appear to be entirely necessary now to
some of our friends on the other side of the chamber,
but it would appear, I am quite sure, to be eminently
just to our friends who sit in the rear of this side of the
chamber if they should happen to be in the saddle.
DAVID S. CLARK: That is what is the matter.
WILLIAM C. SPRUANCE: If they were in the saddle, I should like certainly equality. We are not making

108
a Constitution for today or for tomorrow. We are
making it for all time. This may last probably for a
generation, and it may be the last Constitution for two
generations. We do not know in the upheaval of time
how things may go. There may be then gentlemen who
differ very very radically, and who may be suffering
then as we are now.
Don’t you think, Mr. Chairman, it would be fair all
around if we just made this thing equal -- not to consider for an instant who is to be the man who should
name the first batch of these, because life is very
uncertain. All of the gentlemen who shall be appointed
by the present Governor who will have these appointments, will surely not live their terms out. It is unheard
of, that six men appointed for a given time should all
live twelve years. They won’t do it. There will be gaps
here and there and the chances are if they are men
past middle life who are appointed, there will be big
gaps in their number. So we had better look out unless
this thing comes back upon us. I am as much satisfied
in that in the future as you are in the present.
JOHN BIGGS: Maybe more so.
WILLIAM C. SPRUANCE: As the gentleman says,
maybe more so. I do not know what is coming. I think
this is the time for us to be even and square all around
in this thing; so let us stick to the report of this Convention which was so impartially considered and had
the approval and countenance and signatures of all
our friends on the other side of the chamber who differed with us upon other subjects, except Mr. Harman.
I do think we would be doing ourselves great honor all
around, as we have here gentlemen who are able to
look beyond the present circumstances and the present opportunities to the future, and the exigencies
that may come with the years that may come, and that

109
we would be more content and happy and safe if we
applied the principle of equality as near as we might
by the adoption of this.
[1766] JOHN BIGGS: The maxim which has been
suggested by the gentleman from Wilmington (Mr.
Spruance) that “equality is equity”, is a very old one,
but a very good one, and I am not here to dispute it or
to gainsay it.
But I would like to call the Members’ attention to
the fact that the Superior Court, the Court of General
Sessions and the Court of Oyer and Terminer are to be
composed of five Judges and that those five Judges
cannot be divided equally. It is a physical impossibility, and inasmuch as three of the five must come from
one party or the other, it being a physical impossibility
to make one man come from both parties, unless the
Member from Wilmington (Mr. Spruance) can accomplish some anatomical feat that I have not yet learned
of, it must necessarily follow that three out of the five
must come from one political party or the other. And
therefore I take it it is necessary, in order to carry out
this equality in equity and the principle of equality in
equity, and in order to show that generosity of which
we have all been disposed to tender and carry out, that
the offer of the amendment made by the Member from
Seaford Hundred (Mr. Martin) would be carried out by
this Committee.
WOODBURN MARTIN: I only have a word to say in
this connection, Mr. Chairman, and that is this: My
idea in offering this amendment coincided exactly with
those expressed by my friend from Wilmington (Mr.
Biggs) who has just taken his seat. I cannot see, out of
five Judges composing a Court, how that Court could
be made non-partisan unless you would get two from
the Democratic Party and two from the Republican

110
Party and one who was not anything on the face of the
earth, and that would be almost impossible to do under
existing circumstances.
EDWARD G. BRADFORD: The Single Taxers.
ROBERT W. DASEY: And Prohibitionists.
WOODBURN MARTIN: There is no danger of that.
I have modified my views somewhat in offering this
amendment. My first inclination was to substitute the
word “four” for the word “three”, “that no more than
four of the six should come from the same political
party”; but I thought I would do better than that, and
knowing that our friends on the other side who are in
a minority would remind us of that fact and tell us that
we ought to be as charitable toward them as we could,
and do as much for them as possible, I feel that I am
disposed to do that. I do not think the Chancellor ought
to be taken into consideration in this matter, but whatever party is in power should be allowed to appoint the
Chancellor. He can be confirmed by three-fifths of the
Senate.
The office of the Chancellor is a peculiar one. It is
peculiar to himself. He has nothing to do with whatever but Chancery jurisdiction, except to sit in the
Court of Errors and Appeals. This Court could be so
arranged by whatever party was in power, if we should
have a Bench divided three to three, that all of one
party might hear the election cases in one case, and all
of the other party might hear them upon appeal or writ
of error. But I do not imagine for one instant that that
thing will be done.
[1767] And the reason I think it is desirable to have
the minority party represented on our Bench is that
they may bring about a fuller and freer discussion of
these matters that come before them and that they

111
may make fair and impartial decisions on those
questions.
I think that this is the best that can be done. I think
it is all that the people expect of us. It will not be a
hardship on the people. It is hardly fair to presume
that officers who are elected by the people will appoint
certain officers to places who are not in accord with the
wishes of the people as expressed at the polls. It is
hardly to be expected that Democrats are elected to
office to appoint Republican Judges, or that Republicans are elected to office to appoint Democrats; but
they are expected to appoint those of their same political opinions.
Therefore, I would leave this office of Chancellor out
of the question entirely and let that party which is in
power, when a vacancy occurs, have the appointing of
that office.
As to the Superior Court, of course, we can do nothing more than to have three from one party and two
from the other. There are six Judges in our Superior
Court and Court of Chancery, besides a Federal Judge
which is usually given to this State, that is, to this
district. If you want to make them even in the State,
you cannot do any more than to give three of these
officers to one party and four to the other, let it be
which it may.
EDWARD G. BRADFORD: I shall state, Mr. Chairman, very frankly, the view I entertain about this
matter. I understand that the report of the Committee,
insofar as it provides that no more than three of the
said six Judges shall have been appointed from one
political party, is proposed to be amended by the insertion of “three of the said five law Judges”.

112
I confess that to me it makes very little difference
whether the report as originally made be adopted or
this amendment be adopted, for as I regard the matter,
this is not an act of the legislature which we are passing which may be in force for six months or a year or
two years and then be repealed, but if this Constitution is adopted it may be in existence for fifty years
and during that time in all human probability you will
have, with the revolving years, political changes, and
the situation as you find it today won’t be the same as
you may find it five years hence, or as you may find it
ten years hence, or as you may find it fifteen years
hence, or twenty-five years hence.
I think that in the course of time an that matter will
adjust itself. Therefore, it makes very little difference
to me as I say whether the three and three proposition
stands, or the three of the five law Judges proposition
stands. Of course, I would not be doing myself justice
were I not to express my preference for a certain provision. That would naturally be my preference, because
that would be the realization and the most complete in
respect of what I should consider a non-partisan Bench.
But, at the same time, I, for one, while I should be very
much pleased indeed if some gentleman would withdraw that amendment and vote for the original bill—
and I will say right here I do not propose to vote against
that amendment, if it is pressed.
[1768] My views about this Constitution may have
been rather peculiar from the start. From the very
beginning I was in favor, as you gentlemen know, of a
strictly non-partisan Convention, evenly divided, and
did all within my power to bring about that result in
New Castle County; and that was upon the ground
that I had sufficient faith that when the business men
were put up on each side they would not meet together

113
as pot-house politicians and dispose of matters on that
plane, but that they would discuss matters seriously
as being the right thing, and I was perfectly willing to
take my chances with such a Convention, because I
thought they would do the right thing in the long run,
and while there might be differences of opinion, there
would be mutual concessions on both sides so that
some instrument might emanate from this body which
being adopted would be a credit to the State regardless
of the political affiliations or opinions of the members
of this or that particular party.
We have never had, since I have been a Member of
this Convention, a line drawn upon any such subject,
and I don’t want to see a line drawn upon any such
subject to the end of this Convention. I do not want to
see it. I want to see this Convention harmonious from
beginning to end.
Therefore, I say, that while it is against my natural
desire and against my own notion of what would be the
best thing to do, namely, an exactly equal division, I
do not feel disposed, if that amendment is pressed, to
antagonize it.
Having expressed these views, I do not know what
more I can say upon the subject. After all, I think the
matter will adjust itself in no very long time one way
or the other. Things are bound to change one way or
the other.
ANDREW L. JOHNSON: Mr. Chairman, as between
the two propositions I have very little choice, but I am
thoroughly opposed to compelling a Governor of this
State to appoint any man on account of his political
affiliations.
It is well known that our Judiciary at the present
time have been appointed from one political party. That

114
probably is not the best course to pursue, and I would
be very glad to see the Governor of this State appoint
well equipped men from another party. I would hail
the day when it was done and would he glad to have
it; but to vote to compel a Governor to appoint a man
on account of his political affiliation, you are simply
saying, ‘You are put upon the Bench to look out for our
party interests whenever they come up”. There is no
other construction that you can put upon it. There can
be no other, in my own mind, established, and that
man is expected, whenever a political question arises,
before that Court to take care of his own party rights
or privileges.
For those reasons I am opposed to putting in the
Constitution any provision that compels certain partisan appointments of the Judiciary.
JOSHUA A. ELLEGOOD: Mr. Chairman, when I
was nominated and elected it was upon a non-partisan
or bi-partisan ticket, five Democrats and five Republicans, and when I left my home and came to this Convention, I tried to leave, for the time being, politics
behind me. [1769] Like the gentleman from Christiana
Hundred (Mr. Bradford) I never want to see lines drawn
here on questions or where we shall divide according to
political opinions.
It seems to me in framing the organic law of this
State, a law that may stand for fifty years as the basis
for all future law until this Constitution is amended or
made anew, it should not bear the finger marks of men
who are of different party lines. If it is right that the
Judges of this State should be divided equally politically, then let us make it so; if it is in the interest of
public justice and the people of this State are more apt,
under a system of that kind, to have justice done than
under any other, then I am willing to make it so. But,

115
on the other hand, if we consider that the Chancellor
is not a law Judge, and that he will not be called in
question to sit in political cases outside of the Court of
Errors and Appeals, then let us vote for the amendment as it now stands.
As the gentleman from Christiana Hundred (Mr.
Bradford) has well said, there will come a time in the
history of all political parties when they must surrender their power to their opponents, and in times like
that it is altogether in whose ox is being gored.
So I am like the gentleman (Mr. Bradford), I am willing to vote for either proposition if that is best, but if
you take the Chancellor away and then you want to
make three of the law Judges of one political party and
two of another, I am perfectly willing to support that.
With these few words, I believe in all my future
actions in this Convention that I shall cast my vote for
what I consider to be the best interest of the people of
Delaware without any reference whatever to my political opinion.
EDWARD D. HEARNE: Mr. Chairman, we are now
living under the third Constitution of the State of
Delaware, and this proposed amendment, or portion of
the Judiciary report, I believe is the first reference
that has ever been made to politics with respect to the
appointment by the Constitution of our Judiciary. In
none of the other Constitutions will you find any reference to it whatever.
I am a young man, but I have lived through periods
in the State of Delaware when our State Judiciary was
solidly composed of members of that political party
which was in opposition to the party from which the
present Judiciary was appointed. I have seen a complete change, and I, for one, in my observations of the

116
workings of our Courts, have no fault to find with any
decision that has ever been made by either Court,
whether that was Republican or Democrat, on the score
of politics. I cannot for the life of me see any just substantial legal reason why we should make any reference to the politics of our Judiciary. I say, I cannot see
why we should do it.
ROBERT W. DASEY: This matter is like a great many
others. The people ask for it and after they get it they
don’t appreciate it. It has been stated that there was
not satisfaction given, no matter how able the Judges
might be, when they were all from one political party.
The time has been in the history of this State when
they have all been from one political party and also the
time when they have [1770] been all from another
political party, which is the case now. I think it would
give more satisfaction to the people if the Judges were
not all from the same political party. That is my
opinion.
I want to state that I am as much opposed to anything of a partisan nature which tends to enter into
our Judicial deliberations, as any gentleman on this
floor. I want to be honest, and I want to be sincere. As
the gentleman from Georgetown (Mr. Hearne) has
said, this is the first time there has ever been offered
a section of this nature to be entered into our Constitution. We might go further than is stated here. If we say
six, we might say seven, because there is now a vacancy
on the Federal Bench to be filled by the party represented by the gentlemen on the other side of this
House; and that vacancy will surely be filled from that
political party.
WILLIAM C. SPRUANCE: The last Federal appointment was made by a Republican President, and the
man who received the appointment was a Democrat.

117
The Judge of the Circuit Court of the District of
Delaware that was last appointed was Judge Dallas,
and he was appointed by Mr. Harrison. And Judge
Dallas was a Democrat.
ROBERT W. DASEY: It is a fact that this vacancy
which exists now is to be filled by a gentleman from
Delaware, isn’t it?
WILLIAM C. SPRUANCE: Yes.
ROBERT W. DASEY: There is a Judge to be
appointed, and he will surely come from the party
which my friend represents. And not only that, the
first one that resigns or becomes disabled for any
cause, his place will be filled from that political party,
I will guarantee.
I cannot see, if we are going to make it non-partisan
how we can make it any fairer than to have three out
of the five Judges, allowing the Chancellor to remain
outside so as to balance the Federal judgeship, an
appointment for which is going to be made pretty soon.
JOHN BIGGS: Question on the motion.
JOHN P. DONAHOE: I call for the yeas and nays.
CHAIRMAN GILCHRIST: The Secretary will please
call the roll. Whereupon the Secretary called the roll
with the following result:
Yeas: Messrs. Bradford, Biggs, Cooper, Dasey,
Donahoe, Ellegood, Gilchrist, Hearne, Horsey, Johnson,
Martin, Moore, and Orr.
Nays: Messrs. Burris, Cannon, Clark, Hering, Sapp,
Spruance, and Wright.
Absent: Messrs. Carlisle, Cavender, Cooch, Evans,
Harman, Murray, Pratt, Richards, Saulsbury, and
Smithers.

118
Whereupon the Chair announced the result of the
vote as follows:
Yeas, 13; Nays, 7. And declared the motion carried;
and the amendment prevailed.
CHAIRMAN GILCHRIST: The question is now on
the adoption of lines thirteen, fourteen and fifteen as
amended of section three.
ANDREW L. JOHNSON: I call for the yeas and
nays.
WILLIAM C. SPRUANCE: I would ask that the
lines be read.
[1771] CHAIRMAN GILCHRIST: The Secretary will
please read the 13th, 14th and 15th lines as amended
of section 3.
Whereupon the Secretary read the 13th, 14th and
15th lines as amended of section 3 as follows:
“The said appointments shall be such, that no more
than three of the said five law Judges, in office at the
same time, shall have been appointed from the same
political party.”
CHAIRMAN GILCHRIST: The Secretary will please
call the roll. Whereupon the Secretary called the roll
with the following result:
Yeas: Messrs. Bradford, Biggs, Burris, Cannon,
Clark, Dasey, Ellegood, Gilchrist, Hering, Martin,
Moore, Orr, Spruance and Wright.
Nays: Messrs. Cooper, Donahoe, Hearne, Horsey,
Johnson, and Sapp.
Absent: Messrs. Carlisle, Cavender, Cooch, Evans,
Harman, Murray, Pratt, Richards, Saulsbury, and
Smithers.

119
Whereupon the Chair announced the result of the
vote as follows:
Yeas, 14; Nays, 6. And declared the motion carried;
and lines thirteen, fourteen and fifteen, as amended,
adopted.
WILLIAM C. SPRUANCE: Mr. Chairman, I think
we are now in a position to change the numbering of
these sections.
You will observe that section 4 was dropped out. In
going over this thing I think that section 10 ought to
be brought next after what is now section 5, or rather
next after what is now section 6.
I therefore move that section 5 be made section 4,
section 6 be made section 5, section 10 be made section
6, section 11 be made section 10, and thereafter the
sections be numbered consecutively.
JOHN BIGGS: I second the motion.
Motion put and carried.
CHAIRMAN GILCHRIST: The sections are therefore re-numbered as stated in the motion.
WILLIAM C. SPRUANCE: Mr. Chairman, I move
that we now take up for consideration section 13.
EDWARD G. BRADFORD: I second the motion.
Motion put and carried.
CHAIRMAN GILCHRIST: Section 13 is now before
the Committee of the Whole for consideration.
WILLIAM C. SPRUANCE: I move that lines one,
two, three, four and five of section 13 be adopted.
JOHN BIGGS: I second the motion.

120
WILLIAM C. SPRUANCE: I ask that the Secretary
will read lines 1, 2, 3, 4 and 5 of section 13.
CHAIRMAN GILCHRIST: The Secretary will please
read lines 1, 2, 3, 4, and 5 of section 13.
* * *
[3445] GEORGE H. MURRAY: Mr. President, I have
a resolution to offer, and I ask that the Secretary read
the same.
PRESIDENT BIGGS: The Secretary will please
read the resolution.
Whereupon the Secretary read the resolution as
follows:
Mr. Murray, from Committee on Accounts, submits
the following report:
The Committee on Accounts recommends the adoption of the following resolution:
RESOLVED, That the President of the Convention
be and he is hereby authorized to draw warrants upon
the State Treasurer for printing and supplies on
account of the contingent expenses of the Convention,
as follows:
In favor of the Delawarean for six hundred and
sixty-eight dollars and seventy-five cents;
In favor of the Dover Index for eighty dollars;
In favor of the Sussex Republican for sixteen dollars;
In favor of the State Sentinel Printing Company for
three dollars.
JAMES B. GILCHRIST: Mr. President, I move that
the report be accepted and the resolution adopted.

121
JOSHUA A. ELLEGOOD: I second the motion.
Motion put and carried.
PRESIDENT BIGGS: The report is therefore
received and the resolution is adopted.
WILLIAM SAULSBURY: Mr. President, I have here
the bill of Charles R. Jones for enrolling.
I move that it be referred to the Committee on
Accounts.
CHARLES F. RICHARDS: I second the motion.
Motion put and carried.
PRESIDENT BIGGS: The bill is therefore referred
to the Committee on Accounts.
JOHN W. HERING: Mr. President, I have here a bill
in favor of the Delawarean.
I move that it be referred to the Committee on
Accounts.
JOSHUA A. ELLEGOOD: I second the motion.
Motion put and carried.
PRESIDENT BIGGS: The bill is therefore referred
to the Committee on Accounts.
WILLIAM C. SPRUANCE: Mr. President, the fact
that the provision in reference to the appointment of
the first Chancellor, Chief Justice and Associate Judges
under this amended Constitution, as found in the
tenth section of the Schedule, is in the Schedule and
not in the Constitution has been the subject of some
criticism.
[3446] It is claimed by some persons that it would
not be valid in the Schedule; that it ought to have been
in the Constitution.

122
Mr. President, as it is a vital section, and there
ought to be no ground for cavil as to the legality of the
first appointment of the Judges, if there is anything in
that objection we ought to cure it while we may.
I have conferred with a number of the gentlemen of
the Convention, lawyers and others, and they agreed
that it would be wise to transfer that provision to the
proper place in the Constitution.
After some conference, several of us have concluded
that the proper place to transfer that to would be to
the third section of the Judiciary report on page 46. I
therefore ask unanimous consent, Mr. President, as
follows:
That section 10 of the Schedule be transferred to the
third section of the fourth article of the Constitution
so that said section shall read as follows:
PRESIDENT BIGGS: Is not that section 12 of the
Schedule instead of section 10?
WILLIAM C. SPRUANCE: No, Sir; it is section 10 of
the Schedule.
I ask the attention of the gentlemen to this fact:
That there is a little confusion about the two Schedule
pamphlets. The one that was reported by the Committee on Phraseology, as regards this particular section
is not the one that was adopted.
We have a few copies before us of the printed Schedule as reported by the Committee of the Whole, and
that is the one I am talking about; that is the one that
has been adopted.
NATHAN PRATT: Mr. President, I have not a copy
of that, and I would like to hear the section read.

123
PRESIDENT BIGGS: The Secretary will please
read section 10 of the last printed Schedule.
WILLIAM C. SPRUANCE: It is not in the first report
at all.
If the gentlemen will take that in hand they will see
in a minute what is proposed to be transferred in that
section.
So that that section down to the last word in the
fourth line would read as follows:
“The Chancellor, Chief Justice and Associate Judges
shall be appointed by the Governor, by and with the
consent of a majority of all the Members elected to the
Senate, for the term of twelve years.”
Then strike out the word “and” at the end of the
fourth line—this is in the Constitution—and insert as
follows:
“Provided further that the Chancellor, Chief Justice
and Associate Judges first to be appointed under this
amended Constitution shall be appointed by the Governor without the consent of the Senate for the term of
twelve years and the persons—
WILLIAM SAULSBURY: We have used the word
“amended” in the Constitution.
[3447] WILLIAM C. SPRUANCE: Had we better
leave the word “amended” in or strike it out?
PRESIDENT BIGGS: Will the Member (Mr.
Spruance) just call to our attention to what part of the
Constitution he wants to make a change in?
WILLIAM C. SPRUANCE: Page 46, section 3.
PRESIDENT BIGGS: What are the changes?

124
WILLIAM C. SPRUANCE: It will read as follows:
“The Chancellor, Chief Justice and Associate Judges
shall be appointed by the Governor, by and with the
consent of a majority of all the Members elected to the
Senate for the term of twelve years”. Then after the
word “years” make a period.
J. WILKINS COOCH: A period after “years” and
then a capital letter?
WILLIAM C. SPRUANCE: No; a semi-colon.
PRESIDENT BIGGS: There is a comma there now.
WILLIAM C. SPRUANCE: Yes; but make it a semicolon.
Strike out the word “and” and insert in lieu of that
word the following:
“Provided, however, that the Chancellor, Chief
Justice and Associate Judges first to be appointed
under this amended Constitution shall be appointed
by the Governor without the consent of the Senate for
the term of twelve years, and the persons so appointed
shall enter upon the discharge of the duties of their
respective offices upon taking the oath of office prescribed by this amended Constitution.”
Then the next word “if” shall begin with a capital I;
and then it reads on.
PRESIDENT BIGGS: The Member from Wilmington (Mr. Spruance) asks unanimous consent that section 3 on page 46, relative to the Judiciary, be changed
as follows:
That the comma after the word “years” in the fourth
line be changed to a semi-colon; that the word “and” be
stricken out, and in lieu thereof the following be
inserted:

125
“Provided, however that the Chancellor, Chief Justice
and Associate Judges first to be appointed under this
amended Constitution shall be appointed by the
Governor without the consent of the Senate for the
term of twelve years, and the persons so appointed
shall enter upon the discharge of the duties of their
respective offices upon taking the oath of office
prescribed by this amended Constitution”.
Then to change the small “i” in the next word to a
capital “I” and the remainder of that section to read as
it is printed in the Constitution.
Are there any objections to that request being
granted?
The Chair hears none, and the Secretary will therefore make the changes.
[3448] Whereupon the Secretary made the changes
as directed by the Chair.
PRESIDENT BIGGS: The Secretary will please read
the first part of that section 3 as it now stands changed
by unanimous consent.
Whereupon the Secretary read the first part of
section 3 as changed by unanimous consent as follows:
“Section 3. The Chancellor, Chief Justice and Associate Judges shall be appointed by the Governor, by and
with the consent of a majority of all the Members elected to the Senate, for the term of twelve years; provided, however, that the Chancellor, Chief Justice and
Associate Judges first to be appointed under this
amended Constitution shall be appointed by the
Governor without the consent of the Senate for the
term of twelve years, and the persons so appointed
shall enter upon the discharge of the duties of their
respective offices upon taking the oath of office

126
prescribed by this amended Constitution. If a vacancy
shall occur” etc.
PRESIDENT BIGGS: Those are the corrections,
therefore, that are made by unanimous consent.
WILLIAM C. SPRUANCE: Mr. President, I ask
unanimous consent to correct the Schedule by striking
out section 10 and making section 11 section 10, and
numbering the subsequent sections consecutively.
PRESIDENT BIGGS: The gentleman from Wilmington (Mr. Spruance) asks unanimous consent that
section 10 as adopted by the Convention heretofore be
stricken out of the Schedule, the same being embodied
in the Constitution; and in addition to that, that
section 11 be numbered section 10, and the following
numbers of the sections thereafter be numbered
consecutively.
Is there any objection?
The Chair hears none, and unanimous consent is
therefore given that section 10 be stricken from the
Schedule, it already being embodied in the Constitution, and that section 11 be numbered section 10, and
the sections thereafter be numbered consecutively.
The Secretary will please make the record to conform therewith.
WILLIAM SAULSBURY: Mr. President, I am
instructed by the Committee on Accounts to submit
the following report, which I ask to have read.
PRESIDENT BIGGS: The Secretary will please
read the report.
Whereupon the Secretary read the report as follows:
The Committee on Accounts recommends the adoption of the following resolution:

127
RESOLVED, that the President of the Convention
be, and he is hereby authorized to draw warrants upon
the State Treasurer for supplies and services on
account of the contingent expenses of the Convention
as follows:
In favor of Clark & McDaniel, for fourteen dollars
and thirty-nine cents ;
* * *

128
SPONSOR Rep. Matushefske
COMMITTEE _____________
[SEAL]
HOUSE OF REPRESENTATIVES
129TH GENERAL ASSEMBLY
FIRST SESSION - 1977
HOUSE BILL NO. 581 June 30 1977
AN ACT CONCURRING IN A PROPOSED AMENDMENT TO ARTICLE 4, SECTIONS 2, 3 AND 12 OF
THE CONSTITUTION OF THE STATE OF DELAWARE BY INCREASING THE SUPREME COURT
TO FIVE JUSTICES AND PROVIDING FOR A
QUORUM OF THE SUPREME COURT.
WHEREAS, an amendment to the Constitution of
the State of Delaware was proposed in the 128th
General Assembly, being Chapter 540, Volume 60,
Laws of Delaware, as follows:
“An Act Proposing an Amendment to Article
4, Sections 2, 3 and 12 of the Constitution of
the State of Delaware by Increasing the
Supreme Court to Five Justices and Providing
for a Quorum of the Supreme Court.
BE IT ENACTED BY THE GENERAL ASSEMBLY
OF THE STATE OF DELAWARE (two-thirds of the
members elected to each branch thereof concurring
therein):
Section 1. Article 4, Section 2 of the Constitution of
the State of Delaware of 1897 is amended by striking
the word “three” as it appears after the words “shall
be” and before the word “Justices” in the first line of
said section, and substituting in lieu thereof the word
“five”.

129
Section 2. Article 4, Section 3, paragraph 3 of the
Constitution of the State of Delaware of 1897, as amended, is amended to read as follows:
“First, three of the five Justices of the Supreme
Court in office at the same time, shall be of
one major political party, and two of said Justices shall be of the other major political party.”
Section 3, Article 4, Section 3, paragraph 5 of the
Constitution of the State of Delaware of 1897, as
amended, is amended by striking the word “three” as
it appears in Article 4, Section 3, paragraph 5.
Section 4. Article 4, Section 12 of the Constitution of
the State of Delaware of 1897, as amended, is
amended to read as follows:
“§12.
Composition of Supreme Court; designation of temporary Justices, quorum; opening and adjourning court.
Section 12. A quorum of the Supreme Court
shall consist of not less than three Justices.
The entire Court shall sit in any criminal case
in which the accused has been sentenced to
death and in such other civil and criminal
cases as the Court, by rule, or the General
Assembly, upon the concurrence of two-thirds
of all the members elected to each house, shall
determine. In case of a lack of quorum by
reason of vacancies in their number, incapacity, or disqualification to sit by reason of
interest, or to constitute a three-member panel
of the Court, the Chief Justice of the Supreme
Court, or if he is disqualified or incapacitated
or if there is a vacancy in that office, the
Justice, who by seniority is next in rank to the
Chief Justice, shall have the power to desig-

130
nate judges from among the judges of the constitutional courts to sit in the Supreme Court
temporarily to fill up the number of Justices
required by law. It shall be the duty of the
judges of the constitutional courts so designated to sit accordingly. No judge shall be so
designated to sit in the supreme Court in any
cause in which he sat below. Any one of the
Justices of the Supreme Court may open and
adjourn court.”
WHEREAS, the said proposed amendment was
agreed to by two-thirds of all the members elected to
each House in the said 128th General Assembly.
NOW THEREFORE:
BE IT ENACTED BY THE GENERAL ASSEMBLY
OF THE STATE OF DELAWARE (two-thirds of the
members elected to each branch thereof concurring
therein):
Section 1. The said proposed amendment is agreed
to and adopted and shall forthwith become a part of
the Constitution of the State of Delaware.
SYNOPSIS
This bill completes the amendment to the Delaware
Constitution to increase the membership of the Supreme
Court from three to five.

131
[SEAL]
SPONSOR: Sen. Adams, Rep. Barnes
DELAWARE STATE SENATE
132ND GENERAL ASSEMBLY
SENATE BILL NO. 296 JUN 7 1983
AN ACT CONCURRING IN A PROPOSED AMENDMENT TO ARTICLE IV, SECTION 3 OF THE CONSTITUTION OF THE STATE OF DELAWARE RELATING TO THE JUDICIARY.
WHEREAS, an Amendment to the Constitution of
the State of Delaware was proposed in the 131st General Assembly being Chapter 377, Volume 63, Laws of
Delaware, as follows:
BE IT ENACTED BY THE GENERAL ASSEMBLY
OF THE STATE OF DELAWARE (Two-thirds of all
members elected to each House thereof concurring
therein):
Section 1. Amend Section 3, Article IV of the Constitution of the State of Delaware by striking the first
paragraph beginning with the words “The Justice of
the Supreme Court” and ending with the words “full
term” and substituting in lieu thereof the following:
“Section 3. The Justices of the Supreme
Court, the Chancellor and the Vice-Chancellor
or Vice-Chancellors, and the President Judge
and Associate Judges of the Superior Court
shall be appointed by the Governor, by and
with the consent of a majority of all the
members elected to the Senate, for the term
of twelve years each, and the persons so
appointed shall enter upon the discharge of
the duties of their respective offices upon

132
taking the oath of office prescribed by this
Constitution. The Governor shall submit his
appointment within sixty (60) days after the
occurrence of a vacancy howsoever caused. If
a vacancy shall occur, by expiration of term or
otherwise, at a time when the Senate shall
not be in session, the Governor shall within
sixty (60) days after the happening of any
such vacancy convene the Senate for the
purpose of confirming his appointment to fill
said vacancy and the transaction of such
other executive business as may come before
it. Such vacancy shall be filled as aforesaid for
the full term. Notwithstanding a vacancy,
whether occurring when the Senate is or is
not in session, an incumbent whose term has
expired shall hold over in office until the
incumbent, or a new appointee, is confirmed
and takes the oath of office for the next term,
but In no event shall an incumbent whose
term has expired hold over in office for more
than sixty (60) days after the expiration of the
term. In all instances the term of a new or
reappointed Justice of the Supreme Court,
Chancellor or Vice-Chancellor, President Judge
or Associate Judge of the Superior Court shall
begin on the date that the oath of office is
taken, thus qualifying the individual to serve,
but the appointment shall be forfeit if such
oath is not taken within thirty (30) days of
confirmation.”
WHEREAS, the said proposed amendment was
adopted by two-thirds of all members elected to each
House of the the 131st General Assembly.

133
NOW, THEREFORE:
BE IT ENACTED BY THE GENERAL ASSEMBLY
OF THE STATE OF DELAWARE (Two-thirds of all
members elected to each House thereof concurring
therein):
Section 1. The said proposed amendment is
hereby concurred in and adopted, and shall
forthwith become a part of the Constitution of
the State of Delaware.
SYNOPSIS
The Delaware Constitution presently provides that
if the Senate is not in session when a vacancy occurs
in a constitutional judgeship by virtue of the expiration of a term, death, disability or resignation, the
Governor must convene a special session within 30
days to act on a new appointment. The Constitution is
silent as to when the Governor must make an appointment to fill such vacancy occurring when the Senate is
in session, although the Delaware Supreme Court has
opined that the Governor must act “...as promptly as
may be reasonable and practicable in fulfillment of the
urgencies of the judicial system of the State.” In re
Opinion of the Justices, Del. Supr., 320 A. 2d 735, at
738 (1974). However, if action is not taken by the time
the previous term expires, the Delaware Constitution
presently prohibits holding over in office by constitutional judges, Opinion of the Justices, Del. Supr., 189
A. 2d 777, at 779 (1963).
Resent Delaware history indicates that the Senate
is seldom out of session for more than 90 days at a
time, and that special sessions can he expensive and
inconvenient. However, when incumbent constitutional judges are reappointed there are difficulties in
case load management and insecurities from loss of

134
salary, health, disability and pension benefits that
result from breaks or gaps even of a short duration in
the continuity of service. And whenever vacancies are
filled by new appointees, losses of judicial manpower
should be kept to an absolute minimum.
The proposed amendment addresses these deficiencies by providing for a limited period during which an
incumbent holds over in office until he or a new appointee takes the oath for the next term. It also provides
that the term of a judge or justice shall begin upon
taking the oath which must be within 30 days of confirmation.
Author - Sen. Adams

135
[SEAL]
SPONSOR: Sen. Vaughn & Rep. Valihura
Sens.
Reps.
McDowell
Wagner
DeLuca
Lavelle
Adams
Stone
Simpson
George
Keeley
Hudson
DELAWARE STATE SENATE
143rd GENERAL ASSEMBLY
SENATE BILL NO. 61 MAR 24 2005
AN ACT CONCURRING IN A PROPOSED AMENDMENT TO ARTICLE IV OF THE DELAWARE CONSTITUTION OF 1897 TO INCLUDE THE FAMILY
COURT AND COURT OF COMMON PLEAS AS
COURTS ESTABLISHED BY THE CONSTITUTION
OF THE STATE OF DELAWARE AND ARTICLES III
AND IV OF THE DELAWARE CONSTITUTION OF
THE STATE OF DELAWARE TO DELETE REFERENCES TO THE ORPHANS’ COURT.
WHEREAS, AN. AMENDMENT TO THE CONSTUTITION OF THE STATE OF DELAWARE WAS
PROPOSED IN THE 142ND GENERAL ASSEMBLY,
BEING CHAPTER 299, VOLUME 74, LAWS OF
DELAWARE, AND PASSED ON JUNE 29, 2004, AS
FOLLOWS:
“AN ACT TO PROPOSE AN AMENDMENT TO
ARTICLE IV OF THE DELAWARE CONSTITUTION
OF 1897 TO INCLUDE THE FAMILY COURT AND
COURT OF COMMON PLEAS AS COURTS ESTABLISHED BY THE CONSTITUTION OF THE STATE
OF DELAWARE AND ARTICLES AND IV OF THE

136
DELAWARE CONSTITUTION OF THE STATE OF
DELAWARE TO DELETE REFERENCES TO THE
ORPHANS’ COURT.
BE IT ENACTED BY THE GENERAL ASSEMBLY
OF THE STATE OF DELAWARE (Two-thirds of all
members elected to each House thereof concurring
therein):
Section 1. Amend Article IV, Section 1 of the Constitution of the State of Delaware by adding the Words “a
Family Court, a Court of Common Pleas,” after the
phrase “a Court of Chancery,” and before the phrase
“an Orphans’ Court” as that phrase heretofore appears.
Section 2. Amend Article IV, Section 2 of the Constitution by striking the second, third and fourth full
paragraphs of said Section, and substituting in lieu
thereof the following:
“In addition to members of the Supreme Court there
shall be other State Judges, who shall be citizens of
the State and learned in the law. They shall include:
(1) the Chancellor and the Vice-Chancellors; (2) The
President Judge and the Associate Judges of the Superior Court, three of whom shall be Resident Associate
Judges and one of whom shall after appointment
reside in each county of the State; (3) the Chief Judge
and the Associate Judges of the Family Court; and (4)
the Chief Judge and Judges of the Court of Common
Pleas, one of whom after appointment shall reside in
each county of the State.
There shall also be such number of additional ViceChancellors, Associate Judges and Judges as may
hereinafter be Act of the General Assembly. Each of
such Vice-Chancellors, Associate Judges, and Judges
shall be citizens of the learned in the law.

137
If it is otherwise impossible to determine seniority of
service among the Vice-Chancellors, or among the said
Assoc among the said Judges, they shall determine it
by lot respectively and certify accordingly to the
Governor.”.
Section 3. Amend Article IV, Section 3 of the
Constitution of the State of Delaware by striking the
word “a *** phrase “or Vice-Chancellors,” as that phrase
appears in the first sentence of the first paragraph of
said Section by ado” *** “, the Chief Judge and
Associate Judges of the Family Court and the Chief
Judge and Judges of the Court of Common *** the
phrase “Associate Judges of the Superior Court” as
that phrase appears in the first sentence of the first
paragraph *** Section; by adding the words “, Chief
Judge or Associate Judge of the Family Court or Chief
Judge or Judge of the C *** Common Pleas” after the
phrase “Associate Judge of the Superior Court” as that
phrase appears in the sixth sentence *** paragraph of
said Section; and by redesignating current paragraph
“Fourth” as paragraph “Sixth” and adding new par ***
“Fourth” and “Fifth” after paragraph “Third” to read
as follows:
“Fourth, at any time when the total number of Judges
of the Family Court shall be an even number, not more
than one- *** Judges shall be of the same political
party; and at any time when the total number of
Judges shall be an odd number, th *** than a majority
of one Judge shall be of the same political party.
Fifth, at any time when the total number of Judges of
the Court of Common Pleas shall be an even number,
not more th *** of the Judges shall be of the Same
political party; and at any time when the total number
of Judges shall be an odd num *** more than a

138
majority of one Judge shall be of the same political
party.”
Section 4. Amend Article IV, Section 4 of the Constitution of the State of Delaware by striking the word
“and *** phrase “or Vice-Chancellors,” as that phrase
appears in the first sentence of said Section; and by
adding the words “the and Associate Judges of the
Family Court and the Chief Judge and Judges of the
Court of Common Pleas” after the phra *** “Orphans’
Court” as that phrase appears in the same sentence.
Section 5. Amend Article IV of the Constitution of
the State of Delaware by adding thereto a new Section
imm *** following Section 7, which new Section shall
read in its entirety as follows:
“§7A. Jurisdiction of Family Court.
Section 7A. The Family court shall have all the
jurisdiction and powers vested by the laws of this State
in the Fa *** Court.”.
Section 6. Amend Article IV of the Constitution of
the State of Delaware by adding thereto a new Section,
which Section shall read in its entirety as follows:
“§7B. Jurisdiction of Court of Common Pleas.
Section 7B. The Court of Common Pleas shall have
all the jurisdiction and powers vested by the laws of
this State in the Court of Common Pleas.”.
Section 7. Amend Article IV, Section 13 of the Constitution of the State of Delaware by deleting the
phrase “, the Superior Court or the Orphans’ Court” as
found in the title of said Section and replacing it with
the phrase “or the Superior Court” and by striking
paragraph (2) in its entirety, and substituting in lieu
thereof the following:

139
“(2) Upon written request made by the Chancellor, President Judge of the Superior Court,
the Chief Judge of the Family Court, or the
Chief Judge of the Court of Common Pleas, or
in the event of an absence or incapacity, by
the next qualified and available Vice-Chancellor, Associate Judge or Judge, who is senior
in length of service, to designate one or more
of the State Judges (including the Justices of
the Supreme Court) to sit in the Court of
Chancery, the Superior Court, the Family
Court or the Court of Common Pleas, as the
case may be, and to hear and decide such
causes in such Court and for such period of
time as shall be designated. It shall be the
duty of the State Judge so designated to serve
according to such designation as a Judge of
the Court designated. The provisions of this
paragraph shall not be deemed to limit in any
manner the powers conferred upon the judges
of the Superior Court under Section 14 of this
Article.”.
Section 8. Amend Article IV, Section 17 of the
Constitution of the State of Delaware by striking the
phrase “the Orphans’ Court” as it appears twice
therein and adding the words “, the Family Court
hereby established, the Court of Common Pleas hereby
established” after “established” as it appears in the
first sentence of said Section; by substituting the word
“any” for the word “either” as it appears in the first
sentence of said Section; and by adding the words “,
the Family Court, the Court of Common Pleas” after
the phrase “Superior Court” as that phrase appears in
the second sentence of said Section.

140
Section 9. Amend Article IV, Section 18 of the Constitution of the State of Delaware by adding a second
sentence thereto, which shall read as follows:
“Until the General Assembly shall otherwise provide,
the Chief Judge of the Family Court and the Associate
Judges of said Court, respectively, shall each singly
exercise all the powers which any law of this State
vests in the Judges of Family Court, whether as
members of the Court or otherwise, and the Chief
Judge of the Court of Common Pleas and the Judges
of said Court, respectively, shall each singly exercise
all the powers which any law of the State vests in the
Judges of the Court of Common Pleas, whether as
members of the Court or otherwise.”.
Section 10. Amend Article IV of the Constitution of
the State of Delaware by adding the new Section 34A,
which shall read as follows:
“§34A. Continuation in office and designation of
judicial officers of the Family Court and the Court of
Common Pleas.
Section 34A. The Chief Judge and the Associate
Judges of the Family Court and the Chief Judge and
the Judges of the Court of Common Pleas in office at
and immediately before the time this amended Article
IV of this Constitution becomes effective shall hold
their respective offices until the expiration of their
terms, respectively, and shall receive the compensation provided by law.”.
Section 11. Amend Article IV, Section 37 of the Constitution of the State of Delaware by striking the word
“and” after the phrase “the Chancellor,” as it appears
in the first sentence thereof; and by adding the words
“, the Chief Judge of the Family Court and the Chief
Judge of the Court of Common Pleas” after the phrase

141
“President Judge of the Superior Court” and before the
period “.” in that same sentence.
Section 12. Amend Article III, Section 22 of the Constitution of the State of Delaware by striking the
phrase “, Clerks of the Orphans’ Court” as that phrase
appears therein.
Section 13. Amend Article III, Section 23 of the Constitution of the State of Delaware by striking the
phrase “, Clerks of the Orphans’ Court” as that phrase
appears therein.
Section 14. Amend Article III of the Constitution of
the State of Delaware by striking Section 4 in its
entirety.
Section 15: Amend Article IV, Section 1 of the Constitution of the State of Delaware by striking the
phrase “an Orphans’ Court,” as that phrase appears
therein.
Section 16. Amend Article IV, Section 2 of the Constitution of the State of Delaware by striking the
phrase “and of the Orphans’ Court” as that phrase
appears twice therein.
Section 17. Amend Article IV, Section 3 of the Constitution of the State of Delaware by striking the phrase
‘and Orphans’ Court” as that phrase appears twice
therein.
Section 18. Amend Article IV, Section 4 of the Constitution of the State of Delaware by striking “and of
the Orphans’ Court” as that phrase appears therein.
Section 19. Amend Article IV, Section 5 of the Constitution of the State of Delaware by striking the phrase
“and Orphans’ Court” as it appears in the title of the
Section, and by striking the phrase “and the Orphans’
Court” as it appears twice therein.

142
Section 20. Amend Article IV, Section 6 of the Constitution of the State of Delaware by striking the
phrase “and Orphans’ Court” as it appears in the title
of said Section, and by striking the phrase “and of the
Orphans’ Court” as it appears in the text.
Section 21. Amend Article IV, Section 8 of the Constitution of the State of Delaware by striking the phrase
“and of the Orphans’ Court” as it appears therein.
Section 22. Amend Article IV, of the Constitution of
the State of Delaware by striking Section 9 in its
entirety.
Section 23. Amend Article IV, Section 14 of the Constitution of the State of Delaware by striking the
phrase “and of the Orphans’ Court” as it appears
therein.
Section 24. Amend Article IV, of the Constitution of
the State of Delaware by striking Subsection (5) of
Section 11 in its entirety; by deleting the phrase “, the
Court of Chancery and the Orphans’ Court” as found
in Subsection (6) of Section 11 and replacing said
phrase with the phrase “and the Court of Chancery”;
and by renumbering all succeeding subsections accordingly.
Section 25. Amend Article IV, Section 18 of the Constitution of the State of Delaware by striking the phrase
“and of the Orphans’ Court” as it appears therein.
Section 26. Amend Article IV, Section 31 of the Constitution of the State of Delaware by striking the
phrase “Orphans’ Court” as it appears in the title and
the fourth and fifth sentences of the Section, and inserting in each place the phrase “Court of Chancery”.
Section 27. Amend Article IV, Section 32 of the Constitution of the State of Delaware by striking the

143
phrase “Orphans’ Court” as it appears in the title and
the second and third paragraphs, and inserting in each
place the phrase “Court of Chancery”.
Section 28. Amend Article IV, Section 34 of the Constitution of the State Of Delaware by striking the
phrase “and of the Orphans’ Court” as that phrase
appears twice therein.
Section 29. Amend Article IV, Section 36 of the
Constitution of the State of Delaware by striking
Section 36 in its entirety.”
WHEREAS, the said proposed amendment was adopted by two-thirds’ of all members elected to each House
of the 142nd General Assembly:
NOW THEREFORE:
BE IT ENACTED BY THE GENERAL ASSEMBLY
OF THE STATE OF DELAWARE (Two-thirds of all
members elected to each House thereof concurring
therein):
Section 1. The said proposed amendment is hereby
concurred in and adopted, and shall forthwith become
a part of the Constitution of the State of Delaware.
SYNOPSIS
This is the second leg of a Constitutional Amendment. These Constitutional Amendments implement
the recommendations of the Commission on Delaware
Courts 2000 by providing for the inclusion of the
Family Court and the Court of Common Pleas in the
Court structure of the Constitution of the State of
Delaware, and making the Judges in said Courts
constitutional Judges. These amendments also delete
references to the Orphans Court, which was abolished
by a prior act of the General Assembly.
Author: Senator Vaughn

144
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following offices can be filled by the appointment of the Governor with the concurrence of the
Senate:
Judge of the Superior Court of the State
of Delaware, New Castle County
(Due to the expiration of the term of the
Honorable Peggy L. Abelman, who is
not seeking reappointment)
There are requirements of political balance under
the Delaware Constitution Art. IV § 3 and, in this case,
the appointee must be a member of the Democratic
Party. The appointee must be a citizen of the State of
Delaware. The position provides a current annual salary of $180,233.
Judge of the Superior Court of the State
of Delaware, New Castle County
(Due to the expiration of the term of the
Honorable Joseph R. Slights III, who is
not seeking reappointment)
There are requirements of political balance under
the Delaware Constitution Art. IV § 3 and, in this case,
the appointee must be a member of the Democratic
Party. The appointee must be a citizen of the State of
Delaware. The position provides a current annual
salary of $180,233.
Two Judges of the Superior Court of the
State of Delaware, New Castle County
(Due to the creation of two new positions
by the 146th General Assembly)

145
There are requirements of political balance under
the Delaware Constitution Art. IV § 3 and, in this case,
at least one of the appointees must be a member of the
Democratic Party and the other may be a member of
the Republican Party. The appointee must be a citizen
of the State of Delaware. The position provides a
current annual salary of $180,233.
Commissioner of the Superior Court,
New Castle County
(Due to the expiration of the term of the Honorable
Lynne M. Parker, who is seeking reappointment)
There is a requirement of political balance under 10
Del. C. § 511(a) and, in this case, the appointee may be
a member of either party. There also are requirements
that the appointee be a resident of New Castle County
and duly admitted to practice before the Supreme
Court of the State of Delaware. The position provides
a current annual salary of $111,275.
* * * * *
Persons who meet the legal qualifications of the
offices described above are invited to file with the
Commission a “Questionnaire for Nominees for Judicial Office.” The form may be obtained from the Commission by calling (302) 573-3500 (extension 3522) and
asking for Jennifer Speakman or can be downloaded
online at http://courts.delaware.gov by going to the
general information navigation tab at the top, clicking
career opportunities and then clicking on “Questionnaire for Nominees for Judicial Office” under the heading for judicial officer postings. Any person desiring to
suggest candidates is invited to write to the Commission.
Completed Questionnaires must be received no later
than 12 noon, September 14, 2012, at the below-listed

146
address. Interviews of candidates will be scheduled
thereafter.
On August 15, 2012, the Judicial Nomination Commission published a notice for five other judicial offices.
Candidates who wish to apply for any of those offices
and who wish to be considered for any of the offices set
forth in this notice, do not need to submit a second
application but must submit a letter to the belowlisted address no later than 12 noon on September 14,
2012, (a) stating each of the offices for which they wish
to be considered and (b) providing an updated response
to Question No. 44 of the Questionnaire for each
additional office for which the candidate is applying.
Judicial Nominating Commission
Andre G. Bouchard, Esquire, Chairman
c/o Bouchard Margules & Friedlander, P.A.
222 Delaware Avenue, Suite 1400
Wilmington, DE 19801
Dated: August 17, 2012

147
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office can be filled by the appointment of the Governor with the concurrence of the
Senate:
Chief Justice of the Supreme Court
of the State of Delaware
(Due to the retirement of
Chief Justice Myron T. Steele)
There are requirements of political balance under
the Delaware Constitution Art. IV § 3 and, in this case,
the appointee may be a member of either the Democratic Party or the Republican Party. The appointee
must be a citizen of the State of Delaware and learned
in the law. The position provides a current annual
salary of $200,631.
Persons who meet the legal qualifications of the
offices described above are invited to file with the
Commission a “Questionnaire for Nominees for Judicial Office.” The form may be obtained from the Commission by calling (302) 573-3500 (extension 3522) and
asking for Jennifer Speakman or can be downloaded
online at http://courts.delaware.gov by going to the
general information navigation tab at the top, clicking
career opportunities and then clicking on “Questionnaire for Nominees for Judicial Office” under the heading for judicial officer postings. Any person desiring to
suggest candidates is invited to write to the Commission.
Completed Questionnaires must be received no later
than 12 noon, November 5, 2013, at the below-listed
address.

148
Judicial Nominating Commission
Andre G. Bouchard, Esquire, Chairman
c/o Bouchard Margules & Friedlander, P.A.
222 Delaware Avenue, Suite 1400
Wilmington, DE 19801
Dated: October 14, 2013

149
Connell, Ryan (DOJ) _____________________________
From:

dsba-bounces@barlist.delawlist.org on
behalf of List Admin <administrator@
dsba.org>
Sent:
Wednesday, August 19, 2015 10:07 AM
To:
dsba@delawlist.org
Subject:
[DSBA] Notice of Judicial Vacancies
Attachments: ATT00001.txt
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following offices may be filled by the
appointment of the Governor with the concurrence of
the Senate:
Vice Chancellor of the Court of
Chancery of the State of Delaware
(Due to the retirement of Vice
Chancellor Donald F. Parsons, Jr.)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution but,
in this case, the appointee may be a member of either
party. The position provides a current annual salary
of $180,733.
Judge of the Superior Court of the State
of Delaware, New Castle County
(Due to the expiration of the term of
The Honorable Mary M. Johnston,
who is seeking reappointment)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution, and
in this case, the appointee must be a member of the
Republican Party. The appointee must be a citizen of

150
the State of Delaware. The position provides a current
annual salary of $180,733.
Judge of the Family Court of the State
of Delaware, New Castle County
(Due to the expiration of the term of
The Honorable Arlene M. Coppadge,
who is seeking reappointment)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution but,
in this case, the appointee may be a member of either
party. In addition, the appointee: (i) must reside in
New Castle County; (ii) must be a resident of the State
of Delaware for at least 5 years immediately preceding
his or her appointment; and (iii) must be admitted to
the practice of law before the Supreme Court of this
State for period not less than 5 years prior to such
appointment. The position provides a current annual
salary of $180,733.
Chief Magistrate of the Justice of the Peace
Courts of the State of Delaware
(Due to the expiration of the term of
Chief Magistrate Alan, G. Davis,
who is seeking reappointment)
There are no political balance requirements for this
office. The position provides a current annual salary of
$125,927.
Commissioner of the Family Court of the
State of Delaware, New Castle County
(Due to the retirement of Commissioner
Mary Ann Herlihy)
There are no political balance requirements for this
office. Any applicant must be a resident of the State of
Delaware for at least five years immediately preceding

151
his or her appointment. Non-incumbent applicants
must be duly admitted to practice law before the
Supreme Court of the State of Delaware. The position
provides a current annual salary of $111,775.
*************************************************
Persons who meet the legal qualifications of the offices
described above are invited to file with the
Commission a “Questionnaire for Nominees for Judicial Office.” The form may be obtained from the
Commission by calling (302) 856-4235 and asking for
Staci Hammonds or can be downloaded online at
http://courts.delaware.gov by going to the general
information navigation tab at the top, clicking career
opportunities and then clicking on “Questionnaire for
Nominees for Judicial Office” under the heading for
judicial officer postings. Any person desiring to suggest candidates is invited to write to the Commission.
Completed Questionnaires must be received no later
than noon on Thursday, September 10, 2015 at the
below-listed address. Interviews of candidates will be
scheduled thereafter.
Judicial Nominating Commission
The Hon. William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: August 18, 2015

152
Connell. Ryan (DOJ) ___________________________
From:

doeLegal on behalf of DESCLMS Listsery
(Delaware Courts)
<notify_listservAttorneys@doelegal.com>
Sent:
Wednesday, December 16, 2015 3:47 PM
To:
Connell, Ryan (DOJ)
Subject:
Notice of Vacancy
Importance: High
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office may be filled by the
appointment of the Governor with the concurrence of
the Senate:
Vice Chancellor of the Court of
Chancery of the State of Delaware
(Due to the retirement of Vice
Chancellor John W. Noble)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution, but
in this case, the appointee may be a member of either
party. The appointee must be a resident of the State of
Delaware. The position provides a current annual salary of $180,733.
*************************************************
Persons who meet the legal qualifications of the
office described above are invited to file with the Commission a “Questionnaire for Nominees for Judicial
Office.” The form may be obtained from the Commission by calling (302) 856-4235 and asking for Amy
Garrahan or can be downloaded online at http://courts.
delaware.gov by going to the general information
navigation tab at the top, clicking career opportunities

153
and then clicking on “Questionnaire for Nominees for
Judicial Office” under the heading for judicial officer
postings. Any person desiring to suggest candidates is
invited to write to the Commission.
Completed Questionnaires must be received no later
than 12:00 noon on Friday, January 15, 2016 at the
below-listed address. Interviews of candidates will be
scheduled thereafter.
Judicial Nominating Commission
The Hon. William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: December 16, 2015

154
Connell. Ryan (DOJ) ___________________________
From:

dsba-bounces@barlist.delawlist.org on
behalf of List Admin
<administrator@dsba.org>
Sent:
Tuesday, November 03, 2015 12:21 PM
To:
dsba@delawlist.org
Subject:
[DSBA] JNC: Notice of Vacancies re
Superior Court Judge and Commission
of Family Court
Attachments: ATT00001.txt
NOTICE

The Judicial Nominating Commission gives public
notice that it has received notification from the
Governor that the following offices may be filled by
the appointment of the Governor with the
concurrence of the Senate:
Judge of the Superior Court of the State
of Delaware, New Castle County
(Due to the retirement of
The Honorable Fred S. Silverman)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution,
and in this case, the appointee must be a member of
the Democratic Party. The appointee must be a
citizen of the State of Delaware. The position
provides a current annual salary of $180,733.
Commissioner of the Family Court of
the State of Delaware, Sussex County
(Due to the retirement of
The Honorable Pamela Holloway)
There are no political balance requirements for this
office. Any applicant must be a resident of the State of
Delaware for at least five years immediately preceding

155
his or her appointment and reside in Sussex County.
Non-incumbent applicants must be duly admitted to
practice law before the Supreme Court of the State of
Delaware. The position provides a current annual
salary of $111,775.
*************************************************
Persons who meet the legal qualifications of the
offices described above are invited to file with the Commission a “Questionnaire for Nominees for Judicial
Office.” The form may be obtained from the
Commission by calling (302) 856-4235 and asking for
Amy Garrahan or can be downloaded online at
http://courts.delaware.gov by going to the general
information navigation tab at the top, clicking career
opportunities and then clicking on “Questionnaire
for Nominees for Judicial Office” under the heading
for judicial officer postings. Any person desiring to
suggest candidates is invited to write to the
Commission.
Completed Questionnaires must be received no later
than 12:00 noon on Thursday, December 3, 2015
at the below-listed address. Interviews of candidates
will be scheduled thereafter.
Judicial Nominating Commission
The Hon. William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: November 2, 2015

156
Connell. Ryan (DOJ) ___________________________
From:

doeLegal on behalf of DESCLMS
Listsery (Delaware Courts)
<notify_listservAttorneys@doelegal.com>
Sent:
Monday, February 06, 2017 2:48 PM
To:
Connell, Ryan (DOJ)
Subject:
Notice of Judicial Vacancy
Attachments: 2017 - Superior - Witham Reappointment-C1.docx
DELAWARE JUDICIAL NOMINATING
COMMISSION
NOTICE OF VACANCY
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office may be filled by the appointment of the Governor with the concurrence of the
Senate:
Resident Judge of the Superior Court of
the State of Delaware, Kent County
(Due to the expiration of the term of the
Honorable William L. Witham Jr.,
who is seeking reappointment)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution, and
in this case, the appointee must be a member of the
Republican Party. In addition, the appointee must be
a citizen of the State of Delaware and reside in Kent
County. The position provides a current annual salary
of $183,444.
*************************************************
*************************************************
Persons who meet the legal qualifications of the
offices described above are invited to file with the

157
Commission a completed copy of the “Questionnaire
for Nominees for Judicial Office.” A copy of the Questionnaire can also be obtained online at http://courts.
delaware.gov/career/ under the “Judicial Officer Postings” heading. Please note that the INC has published
a revised version of the Questionnaire, dated March 30,
2016, that includes minor changes to some of the questions and revised instructions for submission, including a reduced number of required paper copies and a
requirement to submit a copy of the application
materials via email. If you have applied for previous
judicial officer positions, please make sure your application reflects the most current version of the Questionnaire. Any person desiring to suggest candidates is
invited to write to the Commission. Any questions
about the Questionnaire or the application process
should be directed to the JNC Chair.
Completed Questionnaires must be received no later
than 12:00 noon on Friday, February 24, 2017 at
the below-listed address, with a copy of all application
materials submitted via email to JNC@state.de.us.
Interviews of candidates will be scheduled thereafter.
Judicial Nominating Commission
Attn: Gregory Brian Williams, Esq., Chairman
c/o Fox Rothschild LLP
Citizens Bank Center
919 North Market Street, Suite 300
Wilmington, DE 19899-2323
(302) 622-4211
A–113

158
Connell, Ryan (DOJ) __________________________
From:

dsba-bounces@barlist.delawlist.org on
behalf of List Admin
<administrator@dsba.org>
Sent:
Thursday, August 20, 2015 3:34 PM
To:
dsba@delawlist.org
Subject:
[DSBA] Notice of Judicial Vacancy
Attachments: ATT00001.txt
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office may be filled by the appointment of the Governor with the concurrence of the
Senate:
Judge of the Family Court of the State
of Delaware, New Castle County
(Due to the retirement of the
Honorable William L. Chapman, Jr.)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution but,
in this case, the appointee may be a member of either
party. In addition, the appointee: (i) must reside in
New Castle County; (ii) must be a resident of the State
of Delaware for at least 5 years immediately preceding
his or her appointment; and (iii) must be admitted to
the practice of law before the Supreme Court of this
State for period not less than 5 years prior to such
appointment. The position provides a current annual
salary of $180,733.
*************************************************
Persons who meet the legal qualifications of the
offices described above are invited to file with the Commission a “Questionnaire for Nominees for Judicial

159
Office.” The form may be obtained from the Commission by calling (302) 856-4235 and asking for Staci
Hammonds or can be downloaded online at http://
courts.delaware.gov by going to the general information navigation tab at the top, clicking career
opportunities and then clicking on “Questionnaire for
Nominees for Judicial Office” under the heading for
judicial officer postings. Any person desiring to suggest
candidates is invited to write to the Commission.
Completed Questionnaires must be received no later
than noon on Thursday, September 10, 2015 at the
below-listed address. Interviews of candidates will be
scheduled thereafter.
Judicial Nominating Commission
The Hon. William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: August 19, 2015

160
Connell, Ryan (DOJ) __________________________
From:

dsba-bounces@barlist.delawlist.org on
behalf of List Admin
<administrator@dsba.org>

Sent:

Monday, November 02, 2015 10:55 AM

To:

dsba@delawlist.org

Subject:

[DSBA] JNC Notice of Vacancy

Attachments: ATT00001.txt
NOTICE
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office may be filled by the
appointment of the Governor with the concurrence of
the Senate:
Judge of the Family Court of the State
of Delaware, New Castle County
(Due to the death of the
Honorable Alan N. Cooper)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution but,
in this case, the appointee may be a member of either
party. In addition, the appointee: (i) must reside in
New Castle County; (ii) must be a resident of the State
of Delaware for at least 5 years immediately preceding
his or her appointment; and (iii) must be admitted to
the practice of law before the Supreme Court of this
State for period not less than 5 years prior to such
appointment. The position provides a current annual
salary of $180,733.
*************************************************

161
Persons who meet the legal qualifications of the
offices described above are invited to file with the
Commission a “Questionnaire for Nominees for Judicial
Office.” The form may be obtained from the Commission by calling (302) 856-4235 and asking for Amy
Garrahan or can be downloaded online at http://courts.
delaware.gov by going to the general information navigation tab at the top, clicking career opportunities and
then clicking on “Questionnaire for Nominees for Judicial Office” under the heading for judicial officer postings. Any person desiring to suggest candidates is
invited to write to the Commission.
**Due to the unexpected occurrence of this
vacancy, the Judicial Nominating Commission
has agreed to conduct a modified and expedited
selection process. The JNC will accept applications on an expedited basis from applicants who
did not apply for the position of Family Court
Judge in September 2015. Candidates who
submitted an application for either of the two
Family Court Judge positions in September 2015
will automatically be considered for this position and do not need to submit an application for
this vacancy. The JNC does not intend to reinterview these candidates. Any candidate who
applied for a Family Court Judge position in
September 2015 but does not wish to be considered for this vacancy should notify the Judicial
Nominating Commission in writing on or before
the due date listed below.
Completed Questionnaires for candidates who did
not submit an application for Family Court Judge in
September 2015 must be received no later than 5:00
p.m. on Thursday, November 5, 2015 at the below-

162
listed address. Interviews of candidates will be scheduled thereafter.
Judicial Nominating Commission
The Hon. William B. Chandler, III, Chairman
Eight West Laurel Street
Georgetown, DE 19947-1424
Dated: October 30, 201

163
Connell, Ryan (DOJ) __________________________
From:

doeLegal on behalf of DESCLMS
Listsery (Delaware Courts)
<notify_listservAttorneys@doelegal.com>
Sent:
Wednesday, November 23, 2016 2:45
PM
To:
Connell, Ryan (DOJ)
Subject:
Notice of Judicial Vacancy Posting
Attachments: 2016-11-23 JNC Notice of Vacancy–
Family Court (Waserstein)-C2.docx
DELAWARE JUDICIAL NOMINATING
COMMISSION
NOTICE OF VACANCY
The Judicial Nominating Commission gives public
notice that it has received notification from the Governor that the following office may be filled by the appointment of the Governor with the concurrence of the Senate:
Judge of the Family Court of the State
of Delaware, New Castle County
(Due to the retirement of the
Honorable Aida Waserstein)
There are requirements of political balance under
Article IV, Section 3 of the Delaware Constitution but
in this case, the appointee may be a member of either
party. In addition, the appointee: (i) must reside in
New Castle County; (ii) must be a resident of the State
of Delaware for at least 5 years immediately preceding
his or her appointment; and (iii) must be admitted to
the practice of law before the Supreme Court of this
State for period of not less than 5 years prior to such
appointment. The position provides a current annual
salary of $183,444.
*************************************************

164
Persons who meet the legal qualifications of the
office described above are invited to file with the
Commission a completed copy of the “Questionnaire
for Nominees for Judicial Office.” A copy of the Questionnaire can also be obtained online at http://courts.
delaware.gov/career/ under the “Judicial Officer Postings” heading. Please note that the JNC has published
a revised version of the Questionnaire, dated March
30, 2016, that includes minor changes to some of the
questions and revised instructions for submission,
including a reduced number of required paper copies
and a requirement to submit a copy of the application
materials via email. If you have applied for previous
judicial officer positions, please make sure your application reflects the most current version of the Questionnaire. Any person desiring to suggest candidates
is invited to write to the Commission. Any questions
about the Questionnaire or the application
process should be directed to the JNC Chair,
NOT to the JNC@state.de.us email address.
Completed Questionnaires must be received no later
than 12:00 noon on Wednesday, December 14, 2016 at
the below-listed address, with a copy of all application
materials submitted via email to JNC@state.de.us.
Interviews of candidates will be scheduled thereafter.
Judicial Nominating Commission
Attn: Gregory Brian Williams, Esq., Chairman
c/o Fox Rothschild LLP
Citizens Bank Center
919 North Market Street, Suite 300
Wilmington, DE 19899-2323
(302) 622-4211
Dated: November 23, 2016

165
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C. A. No. 17-181-MPT
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY
Governor of the State of Delaware,
Defendant.
————
JUDGMENT ORDER
Consistent with the reasoning contained in the Memorandum Opinion of December 6, 2017, IT IS ORDERED
and ADJUDGED that plaintiff’s motion for summary
judgment (D.I. 31) is GRANTED, and defendant’s
motion for summary judgment (D.I. 28) is DENIED.
Dated: December 6, 2017
/s/ Mary Pat Thynge _____
Chief U.S. Magistrate Judge

166
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C. A. No. 17-181-MPT
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY
Governor of the State of Delaware,
Defendant.
————
MEMORANDUM OPINION
David L. Finger, Esq., Finger & Slanina, LLC, One
Commerce Center, 1201 North Orange Street, 7th
Floor, Wilmington, DE 19801.
Attorney for Plaintiff James R. Adams.
Christian D. Wright, Department of Justice Civil
Division, 820 North French Street, 8th Floor,
Wilmington, DE 19801.
Attorney for Defendant the Honorable John Carney,
Governor of the State of Delaware.
Ryan Patrick Connell, Department of Justice State
of Delaware, Carvel Office Building, 820 North French
Street, 8th Floor, Wilmington, DE 19801.
Attorney for Defendant the Honorable John Carney,
Governor of the State of Delaware.

167
I. INTRODUCTION
Plaintiff, James R. Adams, filed this Declaratory
Judgment and Injunctive Relief action under 42 U.S.C.
§ 1983, in relation to Article IV, § 3 of the Constitution
of the State of Delaware, against the Governor of the
State of Delaware, John Carney on February 21,
2017.1 Plaintiff seeks review of the constitutionality of
the provision, commonly referred to as the “Political
Balance Requirement,” which prohibits any political
party to comprise more than a “bare majority” of the
seats in the Supreme Court or Superior Court, or in the
Supreme Court, Superior Court, and Court of Chancery combined.2 The provision also requires that the
remaining seats be comprised of members of the “other
major political party.”3
Presently before the court are the parties’ crossmotions for summary judgment, filed on September
29, 2017.4 Plaintiff, in his motion, contends Article IV,
§ 3 of the Constitution of the State of Delaware’s
“Political Balance Requirement” restricts governmental employment based on political affiliation, which
violates the First Amendment of the Constitution of
the United States.5 Defendant claims that plaintiff
failed to establish standing under Article III, § 2 of the
Constitution of the United States,6 and/or contends the
position of judge is a “policymaking position,” which
1

D.I. 1; see also D.I. 10 (amended compliant filed on March 10,
2017).
2

Del. Const. Art. IV, § 3.

3

Id.

4

See D.I. 28; D.I. 31.

5

D.I. 32 at 2.

6

U.S. const. Art. III, § 2.

168
falls under the well established exception to the
restriction of governmental employment based on political affiliation.7 For the reasons stated herein, the
court grants plaintiff’s motion for summary judgment,
and denies defendant’s motion for summary judgment.
II. BACKGROUND
Article IV, § 3 of the Constitution of the State of
Delaware was amended to its present language in 1897
to provide the requirements and limitations associated
with judicial appointment.8 The pertinent section reads:
Appointments to the office of the State Judiciary shall at all times be subject to all of the
following limitations:
First, three of the five Justices of the Supreme
Court in office at the same time, shall be of
one major political party, and two of said Justices shall be of the other major political
party.
Second, at any time when the total number of
Judges of the Superior Court shall be an even
number not more than one-half of the members of all such offices shall be of the same
political party; and at any time when the number of such offices shall be an odd number,
then not more than a bare majority of the members of all such offices shall be of the same
major political party, the remaining members
of such offices shall be of the other major
political party.

7

D.I. 29 at 3.

8

D.I. 30 at A-80-84.

169
Third, at any time when the total number of
the offices of the Justices of the Supreme
Court, the Judges of the Superior Court, the
Chancellor and all the Vice-Chancellors shall
be an even number, not more than one-half of
the members of all such offices shall be of the
same major political party; and at any time
when the total number of such offices shall be
an odd number, then not more than a bare
majority of the members of all such offices
shall be of the same major political party; the
remaining members of the Courts above enumerated shall be of the other major political
party.
Fourth, at any time when the total number of
Judges of the Family Court shall be an even
number, not more than one-half of the Judges
shall be of the same political party; and at any
time when the total number of Judges shall
be an odd number, then not more than a majority of one Judge shall be of the same political
party.
Fifth, at any time when the total number of
Judges of the Court of Common Pleas shall be
an even number, not more than one-half of
the Judges shall be of the same political
party; and at any time when the total number
of Judges shall be an odd number, then not
more than a majority of one Judge shall be of
the same political party.9
This provision effectively creates a few limitations:
first, it demands three of the Delaware Supreme Court
9

Del. Const. Art. IV, § 3.

170
Justices be from “one major political party,”10 and the
other two be from the “other major political party;”11
second, at no time may the Delaware Superior Court
or the Delaware Supreme Court, Superior Court, and
Court of Chancery combined, have more than a “bare
majority” be comprised of the same “major political
party,” and the remainder positions must be of the
“other major political party;”12 and third, in the Family
Courts and the Courts of Common Pleas, one political
party may never possess more than a one judge majority.13
Defendant, as Governor of the State of Delaware, is
responsible for appointing judges in compliance with
Article IV, § 3 of the Constitution of the State of
Delaware.14 In 1977, a Judicial Nominating Commission was created by executive order to identify highly
qualified candidates.15 To fulfill this role, the Commission provides notice for existing judicial vacancies.16
The required party affiliation is listed within the notice,
as “must be a member of the [Democratic or Republican] party,” when necessary because of Delaware’s

10

Major political party is defined as “any political party which,
as of December 31, of the year immediately preceding any general
election year, has registered in the name of that party voters
equal to at least five percent of the total number of voters registered in the State.” 15 Del. C. § 101(15).
11

Id.

12

Del. Const. Art. IV, § 3.

13

Id.

14

Del. Const. Art. IV, § 3.

15

D.I. 32 at 3.

16

D.I. 30 at A-107-17.

171
constitutional limitations.17 The Committee then provides a list of qualified candidates to defendant for
selection.18
Plaintiff is a graduate of Ursinus College and
Delaware Law School.19 He is a resident of New Castle
County and a member of the Delaware bar.20 Plaintiff
worked in multiple positions before retiring from the
Department of Justice on December 31, 2015.21 After
retirement, he remained on emeritus status from the
bar before returning to active status in 2017.22 Until
February 13, 2017, plaintiff was registered as affiliated with the Democratic party.23 Plaintiff, during that
time, applied for one position, Family Court Commissioner.24 Now plaintiff is registered as an independent
voter.25 On February 14, 2017, the Judicial Nominating Commission released a Notice of Vacancy calling
for a Republican candidate in the Superior Court of
Kent County, following the retirement of the Honorable
Robert Young.26 On March 20, 2017, the Judicial Nominating Commission also sent a Notice of Vacancy fol17

Id.

18

Id.

19

D.I. 10 at 1.

20

Id.

21

Id. at 1-2.

22

Id. at 4.

23

D.I. 30 at A-55.

24

Plaintiff was not selected for the Commissioner position, but
such positions are not subjected to the “Political Balancing Requirement” under the Delaware Constitution. D.I. 37 at 1.
25

D.I. 30 at A-55.

26

D.I. 1 at Ex. A.

172
lowing the retirement of the Honorable Randy Holland,
which required a qualified Republican candidate for
the Delaware Supreme Court.27 Plaintiff, as an unaffiliated voter, was barred from applying to either position. Plaintiff’s amended complaint was filed shortly
thereafter on April 10, 2017, to which defendant
responded on April 24, 2017.28
III. STANDARD OF REVIEW
A motion for summary judgment should be granted
where the court finds no genuine issues of material
fact from its examination of the pleadings, depositions,
answers to interrogatories, and admissions on file,
together with the affidavits, and that the moving party
is entitled to judgment as a matter of law.29 A party is
entitled to summary judgment where “the record, taken
as a whole, could not lead a rational trier of fact to find
for the non-moving party or where the facts are not
disputed and there is no genuine issue for trial.”30
This standard does not change merely because there
are cross-motions for summary judgment.31 Crossmotions for summary judgment are no more than a
claim by each side that it alone is entitled to summary
judgment, and the making of such inherently contradictory claims does not constitute an agreement that
if one is rejected the other is necessarily justified or
27

D.I. 10 at 4.

28

See id.; D.I. 13.

29

Ford v. Unum Life Ins. Co. of Am., 465 F. Supp. 2d 324, 330
(D. Del. 2006).
30

Delande v. ING Emp. Benefits, 112 F. App’x 199, 200 (3d Cir.
2004).
31

Appleman’s v. City of Philadelphia, 826 F.2d 214, 216 (3d
Cir. 1987).

173
that the losing party waives judicial consideration and
determination whether genuine issues of material fact
exist.32
Moreover, “[t]he filing of cross-motions for summary
judgment does not require the court to grant summary
judgment for either party.”33
IV. ANALYSIS
A. Defendant’s Motion for Summary Judgment Based on Plaintiff’s Lack of Standing for Failure to Show Injury in Fact.
For plaintiff to demonstrate standing, there must be
a showing of: (1) an injury in fact, (2) with a traceable
connection to the challenged action, and (3) the requested relief will redress the alleged injury.34 Three principals that must be considered in a standing analysis
are that a party must litigate his own rights and not
those of a third-party, the issue must not be an
abstract or generalized grievance, and the harm must
be in the zone of interest protected by the statute or
constitutional provision at issue.35 Plaintiff must show
he is likely to experience actual future injury.36 In addi-

32

Rains v. Cascade Indus., Inc., 402 F.2d 241, 245 (3d Cir.
1968).
33

Krups v. New Castle County, 732 F. Supp. 497, 505 (D. Del.
1990).
34

Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 103
(1998).
35

Valley Forge Christian Coll. v. Ams. United for the Separation of Church and State, 454 U.S. 464, 474-75 (1982).
36

Voneida v. Pennsylvania, 508 F. App’x 152, 156 (3d Cir.
2012).

174
tion, plaintiff is not required to engage in futile gestures to establish standing.37
In the standing analysis, there are two parts of Article
IV, § 3 of the Constitution of the State of Delaware
involved: provisions one through three, which contain
the term “other political party,” and provisions four
and five, which only include a bare minimum requirement.38 Defendant alleges that plaintiff has no standing because he fails to demonstrate an “actual and
immediate threat of future injury” and/or a “concrete
and particularized threat of future injury.”39
Plaintiff does not have standing under provisions
four and five. He has not applied for a judicial position
in any of Family Courts or the Courts of Common
Pleas.40 In addition, plaintiff’s applications for these
positions would not have been futile, because there is
no party requirement constitutionally attached to either
court.41 The only constitutional restriction on these
courts is that “not more than a majority of one Judge
shall be of the same political party.”42
As for provisions one through three, which contain
the “other political party” requirement, defendant fails
to demonstrate that plaintiff does not have the
37

Sammon v. N.J. Bd. of Med. Exam’rs, 66 F.3d 639 (3d Cir.
1995).
38

Del. Const. Art. IV, § 3.

39

D.I. 29 at 12, 15.

40

Although plaintiff applied for Family Court Commissioner
in 2009 and was not selected, he does not contend this occurred
due to the reasons asserted in his compliant. D.I. 30 at A-08-09.
41

See Del. Const. Art. IV, § 3; D.I. 30 at A-110-16.

42

Del. Const. Art. IV, § 3.

175
requisite standing. Plaintiff alleged that if he were
permitted to apply as an independent, he would apply
for a position on either the Delaware Superior Courts
or the Delaware Supreme Court.43 As an unaffiliated
voter, he is barred from applying and any such application would be futile.44 As a result, an actual, concrete,
and particularized threat of present and future injury
to plaintiff is demonstrated.45
B. Whether a Judge is a Policymaking
Position, That is an Exception to the
Right of Political Affiliation in Employment Decisions.
The United States Supreme Court has established
that political belief and association are at the core of
First Amendment protections.46 Governmental employees can not be terminated or asked to relinquish their
“right to political association at the price of holding a
job.”47 “Patronage . . . to the extent that it compels or
43

D.I. 10 at 4; see Nat’l Ass’n for the Advancement of Multijurisdiction Practice, (NAAMJP) v. Simandle, 658 Fed. Appx.
127, 133 (3d Cir. 2016) (The plaintiffs “alleged that they would
seek admission to the District Court bar if the rules were changed
to permit their admission. Since denial of their application was
assured, the rules inflict the alleged injury regardless of whether
[the plaintiffs] actually undertook the futile application.”).
44

Del. Const. Art. IV, § 3 (provision one, concerning the Delaware Supreme Court, requires “two of said Justices shall be of the
other major political party,” and provision two, regarding the
Delaware Superior Courts, requires “the remaining members of
such offices shall be of the other major political party”).
45

Valley Forge Christian Coll. v. Ams. United for the Separation of Church and State, 454 U.S. 464, 474-75 (1982).
46

Elrod v. Burns, 427 U.S. 347, 356 (1976) (plurality opinion).

47

Id. at 356-57.

176
restrains belief and association, is inimical to the
process which undergirds our system of government
and is at war with the deeper traditions of democracy
embodied in the First Amendment.”48 This right of
political affiliation has been expanded to government
employees regarding their promotion, transfer, and
hiring.49
The “prohibition on encroachment of First Amendment protections is not absolute,” and an exception is
recognized, which limits patronage dismissals to “policymaking positions,” and requires an analysis of the
nature of the employee’s responsibilities.50 The United
States Court of Appeals for the Third Circuit has found
“a question relevant in all cases is whether the
employee has meaningful input into decision making
concerning the nature and scope of a major government program.”51 A “policymaking position” is a narrow exception applied when “the hiring authority can
demonstrate that party affiliation is an appropriate
requirement for the effective performance of the public
office involved.”52
The Court has recognized that “it is not always easy
to determine whether a position is one in which
political affiliation is a legitimate factor to be consid48

Id. at 357; see also Branti v. Finkel, 445 U.S. 507, 512-18
(1980) (the majority of the court reaffirming the opinion established in Elrod).
49

Rutan v. Republican Party of Ill., 497 U.S. 62, 64, 75-80
(1990).
50

Elrod, 427 U.S. at 360, 367.

51

Peters v. Del. River Port Auth. of Pa. and N.J., 16 F.3d 1346,
1353 (3d Cir. 1994) (internal citations omitted).
52

Branti, 445 U.S. at 518.

177
ered.” In Branti v. Finkel, the United States Supreme
Court held that the position of Assistant Public
Defender was not entitled to the “policymaker” exception.54 It found that the factors to be considered in
determining whether a position is a policymaking
position are whether the position is simply clerical,
nondiscretionary or technical in nature, whether the
employee “participates in Council discussions, or other
meetings, whether the employee prepares budgets, or
has authority to hire or fire employees, the salary of
the employee, and the employee’s power to control
others and to speak in the name of policymakers.”55 A
difference in political affiliation is only a proper factor
in making employee decisions if it is highly likely “to
cause an official to be ineffective in carrying out the
duties and responsibilities of the office.”56 Whether a
position involves policy making is a question of law.57
53

Defendant contends that the role of the judiciary
falls within the policymaker exception under the
precedent of Elrod and Branti.58 Defendant’s argument
rests heavily upon the holdings by other circuit courts

53

Id.

54

“His principal responsibility is to serve the undivided
interests of his client. Indeed, an indispensable element of the
effective performance of his responsibilities is the ability to act
independently of the government and to oppose it in adversary
litigation.” Id. at 519 (quoting Ferri v. Ackerman, 444 U.S. 193,
204 (1979)).
55

Brown v. Trench, 787 F.2d 167, 169 (3d Cir. 1986).

56

Waskovich v. Morgano, 2 F.3d 1292, 1297 (3d Cir. 1993).

57

St. Louis v. Proprotnik, 485 U.S. 112, 126 (1988).

58

See D.I. 29 at 20.

178
outside the Third Circuit,59 and the United States
Supreme Court’s holding in Gregory v. Ashcroft.60
Plaintiff contends that the role of the judiciary is not a
policymaking position and rests his argument upon a
separation of powers, the role of the judiciary, and the
Delaware Judges’ Code of Judicial Conduct.61
The judiciary, although a very important role, is not
a policymaking position. A judge does not provide
“meaningful input into decision making concerning
the nature and scope of a major government program.”62 To the contrary a judge’s role is “to apply, not
amend, the work of the People’s representatives.”63
The court may not speak on policymakers behalf, sit in
on Congressional discussions, or participate in policymaking meetings.64 The role of the judiciary is not to
“hypothesize independently” legislative decision and
intent.65 “Matters of practical judgment and empirical
calculation are for Congress” and the judiciary has “no
59

See Newman v. Voinovich, 986 F.2d 159 (6th Cir. 1993)
(Judges are “policymakers,” whose political affiliations may be
considered during the appointment process); Kurowski v. Krajewski,
848 F.2d 767 (7th Cir. 1988) (Governor was entitled to consider
judge’s political affiliation in making a temporary appointment).
60

See D.I. 29 at 20; Gregory v. Ashcroft, 501 U.S. 452, 466
(1991) (finding that legislative intent was not clear as to whether
the language “appointee on the policymaking level,” included the
judiciary).
61

D.I. 32 at 8-19.

62

Peters v. Del. River Port Auth. of Pa. and N.J., 16 F.3d 1346,
1353 (3d Cir. 1994) (internal citations omitted).
63

Hayes v. Harvey, 874 F.3d 98, 111 (3d Cir. 2017) (citing
Henson v. Consumer USA Inc., 137 S. Ct. 1718, 1726 (2017)).
64

Brown, 787 F.2d at 169.

65

Matthew v. Lucas, 427 U.S. 495, 515 (1976).

179
basis to question their detail beyond the evident
consistency and substantiality.”66 Statutory interpretation, not statutory creation, is the responsibility of
the judiciary and therefore, the position of judge is not
a policymaking position.
Cases from other circuits, on which defendant relies,
are distinguishable.67 Both Newman and Kurowski
addressed situations which political affiliation could
be considered, but was not constitutionally mandated.68
Neither case dealt with a constitutional provision
requiring a political affiliation evaluation, nor a complete bar on hiring individuals with minority political
party beliefs. In addition, the Court in Gregory addressed the issue of interpreting legislative intent of
an exception as it applied to the Age Discrimination in
Employment Act for positions “on the policymaking
level.”69 The Court addressed whether Congress
intended the judiciary be included in the exception,
and whether a Missouri law mandating that members
of the judiciary retire at the age seventy was permissible under the Age Discrimination in Employment
Act.70 The Court specifically did not decide the issue of
whether the judiciary was a policymaker, and based
its holding on the rationale that “people . . . have a
legitimate, indeed compelling, interest in maintaining
66

Id. at 515-16.

67

D.I. 29 at 20.

68

See Newman, 986 F.2d at 159-60 (in the appointment of
interim judges, Governor considered candidates based on recommendations from Republican Chairpersons); Kurowski, 848 F.2d
at 769 (political affiliation could be considered by court when
assigning judges pro tempore).
69

Gregory, 501 U.S. at 455-57.

70

Id. at 455-64.

180
a judiciary fully capable of performing the demanding
tasks that judges must perform. It is an unfortunate
fact of life that physical and mental capacity sometimes diminish with age. The people may therefore
wish to replace some older judges.”71 Thus, the phrase
“on the policymaking level” is not the equivalent of a
“policymaking” position, on which employment decisions based on political affiliation may be made.
Delaware requirements are clear, that “[a] judge
should be unswayed by partisan interest” and “family,
social, or other relationships” should not influence their
conduct or judgment.”72 In particular, Canon Four of
the Delaware Judges’ Code of Judicial Conduct specifically addresses that the judiciary must refrain from
political activity.73 A judge may not act as a “leader or
hold any office in a political organization,” make
speeches for political organizations or candidates, or
“engage in any other political activity.”74 The Delaware
Judicial Code clearly pronounces that political affiliation should not affect the position.75

71

Id. at 472.

72

Del. Judges’ Code Judicial Conduct Rule 2.4 (A)-(B).

73

See Del. Judges’ Code Judicial Conduct Canon 4.

74

Id. at Rule 4.1 (A), (C) (with an exception for activities “on
behalf of measures to improve the law, the legal system or the
administration of justice”).
75

See Leatherbury v. Greenspun, 939 A.2d 1284, 1292 (Del.
2007) (“Judges must take the law as they find it, and their personal predilections as to what the law should be have no place in
efforts to override properly stated legislative will.”); Ewing v.
Beck, 1986 WL 5143, at *2 (Del. Ch. 1986) (“It is a settled
principle that courts will not engage in ‘judicial legislation’ where
the statute in question is clear and unambiguous.”).

181
Political affiliation is not important to the effective
performance of a Delaware judge’s duties.76 A Delaware
judge may not participate in political activities, hold
any office in a political organization, or allow political
affiliation to influence his judgment on the bench.77
Since political affiliation in Delaware cannot “cause an
official to be ineffective in carrying out the duties and
responsibilities of the office,” it does not meet the
standard for a “policymaking position.”78
Article IV, § 3 of the Constitution of the State of
Delaware violates the First Amendment by placing a
restriction on governmental employment based on
political affiliation in the Delaware judiciary. The
narrow exception of political affiliation does not apply
because the role of the judiciary is to interpret statutory intent and not to enact or amend it.79 Precedent
relied upon by defendant is highly distinguishable and
not applicable to the current situation.80 Further, the
Delaware Judges’ Code of Judicial Conduct clearly
indicates that political affiliation is not a valued trait
of an effective judiciary.81
As a result of the findings herein, plaintiff’s motion
for summary judgment (D.I. 31) is granted, and
76

Branti v. Finkel, 445 U.S. 507, 518 (1980).

77

Del. Judges’ Code Judicial Conduct Rule 2.4 (B); 4.1 (A)(1),

(C).
78

Waskovich v. Morgano, 2 F.3d 1292, 1297 (3d Cir. 1993).

79

Hayes v. Harvey, 874 F.3d 98, 111 (3d Cir. 2017) (citing
Henson v. Consumer USA Inc., 137 S. Ct. 1718, 1726 (2017)).
80

See Newman v. Voinovich, 986 F.2d 159, 159-60 (6th Cir. 1993);
Kurowski v. Krajewski, 848 F.2d 767, 769 (7th Cir. 1988); Gregory,
501 U.S. at 455-64.
81

See Del. Judges’ Code Judicial Conduct Canon 4.

182
defendant’s motion for summary judgment (D.I. 28) is
denied. An appropriate Order shall follow.
Dated: December 6, 2017
/s/ Mary Pat Thynge ______
Chief U.S. Magistrate Judge

183
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 17-181 MPT
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
NOTICE OF APPEAL
Notice is hereby given that the Honorable John
Carney, Defendant in the above-captioned action,
hereby appeals to the United States Court of Appeals
for the Third Circuit from the Judgment entered in
this action on December 6, 2017 (D.I. 39), granting
Plaintiff’s Motion for Summary Judgment and denying Defendant’s Motion for Summary Judgment for
the reasons set forth in the Memorandum Opinion
entered that same date (D.I. 40).
YOUNG CONAWAY STARGATT & TAYLOR, LLP
Dated: January 5, 2018
/s/ Pilar G. Kraman
David C. McBride (No. 408)
Martin S. Lessner (No. 3109)
Pilar G. Kraman (No. 5199)
Rodney Square
1000 North King Street
Wilmington, DE 19801
(302) 571-6600

184
dmcbride@ycst.com
mlessner@ycst.com
pkraman@ycst.com
Attorneys for Defendant,
The Hon. John Carney

185
CERTIFICATE OF SERVICE
I, Pilar G. Kraman, hereby certify that on January
5, 2018, I caused to be electronically filed a true and
correct copy of the foregoing document with the Clerk
of the Court using CM/ECF, which will send notification that such filing is available for viewing and
downloading to the following counsel of record:
David L. Finger, Esquire
Finger & Slannina, LLC
One Commerce Center 1201
N. Orange St., 7th Floor
Wilmington, DE 19801
dfinger@delawgroup.com
Attorneys for Plaintiff
I further certify that on January 5, 2018, I caused
the foregoing document to be served via electronic mail
upon the above-listed counsel.
Dated: January 5, 2018
YOUNG CONAWAY STARGATT & TAYLOR, LLP
/s/ Pilar G. Kraman
David C. McBride (No. 408)
Martin S. Lessner (No. 3109)
Pilar G. Kraman (No. 5199)
Rodney Square
1000 N. King Street
Wilmington, Delaware 19801
dmcbride@ycst.com
mlessner@ycst.com
pkraman@ycst.com
Attorneys for Defendant,
The Hon. John Carney

186
EXHIBIT A
[LOGO]
1000 West Street
Suite 1400
Wilmington, DE 19801
www.connollygallagher.com
Arthur G. Connolly, III
Partner
TEL: (302) 888-6318
EMAIL: aconnolly@connollygallagher.com
February 1, 2018
PERSONAL AND CONFIDENTIAL
BY ELECTRONIC AND FIRST CLASS MAIL
James R. Adams, Esq.
465 Gum Bush Road
Townsend, DE 19734
Jadamslaw1@aol.com
Re: Application for Judicial Appointment
Superior Court, New Castle County
Dear Jim:
On behalf of the Judicial Nominating Commission
(“JNC”). I would like to thank you for applying for the
position of Judge of the Superior Court of the State of
Delaware. I regret to inform you that the INC will not
be forwarding your name to Governor Carney as a
prospective nominee for the position at this time.
The JNC gave careful and thorough consideration to
your application and had some tough decisions to
make in selecting the applicants to be forwarded to
Governor Carney for consideration. The election of
judicial candidates is a difficult task, particularly

187
when there are a number of well-qualified and distinguished applicants for the same position.
The JNC appreciates your interest in serving the
citizens of Delaware as a judicial officer and your
participation in the application process. Best wishes in
your future endeavors.
Sincerely,
[/s/ Arthur G. Connolly, III]
Arthur G. Connolly, III
Acting Chair,
Judicial Nominating Commission

188
[LOGO]
WILMINGTON
GEORGETOWN
NEW YORK
William Bowser
P 302.571.6601
F 302.576.3282
wbowser@ycst.com
May 8, 2018
PERSONAL AND CONFIDENTIAL
BY ELECTRONIC AND FIRST CLASS MAIL
James R. Adams, Esq.
465 Gum Bush Road
Townsend. DE 19734
jadamslawl@aol.com
Re: Application for Judicial Appointment
Court of Common Pleas, New Castle County
Dear Mr. Adams:
On behalf of the Judicial Nominating Commission
(“JNC”), I would like to thank you for applying for the
position of Judge of the Court of Common Pleas of the
State of Delaware. I regret to inform you that the JNC
will not be forwarding your name to Governor Carney
as a prospective nominee for the position at this time.
The JNC gave careful and thorough consideration to
your application and had some tough decisions to
make in selecting the applicants to be forwarded to
Governor Carney for consideration. The election of
judicial candidates is a difficult task. particularly
when there are a number of well-qualified and distinguished applicants for the same position.

189
The JNC appreciates your interest in serving the
citizens of Delaware as a judicial officer and your
participation in the application process. Best wishes in
your future endeavors.
Sincerely,
[/s/ William Bowser]
William Bowser
Chair, Judicial Nominating Commission
WB: jbm
cc: Arthur G. Connolly, Ill. Esq.,
aconnolly@connollygallagher.com
Rodney Square • 1000 North King Street •
Wilmington, DE 19801
P 302.571.6600 F 302.571.1253
YoungConaway.com

190
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 17-181 MPT
————
JAMES R. ADAMS,
Plaintiff,
v.
THE HON. JOHN CARNEY,
Governor of the State of Delaware,
Defendant.
————
AMENDED NOTICE OF APPEAL
Notice is hereby given that the Honorable John
Carney, Defendant in the above-captioned action, hereby appeals to the United States Court of Appeals for
the Third Circuit from the:
1.

Judgment entered in this action on
December 6, 2017 (D.I. 39), granting
Plaintiff’s Motion for Summary Judgment and denying Defendant’s Motion
for Summary Judgment for the reasons
set forth in the Memorandum Opinion
entered that same date (D.I. 40);

2.

Revised Judgment entered in this action
on May 23, 2018, granting Plaintiff’s
Motion for Summary Judgment and denying Defendant’s Motion for Summary
Judgment for the reasons set forth in the
Memorandum Opinion Clarifying the
Court’s Opinion Issued December 6, 2017
(D.I. 61, 62); and

3.

191
Memorandum Order denying Defendant’s
Motion for Reconsideration/Clarification
(D.I. 60).

Dated: June 20, 2018
YOUNG CONAWAY STARGATT &
TAYLOR, LLP
/s/ Pilar G. Kraman ______________
David C. McBride (No. 408)
Martin S. Lessner (No. 3109)
Pilar G. Kraman (No. 5199)
Rodney Square
1000 North King Street
Wilmington, DE 19801
(302) 571-6600
dmcbride@ycst.com
mlessner@ycst.com
pkraman@ycst.com
Attorneys for the Hon. John Carney

192
CERTIFICATE OF SERVICE
I, Pilar G. Kraman, hereby certify that on June 20,
2018, I caused to be electronically filed a true and correct copy of the foregoing document with the Clerk of
the Court using CM/ECF, which will send notification
that such filing is available for viewing and downloading to the following counsel of record:
David L. Finger, Esquire
Finger & Slanina, LLC
One Commerce Center
1201 N. Orange St., 7th Floor
Wilmington, DE 19801
dfinger@delawgroup.com
Attorneys for Plaintiff
I further certify that on June 20, 2018, I caused the
foregoing document to be served via electronic mail
upon the above-listed counsel.
Dated: June 20, 2018
YOUNG CONAWAY STARGATT &
TAYLOR, LLP
/s/ Pilar G. Kraman ____________
David C. McBride (No. 408)
Martin S. Lessner (No. 3109)
Pilar G. Kraman (No. 5199)
Rodney Square
1000 N. King Street
Wilmington, Delaware 19801
dmcbride@ycst.com
mlessner@ycst.com
pkraman@ycst.com
Attorneys for Defendant,
The Hon. John Carney

193
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C. A. No. 17-181-MPT
————
JAMES R. ADAMS,
Plaintiff,
v.
HONORABLE JOHN CARNEY,
Governor of the State of Delaware
Defendant.
————
MEMORANDUM ORDER
I. INTRODUCTION
Presently before the court are two motions by defendant, the Hon. John Carney, Governor of Delaware
(“defendant” or “Mr. Carney”).1 The court has discussed the facts of the case at bar elsewhere in recent
orders, and will not repeat them herein.2 On December
6, 2017, in a Memorandum Opinion3 and Order,4 the
court granted summary judgment to plaintiff, James
R. Adams (“plaintiff’ or “Mr. Adams”) and denied
Mr. Carney’s motion for summary judgment.5 Shortly
thereafter, Mr. Carney moved for reconsideration or
clarification (the “First Motion for Reconsideration”).6
1

D.I. 63

2

D.I. 65; D.I. 60.

3

D.I. 40.

4

D.I. 39.

5

Id.

6

D.I. 42.

194
While the First Motion for Reconsideration was
pending, on January 5, 2018, Mr. Carney filed a Notice
of Appeal with the United States Court of Appeals
for the Third Circuit, seeking review of the court’s
grant of summary judgment.7 In May 2018, the court
addressed several pending motions, including Mr.
Carney’s First Motion for Reconsideration. At the
time, Mr. Carney failed to demonstrate any of the factors relevant to the grant of reconsideration.8 In addition, the court concluded that Mr. Carney was making
a new “argument that [he] did not make in [his] briefing on summary judgment[]” and that this new argument was specifically related to an argument, made by
plaintiff in his answering brief in opposition to defendant’s motion for summary judgment, that Mr. Carney
did not acknowledge, discuss, mention, reference, or
attempt to rebut in his reply brief.9 Therefore, on May
23, 2018, the court denied the First Motion for Reconsideration.10 On the same day, the court issued a Memorandum Opinion Clarifying the Court’s Opinion
Issued December 6, 201711 accompanied by an Order

7

D.I. 50. Defendant also sought review of the court’s denial of
his motion for summary judgment. Id.
8

D.I. 60 at 8–9.

9

Id. at 9–10. At summary judgment, Mr. Carney had the opportunity to read Mr. Adams’s briefs, to research the relevant case
law, and to rebut Mr. Adams’s arguments. Mr. Carney did not
take this first bite at the apple. Instead, Mr. Carney sought a
second bite at the apple in the form of a “do over” of his summary
judgment arguments in his First Motion for Reconsideration. As
the court noted, granting Mr. Carney “an opportunity to make
arguments he did not make in the briefing” is “beyond the scope
of the remedy requested or allowed.” Id. at 10 (footnote omitted).
10

Id. at 10.

11

D.I. 61.

195
granting summary judgment to Mr. Adams and denying Mr. Carney’s motion for summary judgment.12
On June 1, 2018, Mr. Carney filed a motion to stay
(the “Motion” or “Motion to Stay”) the court’s judgment
pending appeal.13 Mr. Adams opposes the Motion to
Stay.14 Following an expedited briefing schedule, the
Motion to Stay was fully briefed on June 18, 2018.15
Two days later, Mr. Carney filed an Amended Notice
of Appeal to the Third Circuit, adding various issues
for appeal, including the court’s denial16 of Mr. Carney’s
First Motion for Reconsideration.17
Upon review of the briefs on the Motion to Stay, it is
apparent to the court that Mr. Carney seeks yet a third
bite18 at the apple under the guise of arguing likelihood
of success on the merits.19 As if prompted by the court’s
explanation for why it denied his First Motion for
Reconsideration,20 with an appeal of that motion now
pending, Mr. Carney argues to the court that he is
likely to succeed on the merits, because the court made

12

D.I. 62.

13

D.I. 63. On June 1, 2018, Mr. Carney sought expedited
briefing on the Motion, D.I. 64, which the court granted on June
4, 2018, D.I. 65.
14

D.I. 66.

15

D.I. 67.

16

D.I. 60.

17

D.I. 68.

18

See supra note 9 (identifying summary judgment as the
“first” bite at the apple, and the First Motion for Reconsideration
as the “second” bite at the apple).
19

D.I. 63 at 7–10; D.I. 67 at 5–7.

20

See supra note 9.

196
“several plain errors of law in [its] ruling.”21 It also
appears that Mr. Carney has: (1) read the court’s
Memorandum Opinion Clarifying the Court’s Opinion
Issued December 6, 2017,22 (2) reviewed Section II of
Mr. Adams’s summary judgment Answering Brief in
Opposition,23 (3) did some legal research, and (4) developed responses to rebut Mr. Adams’s summary judgment arguments on standing.24 Finally, in arguing likelihood of success on the merits, Mr. Carney cites at
least two cases that were not discussed by the parties
at summary judgment.25 Based upon these factors, the
court treats Mr. Carney’s new arguments as a motion
for reconsideration (the “Second Motion for Reconsideration”).

21

D.I. 63 at 7. It is unclear which “ruling” this relates to. The
court notes that in his First Motion for Reconsideration, Mr.
Carney did not argue that the court made “several plain errors of
law.” See generally D.I. 42; D.I. 49. After review of the court’s
denial of his First Motion for Reconsideration, Mr. Carney
appears to suddenly realize that his request for relief should be
consistent with the legal standard for granting such relief.
22

D.I. 61.

23

D.I. 35 at 9–11.

24

Compare D.I. 63 at 9–10 (citing Finkelman v. Nat’l Football
League, 810 F.3d 187, 192 n.31 (3d Cir. 2016)) and D.I. 67 at 6–7
(citing Finkelman, 810 F.3d at 192 n.31; Ayotte v. Planned
Parenthood of N. New England, 546 U.S. 320, 329 (2006); Lewis
v. Casey, 518 U.S. 343, 357 (1996)), with D.I. 37 at 3–4 (not citing
any of these cases at summary judgment) and D.I. 42 at 2–4
(making these standing arguments for the first time in Mr.
Carney’s First Motion for Reconsideration).
25

E.g. D.I. 63 at 8 (citing Corwin v. KKR Fin. Holdings LLC,
125 A.3d 304 (Del. 2015); In Re MFW Shareholders Litig., 67 A.3d
496 (Del. Ch. 2013)). Neither of these cases appear in the parties’
summary judgment briefing. D.I. 29; D.I. 32 ; D.I. 34 ; D.I. 35 ;
D.I. 37 ; D.I. 38.

197
II. STANDARD OF REVIEW
A. Motion for Reconsideration
Motions for reconsideration are the “functional equivalent” of a motion to alter or amend judgment under
Federal Rule of Civil Procedure 59(e).26 Meeting the
standard for relief under Rule 59(e) is difficult. The
purpose of a motion for reconsideration is to “correct
manifest errors of law or fact or to present newly discovered evidence.”27 A court should exercise its discretion to alter or amend its judgment only if the movant
demonstrates one of the following: (1) a change in the
controlling law; (2) a need to correct a clear error of law
or fact or to prevent manifest injustice; or (3) availability of new evidence not available when the judgment
was granted.28
A motion for reconsideration is not properly grounded on a request that a court rethink a decision already
made.29 Nor may motions for reargument or reconsideration be used “as a means to argue new facts or issues
that inexcusably were not presented to the court in the
matter previously decided.”30 Reargument, however,
may be appropriate where a court “has patently misunderstood a party, or has made a decision outside the
adversarial issues presented to the [c]ourt by the par26

Jones v. Pittsburgh Nat’l Corp., 899 F.2d 1350, 1352 (3d Cir.
1990 (citing Fed. Kemper Ins. Co. v. Rauscher, 807 F.2d 345, 348
(3d Cir. 1986)).
27

Max’s Seafood Café ex rel. Lou-Ann, Inc. v. Quinteros, 176
F.3d 699, 677 (3d Cir. 1999).
28

Id.

29

Glendon Energy Co v. Borough of Glendon, 836 F. Supp.
1109, 1122 (E.D. Pa. 1993).
30

Brambles USA, Inc. v. Blocker, 735 F. Supp. 1239, 1240 (D.
Del. 1990).

198
ties, or has made an error not of reasoning but of apprehension.”31 The “Court should not hesitate to grant the
motion when compelled to prevent manifest injustice
or correct clear error.”32
B. Motion to Stay
The decision to grant a stay is within the district
court’s discretion.33 A party seeking a stay pending
appeal must prove that (1) it is likely to succeed on the
merits of its appeal; (2) it will suffer irreparable injury
absent a stay; (3) a stay will not substantially injure
the other parties interested in the proceeding; and (4)
a stay will not harm the public interest.34 A moving
party “must meet the threshold for the first two ‘most
critical’ factors: it must demonstrate that it can win on
the merits (which requires a showing significantly better than negligible but not necessarily more likely
than not) and that it is more likely than not to suffer
irreparable harm in the absence of preliminary relief.”35
31

Id. at 1241 (citations omitted); see also D. Del. LR 7.1.5.

32

Brambles USA, 735 F.Supp. at 1241 (citations omitted).

33

Cost Bros. v. Travelers lndem. Co., 760 F.2d 58, 60 (3d Cir.
1985).
34

Republic of the Philippines v. Westinghouse Elec. Corp., 949
F.2d 653, 658 (3d Cir. 1991).
35

Reilly v. City of Harrisburg, 858 F.3d 173, 179 & n.3 (3d Cir.
2017) (footnote omitted) (citing Singer Mgmt. Consultants, Inc. v.
Milgram, 650 F.3d 223, 229 (3d Cir. 2011) (en banc)). Although
Reilly discusses the standard for a preliminary injunction, “the
standard for obtaining a stay pending appeal is essentially the
same as that for obtaining a preliminary injunction.” Conestoga
Wood Specialities Corp. v. Sec’y of U.S. Dept of Health & Human
Servs., No. 13-1144, 2013 WL 1277419, at *1 (3d Cir. Feb. 8,
2013); see also Reilly, 858 F.3d at 177 n.2 (citing In re Revel AC,
Inc., 802 F.3d 558, 571 (3d Cir. 2015)) (“In the parallel staypending-appeal context, where the factors are the same as for the

199
“If these gateway factors are met, a court then
considers the remaining two factors and determines in
its sound discretion if all four factors, taken together,
balance in favor of granting the requested [] relief.”36
III. DISCUSSION
A. Mr. Carney’s Second Motion for
Reconsideration
As discussed above, in his Motion to Stay, Mr.
Carney, for the second time since the court’s grant of
summary judgment, makes numerous new arguments
related to the substance of summary judgment that he
did not make in his summary judgment briefing.37
Essentially, Mr. Carney argues that he is likely to
succeed on the merits, because once he is able to
present the myriad new arguments researched and
developed since summary judgment, the Third Circuit
is bound to agree with him. Although the Third Circuit
may well be inclined to give Mr. Carney another bite
at the apple and allow him to make one or more of the
new and ever-evolving arguments that he failed to
make at summary judgment, Mr. Carney’s Second
Motion for Reconsideration presents a far more immediate question for the court—that is, whether the court
may even consider the multitude of Mr. Carney’s new
arguments in deciding on the Motion to Stay.
preliminary injunctions, we also follow the analytical path noted
above.”).
36
37

Id.

The irony is not lost on the court that Mr. Carney is
appealing a denial of reconsideration, D.I. 68, and is at the same
time moving to stay final judgment by arguing that he is likely to
succeed because the court made “plain errors of law,” D.I. 63 at 7,
which encompasses an argument for reconsideration of the court’s
denial of reconsideration.

200
Reconsideration may be appropriate in some
scenarios. For example, the court may reconsider the
arguments that Mr. Carney made at summary judgment if he identifies: (1) a change in the controlling
law; (2) the need to correct a clear error of law or fact
or to prevent manifest injustice; or (3) the availability
of new evidence not available when the judgment was
granted.38 To the extent that Mr. Carney has identified
what he contends are “plain errors of law in the [c]ourt’s
ruling[,]”39it is difficult for the court to reconcile this
position with his simultaneous assertion that his
“appeal presents substantial legal questions—in fact,
issues of first impression.”40 Mr. Carney disagrees with
Mr. Adams over the interpretation of the case law, and
this disagreement, Mr. Carney asserts, raises issues of
first impression. However, this sort of dispute is not “a
clear error of law or fact” that would support reconsideration.41 In addition, even if the above factors were to
support reconsideration of the arguments Mr. Carney
made at summary judgment (which they do not), nothing in the briefs or the record suggests that the court
should consider any of Mr. Carney’s numerous new
arguments in the Motion to Stay.42 Therefore, Mr.
38

Id.

39

D.I. 63 at 7.

40

D.I. 63 at 4; see also id. at 7 (discussing “the significant
issues of first impression.”).
41

As to this second factor Mr. Carney has also not identified
any resulting “manifest injustice.” The first and third factors do
not appear to relate to the facts at hand.
42

Brambles USA, Inc., 735 F. Supp. at 1240 (citation omitted)
(“[R]eargument and reconsideration requests ‘are not a substitute
for an appeal from a final judgment.’”). For the purposes of the
Motion to Stay, the court declines to consider these new arguments.

201
Carney’s Second Motion for Reconsideration, D.I. 63,
is DENIED.
B.

Mr. Carney’s Motion to Stay Judgment

The parties agree that the court may stay judgment
pending appeal and that the factors are as discussed
above.43 The court addresses the first two of the four
factors, proceeding to the last two in the event that the
first two weigh in favor of a stay.44
1.

Likelihood of Success on the Merits

In moving for a stay, Mr. Carney avers that his
“appeal presents substantial legal questions—in fact,
issues of first impression[]” that justify relaxing the
likelihood of success factor in its favor.45 He also
argues that, in light of persuasive case law and his new
arguments, he expects to succeed on the merits.46 In
response, Mr. Adams contends that Mr. Carney is
unlikely to succeed on the merits, and supports this
contention with a review of its arguments from summary judgment, with which the court has already
agreed.47
Having denied Mr. Carney’s First and Second Motions
for Reconsideration, the court declines to discuss what
is effectively a reargument of the issues presented
at summary judgment. Mr. Carney has appealed the
court’s summary judgment ruling.48 He contends that
his appeal presents numerous legal questions of the
43

D.I. 63 at 2–3; D.I. 66 at 1–2.

44

Reilly, 858 F.3d at 179.

45

D.I. 63 at 3–4.

46

Id. at 8–10.

47

D.I. 66 at 2–4.

48

D.I. 68

202
first impression. The court recognizes that, even
though the court cannot consider Mr. Carney’s new
arguments, the Third Circuit may allow him to make
these new arguments in his appeal. The Third Circuit
may agree with Mr. Carney. Given the court’s limited
consideration of the merits of the case at bar, that the
Third Circuit may agree with Mr. Carney is sufficient,
for the purposes of the stay, “to show a likelihood of
success on the merits (that is, a reasonable chance, or
probability, of winning) to be granted relief.”50 Therefore, the court finds that the likelihood of success
factor weighs in favor of a stay.
49

2. Irreparable Harm
Mr. Carney paints a picture of doom and gloom,
arguing that the court’s decision has “broad implications not just for Delaware, but for numerous other
states, and even the President of the United States
and United States Senate, who nominate and consent
to appointment of judges.”51 Fortunately for the court,
Mr. Carney also focuses on the court’s more immediate
concerns of harm to the state of Delaware. According
to Mr. Carney, during his appeal to the Third Circuit,
which may take a year or more, he must continue to
fill judicial offices, and these are positions with terms
lasting 12 years.52 Mr. Adams takes a different tack
and argues that he would be irreparably harmed by

49

D.I. 63 at 4.

50

Singer Mgmt. Consultants, 650 F.3d at 229 (emphasis in
original).
51

D.I. 63 at 4–5.

52

Id. at 5–6.

203
the grant of a stay: an argument that best addresses
the balance of the equities and not irreparable harm.53
The court agrees with Mr. Carney that it is of
paramount importance that he have a mechanism in
place to promptly fill any judicial vacancies. The court
also agrees that it will cause irreparable harm to the
people of the State of Delaware if Mr. Carney is unable
to fill judicial vacancies that may arise in the time that
it takes for the Third Circuit to provide clear direction
to the court. Such a mechanism currently exists in the
provisions of the Constitution of the State of Delaware,
even though the court has determined that these provisions violate the First Amendment of the United
States Constitution. A stay of judgment would
preserve that mechanism.
Absent a stay, the parties would have to craft a new,
temporary mechanism for appointing judges. Were
Mr. Carney to develop such a mechanism on his own
(which presumably he could), he rightly points out
that Mr. Adams “has made [it] clear” that he intends
“to seek contempt hearings if he believes the Governor
(or, presumably, the Delaware General Assembly)
takes political affiliation into consideration when
filling vacancies.”54 This has already happened
53
54

D.I. 66 at 5–6.

D.I. 63 at 6 (citation omitted). Mr. Carney’s argues that Mr.
Adams is an “individual who plainly disagrees with the scope of
the Court’s rulings[.]” Id. Apparently, Mr. Adams disagrees with
the court’s holding on standing. Compare D.I. 61 at 11–12
(“Therefore, plaintiff has prudential standing to challenge, on
First Amendment grounds, the entirety of Article IV, § 3 of the
Constitution of the State of Delaware.”); with D.I. 66 at 4 (“While
the Court did find that Adams satisfied the requirements of prudential standing, it did not suggest this would allow the Court to
decide the ‘bare minimum’ provisions as to which the Court found
there was no Article III standing.”).

204
once, and it is likely to happen again.56 Some form of
consent agreement could fill this gap, but no such
consent is currently before the court, and the parties
do not appear able to reach an agreement. For the
foregoing reasons, irreparable harm factors weigh in
favor of a stay. With the first two factors favoring a
stay, the court turns to the remaining factors.
55

3. Balance of the Equities
Mr. Adams argues that he is harmed more by the
grant of a stay than Mr. Carney and the State of
Delaware is harmed by the denial of a stay. As discussed above, the State of Delaware would be harmed
by the denial of a stay, because Mr. Carney will be
unable to fill judicial vacancies. In conjunction with
his brief, Mr. Adams provided an appendix documenting that he had applied to two judgeships and had been
rejected from both.57 The rejection letters indicate that
he was not rejected out of hand for his party affiliation
and that rather, his applications had been considered
on the merits:
The [Judicial Nominating Commission] gave
careful and thorough consideration to your
application and had some tough decisions to
make in selecting applicants to be forwarded
to Governor Carney for consideration. The
election of judicial candidates is a difficult
task, particularly when there are a number of

55

D.I. 57. The court denied this motion without prejudice. D.I.
60 at 11.
56

Clearly, contempt proceedings are not an efficient (or
desirable) mechanism for filling judicial vacancies.
57

D.I. 66, ex. A.

205
well-qualified and distinguished applicants
for the same position.58
Mr. Adams has applied to both the Superior Court
and the Court of Common Pleas. Based upon these
letters, as an unaffiliated voter, he does not currently
appear to be harmed by the Judicial Nominating Commission’s practices, and it does not appear that he will
suffer harm were the court to grant the Motion to Stay.
As for the larger public, including those individuals
who belong to major political parties and whose applications to judicial office may be denied because of their
specific party affiliation, those individuals will suffer
harm under a stay. Taken together, defendant will be
harmed absent a stay, plaintiff will not be harmed if a
stay is granted, but there is a third group of individuals (not presently before the court and whose interests
are ostensibly represented by Mr. Adams) whose First
Amendment rights will continue to be harmed if a stay
is granted. Therefore, the court finds that the balance
of the equities weighs slightly against a stay.
4. Public Interest
There are several competing aspects of the public
interest. First, the people of Delaware have an interest
in filling judicial offices—with adequate judicial staffing people and entities are ensured due process and
speedy trials. This weighs in favor of there being a
mechanism for appointing judges. Second, the people
of Delaware have written a state Constitution that
reflects their long-standing will to have political balance on the judiciary. As against rules and unwritten
policies linking employment to political affiliation,59
58

Id. at 9 of 10.

59

E.g., Elrod v. Burns, 427 U.S. 347, 351 (1976)

206
upholding the public will pending appeal weighs in
favor of a stay.
Third, the public has an interest in there being a
stable mechanism for appointing judges. If the Third
Circuit upholds the court’s decision, and finds the
political balance requirement to be a violation of the
First Amendment, then a stay would mean that the
mechanism would be changed once by the people of
Delaware after the Third Circuit has spoken. However, if the Third Circuit reverses the court’s decision
and finds the political balance requirement does not
violate the First Amendment, then a stay of judgment
would mean that there would be no change to the
mechanism for selecting appointees to judicial office.
By comparison, no stay would mean continued uncertainty, additional litigation, and the potential for numerous unfilled judicial positions. The public interest in
stability weighs in favor of a stay.
Fourth, there is a public interest in protecting First
Amendment rights.60 This interest weighs against a
stay. Of the four interests discussed, only one weighs
against a stay, and even though this is a First Amendment interest, it is opposed by public interests in due
process and speedy trials. Therefore, the public interest weighs in favor of a stay.
5. Conclusion—Motion to Stay
Given the numerous new arguments in Mr. Carney’s
briefs on the Motion to Stay, the court did not consider
many of these arguments as to likelihood of success on
the merits. Although the court disagrees with Mr.
Carney, the court nonetheless recognizes that the
60

Joelner v. Vill. of Washington Park, Illinois, 378 F.3d 613,
620 (7th Cir. 2004).

207
Third Circuit may agree with him—this chance is
sufficient for him to establish a likelihood of success on
the merits. Mr. Carney and the State of Delaware have
an interest in filling judicial vacancies, and absent a
stay, these empty judicial offices will cause the people
of Delaware irreparable harm. The balance of the
equities weighs slightly against a stay, but the public
interest overwhelmingly supports one. Therefore, the
court concludes that a stay of judgment is appropriate
in the case at bar.
IV. CONCLUSION
For the reasons discussed herein, IT IS ORDERED
that defendant’s Motion to Stay, D.I. 63, is GRANTED.
The court’s judgment Order, D.I. 39, D.I. 62, is hereby
STAYED pending appeal to the United States Court of
Appeals for the Third Circuit.
Dated: June 25, 2018

/s/ Mary Pat Thynge
Chief U.S. Magistrate Judge

208
ADDENDUM
CONSTITUTION OF THE
STATE OF DELAWARE
————
Adopted in Convention.
June 4th, A. D. 1897.
————
Published by the Secretary of State,
by Authority of a Resolution of the
Constitutional Convention.
————
Republished by Order of the State Senate.
————
1903.
THE UNION REPUBLICAN,
GEORGETOWN, DEL.
* * *
SECTION 2. There shall be six State Judges who shall
be learned in the law. One of them shall be Chancellor,
one of them Chief Justice and the other four of them
Associate Judges.
The Chancellor, Chief Justice and one of the Associate Judges may be appointed from and reside in any
part of the State. The other three Associate Judges
may be appointed from any part of the State. They
shall be resident Associate Judges, and one of them
shall reside in each county.
In case the commissions of two or more of the Associate Judges shall be of the same date, they shall, as
soon as conveniently may be after their appointment,

209
determine their seniority by lot, and certify the result
to the Governor.
SECTION 3. The Chancellor, Chief Justice and
Associate Judges shall be appointed by the Governor,
by and with the consent of a majority of all the members elected to the Senate, for the term of twelve years:
Provided, however, that the Chancellor, Chief Justice
and Associate Judges first to be appointee under this
amended Constitution, shall be appointed by the Governor without the consent of the Senate, for the term
of twelve years; and the persons so appointed shall
enter upon the discharge of the duties of their respective offices upon taking the oath of office prescribed by
this amended Constitution. If a vacancy shall occur, by
expiration of term or otherwise, at a time when the
Senate shall not be in session, the Governor shall
within thirty days after the happening of any such
vacancy convene the Senate for the purpose of confirming his appointment to fill said vacancy, and the
transaction of such other executive business as may
come before it. Such vacancy shall be filled as aforesaid for the full term. The said appointment shall be
such that no more than three of the said five law
judges, in office at the same time, shall have been
appointed from the same political party.
SECTION 4. The Chancellor, Chief Justice and Associate Judges shall respectively receive from the State
for their service a compensation which shall be fixed
by law and paid quarterly and shall not be less than
the annual sum of three thousand dollars, and they
shall not receive any fees or perquisites in addition
* * *

210
CHAPTER 109
CONSTITUTIONAL AMENDMENT - RELATING
TO JUDICIARY AND SUPREME COURT
AN ACT AGREEING TO THE PROPOSED AMENDMENTS TO ARTICLE IV OF THE CONSTITUTION
OF THE STATE OF DELAWARE, RELATING TO
THE JUDICIARY.
WHEREAS, Amendments to the Constitution of the
State of Delaware were proposed to the Senate in the
One Hundred and Fifteenth Session of the General
Assembly as follows:
“AN ACT PROPOSING CERTAIN AMENDMENTS
TO ARTICLE IV OF THE CONSTITUTION OF THE
STATE OF DELAWARE, RELATING TO THE JUDICIARY.
“Be it enacted by the Senate and House of Representatives of the State of Delaware in General Assembly
met (two-thirds of all the Members elected to each
House agreeing thereto):
“Section 1. That Article W of the Constitution of the
State of Delaware be amended so as to read as follows:
“ARTICLE IV
“Judiciary
“Section 1. The judicial power of this State shall be
vested in a Supreme Court, a Superior Court, a Court
of Chancery, an Orphans’ Court, a Register’s Court,
Justices of the Peace, and such other courts as the
General Assembly, with the concurrence of two-thirds
of all the Members elected to each House, shall have
by law established prior to the time this amended Article W of this Constitution becomes effective or shall
from time to time by law establish after such time.

211
“Section 2. There shall be three Justices of the
Supreme Court who shall be citizens of the State and
learned in the law. One of them shall be the Chief Justice who shall be designated as such by his appointment and who when present shall preside at all sittings of the Court. In the absence of the Chief Justice
the Justice present who is senior in length of service
shall preside. If it is otherwise impossible to determine
seniority among the Justices, they shall determine it
by lot and certify accordingly to the Governor.
“There shall be six other State Judges who shall be
citizens of the State and learned in the law. One of
them shall be Chancellor, one of them President Judge
of the Superior Court and of the Orphans’ Court and
the other four of them Associate Judges of the Superior
Court and of the Orphans’ Court. Three of the said
Associate Judges shall be resident Associate Judges
and one of them shall after appointment reside in each
County of the State. If it is otherwise impossible to
determine seniority of service among the said Associate Judges, they shall determine it by lot and certify
accordingly to the Governor.
“There shall also be such number of other State
Judges to be known as Vice-Chancellors as shall have
been provided for by the Constitution or by Act of the
General Assembly prior to the time this amended
Article IV of this Constitution becomes effective and as
may be provided for by Act of the General Assembly
after such time. Each of such Vice-Chancellors shall be
citizens of the State and learned in the law.
“Section 3. The Justices of the Supreme Court, the
Chancellor and the Vice-Chancellor or Vice-Chancellors,
and the President Judge and Associate Judges of the
Superior Court and of the Orphans’ Court shall be
appointed by the Governor, by and with the consent of

212
a majority of all the Members elected to the Senate, for
the term of twelve years each, and the persons so
appointed shall enter upon the discharge of the duties
of their respective offices upon taking the oath of office
prescribed by this Constitution. If a vacancy shall
occur, by expiration of term or otherwise, at a time
when the Senate shall not be in session, the Governor
shall within thirty (30) days after the happening of any
such vacancy convene the Senate for the purpose of
confirming his appointment to fill said vacancy and
the transaction of such other executive business as
may come before it. Such vacancy shall be filled as
aforesaid for the full term.
“Appointments to the offices of the State Judiciary
shall at all times be subject to all of the following limitations:
“First, no more than two of the three Justices of the
Supreme Court in office at the same time, shall be of
the same major political party, at least one of said Justices shall be of the other major political party;
“Second, no more than three of the five Judges of the
Superior Court and Orphans’ Court, in office at the
same time, shall be of the same major political party,
at least two of the five Judges shall be of the other
major political party;
“Third, at any time when the total number of the
offices of the three Justices of the Supreme Court, the
five Judges of the Superior Court and Orphans’ Court,
the Chancellor and all Vice-Chancellors, shall be an
even number, not more than one-half of the members
of all such offices shall be of the same major political
party; and at any time when the total number of such
offices shall be an odd number, then not more than a
bare majority of the members of all such offices shall

213
be of the same major political party, the remaining members of the Courts above enumerated shall be of the
other major political party.
“Section 4. The Justices of the Supreme Court, the
Chancellor and the Vice-Chancellor or Vice-Chancellors,
and the President Judge and Associate Judges of the
Superior Court and of the Orphans’ Court shall respectively receive from the State for their services compensations which shall be fixed by law and paid monthly
and they shall not receive any fees or perquisites in
addition to their salaries for business done by them
except as provided by law. They shall hold no other
office of profit.
“Section 5. The President Judge of the Superior Court
and of the Orphans’ Court and the four Associate
Judges thereof shall compose the Superior Court and
the Orphans’ Court, as hereinafter prescribed. The
said five Judges shall designate those of their number
who shall hold the said courts in the several counties.
No more than three of them shall sit together in either
of the said courts. In each of the said courts the
President Judge when present shall preside and in his
absence the senior Associate Judge present shall
preside.
“One Judge shall constitute a quorum of the said
Courts, respectively, except in the Superior Court
sitting to try a criminal case involving a charge of capital felony, when three Judges shall constitute a quorum, and except in the Superior Court sitting to try
cases of prosecution under Section 8 of Article V of this
Constitution, when two Judges shall constitute a quorum, and except in the Orphans’ Court sitting to hear
appeals from a Register’s Court, when two Judges
shall constitute a quorum. One Judge may open and
adjourn any of said Courts.

214
“Section 6. Subject to the provisions of Section 5 of
this Article, two or more sessions of the Superior Court
and of the Orphans’ Court may at the same time be
held in the same county or in different counties, and
the business in the several counties may be distributed
and apportioned in such manner as shall be provided
by the rules of the said Courts, respectively.
“Section 7. The Superior Court shall have jurisdiction of all causes of a civil nature, real, personal and
mixed, at common law and all other the jurisdiction
and powers vested by the laws of this State in the
formerly existing Superior Court; and also shall have
all the jurisdiction and powers vested by the laws of
this State in the formerly existing Court of General
Sessions of the Peace and Jail Delivery; and also shall
have all the jurisdiction and powers vested by the laws
of this State in the formerly existing Court of General
Sessions; and also shall have all the jurisdiction and
powers vested by the laws of this State in the formerly
existing Court of Oyer and Terminer.
“Section 8. The phrase ‘Supreme Court’ as used in
Section 4 of Article V of this Constitution and the
phrases ‘Superior Court,’ Court of General Sessions of
the Peace and Jail Delivery,’ ‘Court of Oyer and Terminer’ and ‘Court of General Sessions’ whenever found
in the law of this State, elsewhere than in this amended Article IV of this Constitution, shall be read as and
taken to mean, and hereafter printed as, the Superior
Court provided for in this amended Article IV of this
Constitution; and the phrase ‘Chief Justice’ wherever
found in the law of this State existing at the time this
amended Article IV of this Constitution becomes effective, elsewhere than in this amended Article IV of this
Constitution, shall be read as and taken to mean, and
hereafter printed as President Judge of the Superior

215
Court and of the Orphans’ Court, as provided for in
this amended Article IV of this Constitution.
“Section 9. The Orphans’ Court shall have all the
jurisdiction and powers vested by the laws of this State
in the Orphans’ Court.
“Section 10. The Chancellor and the Vice-Chancellor
or Vice-Chancellors shall hold the Court of Chancery.
One of them, respectively, shall sit alone in that court.
This court shall have all the jurisdiction and powers
vested by the laws of this State in the Court of Chancery. The business of the court shall be distributed
by the Chancellor and the Vice-Chancellor or ViceChancellors between or among themselves in such
manner as to expedite it. The rules of the Court of
Chancery shall be made by the Chancellor and he may
make general rules providing for the distribution of
the business of the court between or among the
Chancellor and the Vice-Chancellor or Vice-Chancellors.
In any cause or matter in the Court of Chancery that
is initiated by an application to a Judge of that Court,
the application may be made directly to the Chancellor
or a Vice-Chancellor. Causes or proceedings in the
Court of Chancery shall be decided, and orders or
decrees therein shall be made, by the Chancellor or
Vice-Chancellor who hears them, respectively.
“In cases of temporary emergency, upon written
request made by the Chancellor to the President Judge
of the Superior Court and of the Orphans’ Court, or to
the Senior Associate Judge of said Courts if the said
President Judge should be incapacitated or absent
from the State, such President Judge or senior Associate
Judge, as the case may be, shall be authorized and it
shall be his duty to designate one or more of the five
Judges of the Superior Court and of the Orphans’
Court to sit separately as Acting Vice-Chancellor, or

216
Acting Vice-Chancellors, and hear and decide such
causes in the Court of Chancery as the Chancellor may
indicate prior to such designation that he desires to be
so heard and decided. It shall be the duty of the Judges
so designated to serve accordingly as Acting ViceChancellors. The Judges hearing and deciding such
causes as such Acting Vice-Chancellors shall make all
appropriate orders and decrees therein, in their own
names as Acting Vice-Chancellors, and, for the purpose
of said causes, shall be Judges of the Court of Chancery.
“(1) To issue writs of error in civil causes to
the Superior Court and to determine
finally all matters in error in the judgments and proceedings of said Superior
Court in civil causes.
“(2) To issue upon application of the accused,’
after conviction and sentence, writs of
error in criminal causes to the Superior
Court in all cases in which the sentence
shall be death, imprisonment exceeding
one month, or fine exceeding One Hundred Dollars ($100.00), and in such other
cases as shall be provided by law; and to
determine finally all matters in error in
the judgments and proceedings of said
Superior Court in such criminal causes;
provided, however, that there shall be no
writ of error to the Superior Court in
cases of prosecution under Section 8 of
Article V of this Constitution.
“(3) To receive appeals from the Superior Court
in cases of prosecution under Section 8 of
Article V of this Constitution and to determine finally all matters of appeal in such
cases.

217
“(4) To receive appeals from the Court of
Chancery and to determine finally all
matters of appeal in the interlocutory or
final decrees and other proceedings in
chancery.
“(5) To receive appeals from the Orphans’
Court and to determine finally all matters of appeal in the interlocutory or final
decrees and judgments and other proceedings in the Orphans’ Court.
“(6) To issue writs of prohibition, quo warranto, certiorari and mandamus to the Superior Court, the Court of Chancery and the
Orphans’ Court, or any of the Judges of
the said courts and also to any inferior
court or courts established or to be established by law and to any of the Judges
thereof and to issue all orders, rules and
processes proper to give effect to the same.
The General Assembly shall have power
to provide by law in what manner the
jurisdiction and power hereby conferred
may be exercised in vacation and whether
by one or more Justices of the Supreme
Court.
“(7) To issue such temporary writs or orders
in causes pending on appeal, or on writ of
error, as may be necessary to protect the
rights of parties and any Justice of the
Supreme Court may exercise this power
when the court is not in session.
“(8) To exercise such other jurisdiction by
way of appeal, writ of error or of certio-

218
rari as the General Assembly may from
time to time confer upon it.
“(9) To hear and determine questions of law
certified to it by the Court of Chancery,
Superior Court or Orphans’ Court where
it appears to the Supreme Court that
there are important and urgent reasons
for an immediate determination of such
questions by it. The Supreme Court may
by rules define generally the conditions
under which questions may be certified to
it and prescribe methods of certification.
“Section 12. The Supreme Court shall always consist
of the three Justices composing it except in case of a
vacancy or vacancies in their number or in case any
one or two of them shall be incapacitated or disqualified to sit by reason of interest, in any of which cases
the Chief Justice of the Supreme Court, or if he be
disqualified or incapacitated or if there be a vacancy
in that office, the Justice who by seniority is next in
rank to the Chief Justice, shall have the power to
designate from among the Chancellor, the ViceChancellor or Vice-Chancellors, and the Judges of the
Superior Court, one or more persons to sit in the
Supreme Court temporarily to fill up the number of
that court to three Justices and it shall be the duty of
the person or persons so designated to sit accordingly;
provided, however, that no one shall be so designated
to sit in the Supreme Court to hear any cause in which
he sat below. Three Justices shall constitute a quorum
in the Supreme Court. Any one of the Justices of the
Supreme Court may open and adjourn court.
“Section 13. In matters of chancery jurisdiction in
which the Chancellor and all the Vice-Chancellors are
interested or otherwise disqualified, the President

219
Judge of the Superior Court and of the Orphans’ Court
shall have jurisdiction, or, if the said President Judge
is interested or otherwise disqualified, the senior
Associate Judge not interested or otherwise disqualified shall have jurisdiction.
“Section 14. The President Judge of the Superior
Court and of the Orphans’ Court or any Associate
Judge shall have power, in the absence of the Chancellor and all the Vice-Chancellors from the county where
any suit in equity may be instituted or during the
temporary disability of the Chancellor and all the
Vice-Chancellors, to grant restraining orders, and the
said President Judge or any Associate Judge shall
have power, during the absence of the Chancellor and
all the Vice-Chancellors from the State or his and their
temporary disability, to grant preliminary injunctions
pursuant to the rules and practice of the Court of
Chancery; provided that nothing herein contained
shall be construed to confer general jurisdiction over
the case.
“Section 15. The Governor shall have power to commission a Judge or Judges ad litem to sit in any cause
in any of said Courts when by reason of legal exception
to the Judges authorized to sit therein, or for other
cause, there are not a sufficient number of Judges
available to hold such Court. The commission in such
case shall confine the office to the cause and it shall
expire on the determination of the cause. The Judge so
appointed shall receive reasonable compensation to be
fixed by the General Assembly. A Member of Congress,
or any person holding or exercising an office under the
United States, shall not be disqualified from being
appointed a Judge ad litem.
“Section 16. The jurisdiction of each of the aforesaid
courts shall be co-extensive with the State. Process

220
may be issued out of each court, in any county, into
every county. No costs shall be awarded against any
party to a cause by reason of the fact that suit is brought
in a county other than that in which the defendant or
defendants may reside at the time of bringing suit.
“Section 17. The General Assembly, notwithstanding anything contained in this Article, shall have
power to repeal or alter any Act of the General Assembly giving jurisdiction to the former Court of Oyer and
Terminer, the former Superior Court, the former Court
of General Sessions of the Peace and Jail Delivery, the
former Court of General Sessions, the Superior Court
hereby established, the Orphans’ Court or the Court of
Chancery, in any matter, or giving any power to either
of the said courts. The General Assembly shall also
have power to confer upon the Superior Court, the
Orphans’ Court and the Court of Chancery jurisdiction
and powers in addition to those herein-before mentioned. Until the General Assembly shall otherwise
direct, there shall be an appeal to the Supreme Court
in all cases in which there is an appeal, according to
any Act of the General Assembly, to the former Court
of Errors and Appeals or to the former Supreme Court
of this State.
“Section 18. Until the General Assembly shall otherwise provide, the Chancellor and the Vice-Chancellor
or Vice-Chancellors, respectively, shall exercise all the
powers which any law of this State vests in the Chancellor, besides the general powers of the Court of Chancery, and the President Judge of the Superior Court
and of the Orphans’ Court and the Associate Judges of
said Courts shall each singly exercise all the powers
which any law of this State vests in the Judges singly
of the former Superior Court, whether as members of
the Court or otherwise.

221
“Section 19. Judges shall not charge juries with
respect to matters of fact, but may state the questions
of fact in issue and declare the law.
“Section 20. In civil causes where matters of fact are
at issue, if the parties agree, such matters of fact shall
be tried by the court, and judgment rendered upon
their decision thereon as upon a verdict by a jury.
“Section 21. In civil causes, when pending, the Superior Court shall have the power, before judgment, of
directing, upon such terms as it shall deem reasonable, amendments in pleadings and legal proceedings,
so that by error in any of them, the determination of
causes, according to their real merits, shall not be hindered; and also of directing the examination of witnesses and parties litigant.
“Section 22. At any time pending an action for debt
or damages, the defendant may bring into court a sum
of money for discharging the same, together with the
costs then accrued and the plaintiff not accepting the
same, if upon the final decision of the cause, he shall
not recover a greater sum than that so paid into court
for him, he shall not recover any costs accruing after
such payment, except where the plaintiff is an executor or administrator.
“Section 23. By the death of any party, no suit in
chancery or at law, where the cause of action survives,
shall abate, but, until the General Assembly shall otherwise provide, suggestion of such death being entered
of record, the executor or administrator of a deceased
petitioner or plaintiff may prosecute the said suit; and
if a respondent or defendant dies, the executor or
administrator being duly serviced with a scire facias
thirty (30) days before the return thereof shall be
considered as a party to the suit, in the same manner

222
as if he had voluntarily made himself a party; and in
any of those cases, the court shall pass a decree, or
render judgment for or against executors or administrators as to right appertains. But where an executor
or administrator of a deceased respondent or defendant becomes a party, the court upon motion shall grant
such a continuance of the cause as to the judges shall
appear proper.
“Section 24. Whenever a person, not being an executor or administrator, appeals or applies to the Supreme
Court for a writ of error, such appeal or writ shall be
no stay of proceedings in the court below unless the
appellant or plaintiff in error shall give sufficient
security to be approved by the court below or by a judge
of the Supreme Court that the appellant or plaintiff in
error shall prosecute respectively his appeal or writ to
effect, and pay the condemnation money and all costs,
or otherwise abide the decree in appeal or the judgment in error, if he fail to make his plea good.
“Section 25. No writ of error shall be brought upon
any judgment heretofore confessed, entered or rendered,
or upon any judgment hereafter to be confessed, entered
or rendered, but within six (6) months after the confessing, entering or rendering thereof; unless the person
entitled to such writ be an infant, non compos mentis,
or a prisoner, and then within six months exclusive of
the time of such disability.
“Section 26. The Prothonotary of each County shall
be the Clerk of the Superior Court in and for the
County in which he holds office. He may issue process,
take recognizance of bail and enter judgments, according to law and the practice of the court. No judgment
in one county shall bind lands or tenements in another
until a testatum fieri facias being issued shall be entered
of record in the office of the Prothonotary of the County

223
wherein the lands or tenements are situated. Such
Prothonotary shall perform all duties heretofore
performed by the Clerk of the Peace as Clerk of the
former Court of General Sessions and the former
Court of Oyer and Terminer.
“Section 27. The Supreme Court shall have the
power to appoint a Clerk to hold office at the pleasure
of the said Court. He shall receive from the State for
his services a compensation which shall be fixed from
time to time by the said Court and paid monthly.
“Section 28. The General Assembly may by law give
to any inferior courts by it established or to be established, or to one or more justices of the peace, jurisdiction of the criminal matters following, that is to say—
assaults and batteries, carrying concealed a deadly
weapon, disturbing meetings held for the purpose of
religious worship, nuisances, and such other misdemeanors as the General Assembly may from time to
time, with the concurrence of two-thirds of all the
Members elected to each House, prescribe.
“The General Assembly may by law regulate this
jurisdiction, and provide that the proceedings shall be
with or without indictment by grand jury, or trial by
petit jury, and may grant or deny the privilege of
appeal to the Superior Colift; provided, however, that
there shall be an appeal to the Superior Court in all
cases in which the sentence shall be imprisonment
exceeding one (1) month, or a fine exceeding One
Hundred Dollars ($100.00).
“Section 29. There shall be appointed, as hereinafter
provided, such number of persons to the office of
Justice of the Peace as shall be directed by law, who
shall be commissioned for four (4) years.

224
“Section 30. Justices of the Peace and the judges of
such courts as the General Assembly may establish, or
shall have established prior to the time this amended
Article IV of this Constitution becomes effective, pursuant to the provisions of Section 1 or Section 28 of
this Article, shall be appointed by the Governor, by
and with the consent of a majority of all the Members
elected to the Senate, for such terms as shall be fixed
by this Constitution or by law.
“Section 31. The Registers of Wills of the several
counties shall respectively hold the Register’s Court in
each County. Upon the litigation of a cause the
depositions of the witnesses examined shall be taken
at large in writing and made part of the proceedings
in the cause. This court may issue process throughout
the State. Appeals may be taken from a Register’s
Court to the Orphans’ Court. In cases where a Register
of Wills is interested in questions concerning the
probate of wills, the granting of letters of administration, or executors’ or administrators’ accounts, the
cognizance thereof shall belong to the Orphans’ Court.
“Section 32. An executor or administrator shall file
every account with the Register of Wills for the
County, who shall, as soon as conveniently may be,
carefully examine the particulars with the proofs
thereof, in the presence of such executor or administrator, and shall adjust and settle the same accordingly to the right of the matter and the law of the land;
which account so settled shall remain in his office for
inspection; and the executor, or administrator, shall
within three (3) months after such settlement give
notice in writing to all persons entitled to shares of the
estate, or to their guardians, respectively, if residing
within the State, that the account is lodged in the said
office for inspection.

225
“Exceptions may be made by persons concerned to
both sides of every such account, either denying the
justice of the allowances made to the accountant or
alleging further charges against him; and the exceptions shall be heard in the Orphans’ Court for the
County; and thereupon the account shall be adjusted
and settled according to the right of the matter and the
law of the land.
“The General Assembly shall have the power to
transfer to the Orphans’ Court all or a part of the
jurisdiction by this Constitution vested in the Register
of Wills and to vest in the Orphans’ Court all or a part
of such jurisdiction and to provide for appeals from
that Court exercising such jurisdiction.
“Section 33. The style in all process and public acts
shall be THE STATE OF DELAWARE. Prosecutions
shall be carried on in the name of the State.
“Section 34. The Chancellor, Chief Justice and
Associate Judges in office at and immediately before
the time this amended Article IV of this Constitution
becomes effective shall hold their respective offices
until the expiration of their terms respectively and
shall receive the compensation provided by law. They
shall, however, be hereafter designated as follows:
“The Chancellor shall continue to be designated as
Chancellor;
“The Chief Justice shall hereafter be designated as
President Judge of the Superior Court and of the
Orphans’ Court;
“The Associate Judges shall hereafter be designated
as Associate Judges of the Superior Court and of the
Orphans’ Court.

226
“The Vice-Chancellor in office at and immediately
before the time this amended Article IV of this Constitution becomes effective shall hold his office until the
expiration of the period of twelve years from the date
of the commission for the office of Vice-Chancellor held
by him at the time this amended Article IV of this
Constitution becomes effective and shall receive the
compensation provided by law. He shall continue to be
designated as Vice-Chancellor.
“Section 35. All writs of error and appeals and proceedings pending, at the time this amended Article IV
of this Constitution becomes effective, in the Supreme
Court as heretofore constituted shall be proceeded
within the Supreme Court hereby established, and all
the books, records and papers of the said Supreme
Court as heretofore constituted shall be the books,
records and papers of the Supreme Court hereby
established.
“All suits, proceedings and matters pending, at the
time this amended Article IV of this Constitution
becomes effective, in the Superior Court as heretofore
constituted shall be proceeded within the Superior
Court hereby established and all the books, records
and papers of the said Superior Court as heretofore
constituted shall be the books, records and papers of
the said Superior Court as heretofore constituted shall
be the books, records and papers of the Superior Court
hereby established.
“All indictments, proceedings and matters of a
criminal nature pending in the former Court of General
Sessions and in the former Court of Oyer and Terminer,
at the time this amended Article IV of this Constitution becomes effective, and all books, records and
papers of said former Court of General Sessions and
former Court of Oyer and Terminer shall be trans-

227
ferred to the Superior Court hereby established, and
the said indictments, proceedings and matters pending shall be proceeded with to final judgment and
determination in the said Superior Court hereby
established.
“The Court of Chancery is not affected by this
amended Article IV of this Constitution otherwise
than by the provisions with respect to a Vice-Chancellor
or Vice-Chancellors.”
AND WHEREAS, the said proposed amendment
was agreed to by two-thirds of all the members elected
to each House in the said One Hundred and Fifteenth
Session of the General Assembly; and
WHEREAS, the said proposed amendment was published by the Secretary of State three months before
the then next general election, to wit: the general election of 1950, in three newspapers in each County in the
State of Delaware, NOW, THEREFORE,
Be it enacted by the Senate and House of Representatives of the State of Delaware in General Assembly
met (two-thirds of all the Members elected to each
House of the General Assembly agreeing thereto):
Section 1. That the said proposed amendment be
and it is hereby agreed to and adopted and that the
same shall forthwith become and be a part of the
Constitution.
Approved May 14, 1951.

228
(ORDER LIST: 589 U.S.)
Friday, December 6, 2019
CERTIORARI GRANTED
No. 19-309

CARNEY, GOV. OF DE V. ADAMS,
JAMES R.

The petition for a writ of certiorari is granted. In
addition to the questions presented by the petition, the
parties are directed to brief and argue the following
question: Whether respondent has demonstrated Article
III standing.

